<html>
<title> - CLIMBING AGAIN: STAKEHOLDER VIEWS ON RESUMING AIR TRAVEL IN THE COVID 19 ERA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






 
 CLIMBING AGAIN: STAKEHOLDER VIEWS ON RESUMING AIR TRAVEL IN THE COVID	
                                 19 ERA

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2020

                               __________

                           Serial No. 116-71

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                 U.S. GOVERNMENT PUBLISHING OFFICE 
43-089 PDF                WASHINGTON : 2021                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON TRANSPORTATION AND MARITIME SECURITY

                  J. Luis Correa, California, Chairman
Emanuel Cleaver, Missouri            Debbie Lesko, Arizona, Ranking 
Dina Titus, Nevada                       Member
Bonnie Watson Coleman, New Jersey    John Katko, New York
Nanette Diaz Barragan, California    Dan Bishop, North Carolina
Val Butler Deming, Florida           Jefferson Van Drew, New Jersey
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
                Alex Marston, Subcomittee Staff Director
            Kyle Klein, Minority Subcomittee Staff Director
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Chairman, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Debbie Lesko, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11

                               Witnesses

Mr. Kevin M. Burke, President and Chief Executive Officer, 
  Airports Council International--North America:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Ms. Sara Nelson, International President, Association of Flight 
  Attendants--Communication Workers of America:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Ms. Neema Singh Gulliani, Senior Legislative Counsel, American 
  Civil Liberties Union:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26
Ms. Victoria Emerson Barnes, Executive Vice President for Public 
  Affairs and Policy, U.S. Travel Association:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36

                             For the Record

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Chairman, Subcommittee on 
  Transportation and Maritime Security:
  Letters From the Honorable Ed Case, a Representative in 
    Congress From the State of Hawai`i...........................    56
  Letter From Captain Joseph G. DePete, President, Air Line 
    Pilots Association, International............................    67
  Statement of John Gannon, CEO/President, Blue Spark 
    Technologies, Inc............................................    69
  Article From USA Today.........................................    70

                                Appendix

Questions From Honorable Dina Titus for Kevin M. Burke...........    73
Questions From Honorable Dina Titus for Sara Nelson..............    74
Question From Honorable Dina Titus for Victoria Emerson Barnes...    74


 CLIMBING AGAIN: STAKEHOLDER VIEWS ON RESUMING AIR TRAVEL IN THE COVID-
                                 19 ERA

                              ----------                              


                        Thursday, June 18, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Transportation 
                                     and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 4:05 p.m., via 
Webex, Hon. J. Luis Correa (Chairman of the subcommittee) 
presiding.
    Present: Representatives Correa, Thompson, Cleaver, Watson 
Coleman, Barragan, Demings, Lesko, Rogers, Kato, Bishop, and 
Van Drew.
    Mr. Correa. The Subcommittee on Transportation and Maritime 
Security will now come to order.
    Thank you, Ranking Member Lesko, and our panel of witnesses 
for joining us today. We are here to discuss proposals for how 
to restore our Nation's aviation system that has been so 
devastated by COVID-19.
    We have seen passenger volume in the last few months go as 
low as 5 percent of normal. Today, it is close to 15 to 20 
percent of normal, but that is just not good enough to keep the 
aviation industry in business, and it is not good enough for 
the health of this Nation. As all of us know, this pandemic is 
unprecedented.
    The lack of Federal leadership and interagency coordination 
is very concerning to all of us. Of course, we ask the 
question: How can we protect our front-line aviation workers 
and our passengers if our consultation coordination is not 
there? That is why Chairman Thompson and I recently sent a 
letter with the leadership of the transportation committee to 
the heads of DHS and DOT, calling for an interagency task force 
to take a holistic approach to supporting our Nation's aviation 
industry.
    I am very concerned about the different requirements for 
mask, temperature checks, health assessments across the 
aviation industry, a lot of different requirements, a lot of 
confusion. This is not good for the traveling public. It 
creates risk for both passengers and aviation workers. We have 
to follow and trust the expertise and recommendation of our 
public health officials. They have to be the ones front and 
center when it comes to public policy. Science and facts must 
inform future Government and industry actions, and our 
decisions ultimately will affect millions of travelers and 
nearly 11 million people whose jobs depend on a healthy 
aviation sector. I repeat: 11 million workers who depend on the 
aviation industry.
    Among the most publicized CDC guidelines are social 
distancing measures. These are most visual when stay-at-home 
orders were issued across the country and have been credited 
for helping to slow the spread of this deadly virus. Today, 
social distancing measures are visible at security checkpoints 
and at boarding gates. However, on board many in the aircraft 
different images have emerged. We have seen social media posts 
of crowded aircraft full of unmasked passengers, and Americans 
are rightfully surprised and troubled to see passengers forced 
to travel in those conditions when by all counts, the demand 
for travel is still very low. Even now we hear from airlines 
that limiting passenger load factors or limiting middle seats 
is not necessary.
    An unfortunate reality to this moment is that we are forced 
to address this crisis during a perilous economic environment 
with very limited resources. That is why we must take--we must 
make sure that the measures we put into place are effective and 
innovative. I look forward to hearing from our witnesses today 
who represent different parts of the industry and have 
different perspectives on temperature checks, health 
assessments, health questionnaires, and contact tracing.
    The complexities of air travel under COVID-19 have also 
sparked an interest in technological solutions. Reducing 
contact between front-line employees and passengers is critical 
to limit the transmission of the virus. Of equal importance is 
to make sure that medicine--that the medicine is not worse than 
the disease.
    The impact of these technologies and procedures on the 
privacy, civil rights, and civil liberties of the flying public 
must be communicated clearly as well. Further, any such 
invasive protocols, like temperature checks, should be subject 
to notice and comment by the public or the public before they 
are wide-spread deployed.
    For example, I understand that TSA is considering 
installing cameras with facial recognition software on TSA's 
Credential Authentication Technology, or CAT, machines that are 
needed in some TSA security checkpoints. Before we roll out 
such facial recognition biometric technology in airports, TSA 
and DHS have a lot of work to do.
    This committee has already done a great deal of oversight 
on this issue, but there are still many concerns over data 
collection, data protection, and use of public's identity--can 
somebody mute themselves out there?
    It is not in anyone's interest to see the Department push 
out new facial recognition technology without having the 
necessary protection in place.
    Another technology under consideration is detection at 
range. These machines use thermal imaging technology to detect 
metal and nonmetallic threats and can reduce the need for pat-
downs at security points. However, history reminds us that the 
last time TSA deployed image technology, specifically the 
advanced image technology at checkpoints today, Congress had to 
step in. Congress issued a deadline to stop the use of scanners 
that did not protect the passengers' privacy, which resulted in 
avatar use today.
    Ultimately, I am looking for solutions, and I want to hear 
from our aviation partners, and the public has a right to an 
informed debate that highlights the issue that must be 
identified and considered before these decisions are made.
    Last but not least, I want to hear from our stakeholders 
how they are protecting their front-line workers. There is no 
aviation industry without the workers. Keeping workers healthy 
and safe and supporting them during this pandemic will ensure 
that this industry and its employees make it through. Our 
aviation industry is resilient but needs all of to us work 
together to ensure the safety, security, and health of the 
public. I look forward to a discussion today.
    [The statement of Chairman Correa follows:]
                  Statement of Chairman J. Luis Correa
                             June 18, 2020
    We are here to discuss proposals for how to restore our Nation's 
aviation system that has been devastated by COVID-19. In recent months, 
we have seen passenger volume plummet to as low as 5 percent. Although 
passenger volumes has increased to 15 to 20 percent, we are a long way 
from where we were last year. This pandemic is unprecedented.
    Still, it is the lack of Federal leadership and interagency 
coordination that I find particularly concerning. How can we protect 
our front-line aviation workers and passengers if the consultation and 
coordination is not there?
    That is why Chairman Thompson and I recently sent a letter with the 
leadership on the Transportation Committee to the heads of DHS and DOT 
calling for an Interagency Task Force to take a holistic approach to 
supporting our Nation's aviation industry.
    I am very concerned about the different requirements for masks, 
temperature checks, and health assessments across the aviation system. 
This creates uncertainty for the traveling public and can increase the 
health risks to both passengers and aviation workers. Following and 
trusting the expertise and recommendations of trusted public health 
officials must be the way to go. Science and facts must inform future 
Government and industry action.
    Our decisions, ultimately, affect millions of travelers and nearly 
11 million people whose jobs depend on a healthy aviation sector. Among 
the most publicized CDC guidelines are ``social distancing'' measures. 
They were most visible when ``stay at home'' orders were issued across 
this country and have been credited for helping to slow the spread of 
this deadly virus.
    Today, social distancing measures are visible at security 
checkpoints and at boarding gates. However, on-board aircraft, 
different images have emerged. We have seen social media posts of 
crowded aircraft, full of unmasked passengers. Americans were 
rightfully surprised and troubled to see passengers forced to travel in 
those conditions when, by all accounts, the demand for travel was 
fairly limited. Even now, we hear from airlines that limiting passenger 
load factors or limiting middle seats is not necessary.
    An unfortunate reality of this moment is that we are forced to 
address this crisis during a perilous economic environment with limited 
resources. That is why we must make sure the measures we put in place 
are innovative and effective.
    I look forward to hearing from our witnesses, who represent 
different parts of the industry and have varying perspectives on 
temperature checks, health assessments, health questionnaires, and 
contact tracing. The complexities of air travel in the COVID-19 era 
have also sparked an interest in technological solutions. Reducing 
contact between front-line employees and passengers is important to 
limit the transmission of the virus. Equally important is making sure 
the medicine is not worse than the disease.
    The impact of these technologies and procedures on the privacy, 
civil rights, and civil liberties of the flying public must be 
communicated clearly. Further, any such invasive protocol like 
temperature checks should be subject to notice and comment by the 
public before wide-spread deployment.
    For example, I understand that TSA is considering installing 
cameras with facial recognition software on TSA's Credential 
Authentication Technology or ``CAT'' machines that are in use at some 
TSA security checkpoints. Before the rollout of facial recognition 
biometric technology into airports, TSA and DHS have a lot of work to 
do. This committee has already done a great deal of oversight on this 
issue.
    There are still many concerns over data collection, data 
protection, and use of public's identity data. It is not in anyone's 
interest to see the Department push out new facial recognition 
technology without having the necessary protections in place.
    Another technology under consideration is ``detection at range''. 
These machines use thermal imaging technology to detect metal and non-
metallic threats and can reduce the need for pat-downs at security 
checkpoints. However, history reminds us that the last time TSA 
deployed imaging technology, specifically the Advanced Imaging 
Technology at checkpoints today, Congress had to step in.
    Congress issued a deadline to stop the use of scanners that did not 
protect the passengers' privacy, which resulted in the avatar in use 
today. Ultimately, I am looking for solutions, and I want to hear from 
our aviation partners. The public has a right to an informed debate 
that highlights issues that must be identified and considered before 
sweeping decisions are made.
    Last but not least, I want to hear from our stakeholders how they 
are protecting their front-line workforces. There is no aviation 
industry without its work force. Keeping workers healthy and safe and 
supporting them during this pandemic will ensure that this industry and 
its employees make it through.
    Our aviation industry is resilient but needs us all to work 
together to ensure the safety, security, and health of the public.

    Mr. Correa. Now I would like to recognize the Ranking 
Member for an opening statement. The Chair now recognizes 
Ranking Member of the subcommittee, the gentlewoman from 
Arizona, Mrs. Lesko, for an opening statement.
    Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chairman.
    It is good to see all of you.
    Hello to Chairman Thompson and Ranking Member Rogers. Good 
to see both of you as well.
    I am pleased that the subcommittee is meeting today to 
perform oversight that is critical to both health--the health 
of our Nation and our Nation's economy. I am disappointed, 
however, that Members are not allowed to meet in person. I, for 
one, am here in Washington, DC, and I am in 2 other committees 
where we are allowed to go in person, even if other Members 
choose to go remotely. It is my understanding this committee 
does not allow that. While other committees have developed 
protocols to allow Members to safely meet in committee spaces, 
this committee has not.
    This is not in keeping with the guidance of the House Rules 
Committee. I hope that soon we can move forward in a manner 
that allows Members to be physically present for the work our 
constituents sent us here to do.
    Turning to the topic of today's hearing, I want to commend 
the men and women of the TSA for continuing to do their jobs 
faithfully throughout the pandemic, even as their agency became 
the hardest-hit in Department of Homeland Security. More than 
650 TSA personnel got tested positive for the virus, and 
tragically, 5 TSA personnel have lost their lives. I sincerely 
want to say that I pray for the families for their comfort from 
their loss.
    The aviation industry is one of many sectors of the economy 
that have been devastated by the impacts of COVID-19. At the 
pandemic's peak, air travel dropped below 100,000 passengers 
per day, a level not seen in the history of TSA and far below 
the average 2.5 million travelers per day that TSA was 
screening prior to the virus' outbreak.
    I can tell you from personal experience--I assume you have 
seen the same--is when this whole thing kind-of started and I 
started traveling back to Washington, DC, there was maybe 12 
people on the plane. It has since grown. When I came last, the 
plane was pretty full, not totally full, but it was getting 
better. Now that is also due to the fact that my airline I 
travel on cut down to one nonstop flight per day.
    As our Nation slowly reemerges from the worst of the 
pandemic, we are beginning to see slivers of hope that air 
travel is starting to increase. With this recovery, TSA and 
transportation stakeholders are responding to new challenges in 
order to keep travelers safe and get America flying again.
    This process presents stakeholders and this subcommittee 
with important questions, including: What will the TSA 
screening process look like? What changes need to occur for 
passengers to be and feel safe? What more can be done to 
protect passengers from a potential second wave of coronavirus 
or a future pandemic? These questions and more continue to 
circulate within the aviation community, and it is my hope to 
hear feedback from our stakeholder panel today.
    Having recently received a briefing from TSA's 
administrator, Mr. Pekoske, I am eager to hear the 
stakeholders' perspective on what partnering with TSA looks 
like in response to the pandemic and how best to implement new 
solutions to passengers' screening and safety. The aviation 
sector is truly on the front lines in the fight to protect 
public health and ensure the free movement of people and goods 
and that fuel America's economy.
    I really do want to thank each one of the witnesses today. 
We are in unprecedented times. When I first started traveling, 
it looked like a ghost town, like we were on some kind of movie 
where, you know, people didn't exist anymore. You know, I was 
often the only car, you know, pulling up to be dropped off at 
the airport, and so I am glad to see that it is picking up 
somewhat. But I do want to hear from our witnesses on what 
their recommendations are because we honestly need to get our 
economy back working again. So thank you again.
    I yield back.
    [The statement of Ranking Member Lesko follows:]
                Statement of Ranking Member Debbie Lesko
                             June 18, 2020
    Thank you, Mr. Chairman. I am pleased that the subcommittee is 
meeting today to perform oversight that is critical to both public 
health and our Nation's economy.
    I am disappointed, however, that Members are not allowed to meet in 
person. While other committees have developed protocols to allow 
Members to safely meet in committee spaces, ours has not. This is not 
in keeping with the guidance of the House Rules Committee. I hope that 
soon we can move forward in a manner that allows Members to be 
physically present for the work our constituents sent us here to do.
    Turning to the topic of today's hearing, I want to commend the men 
and women of TSA for continuing to do their jobs faithfully throughout 
this pandemic, even as their agency became the hardest-hit in DHS. More 
than 650 TSA personnel have tested positive for the virus, and 
tragically, 5 TSA personnel have succumbed to the virus. Our thoughts 
and prayers are with their families.
    The aviation industry is one of many sectors of the economy that 
have been devasted by the impacts of Covid-19. At the pandemic's peak, 
air travel dropped below 100,000 passengers per day--a level not seen 
in the history of TSA and far below the average 2.5 million travelers 
per day that TSA was screening prior to the virus's outbreak.
    As our Nation slowly emerges from the worst of the pandemic, we are 
beginning to see slivers of hope that air travel is starting to 
increase. With this recovery, TSA and transportation stakeholders are 
responding to new challenges in order to keep travelers safe and get 
America flying again. This process presents stakeholders and this 
subcommittee with important questions, including: What will the TSA 
screening process look like? What changes need to occur for passengers 
to be and feel safe? What more can be done to protect passengers from a 
potential second wave of coronavirus or a future pandemic?
    These questions and more continue to circulate within the aviation 
community, and it is my hope to hear feedback from our stakeholder 
panel today. Having recently received a briefing from TSA's 
Administrator Pekoske, I am eager to hear the stakeholders' 
perspectives on what partnering with TSA looks like in response to a 
pandemic and how best to implement new solutions to passenger screening 
and safety.
    The aviation sector is truly on the front lines in the fight to 
protect public health and ensure the free movement of people and goods 
that fuels America's economy. I thank each of the witnesses for 
appearing before the subcommittee today, and I yield back the balance 
of my time.

    Mr. Correa. Thank you.
    Can you hear me OK?
    I want to thank the Ranking Member.
    With, that I would like to yield to the Ranking Member for 
the purposes of a colloquy.
    Mrs. Lesko. Thank you, Mr. Chairman.
    Could you please, Mr. Chairman, explain our agreement of 
committee procedures during these remote proceedings?
    Mr. Correa. Thank you, Ranking Member.
    Let me begin by saying that the standing House Committee 
rules and practices will continue to apply during remote 
proceedings. Members will be expected to continue to adhere to 
those rules of the committee and the House.
    During the covered period, as designated by our Speaker, 
the committee will operate in accordance with House Resolution 
965 and the subsequent guidance from Rules Committee in a 
manner that respects the rights of all Members to participate. 
The technology we are using today requires us to make some 
small modifications to assure that the Members can fully 
participate in these proceedings.
    Mrs. Lesko. Thank you, Mr. Chairman.
    Could you also elaborate on how Members may expect to be 
recognized during remote proceedings?
    Mr. Correa. Thank you very much.
    First, to simplify the order of questioning, I will 
recognize [inaudible] establishing a quorum or for voting and 
Members should make every effort to remain visible on the 
screen throughout the proceedings. If a Member experiences 
issues with their video stream, they may proceed with solely 
audio to ensure connection, provided they have been identified 
previously.
    At the beginning of this hearing, Members are on mute. 
Members may unmute themselves in order to be recognized for the 
purposes of their 5-minute questioning of the witnesses. At the 
conclusion of speaking, Members will be expected to then mute 
themselves again to prevent excess background noise. In the 
event that a Member does not mute themselves after speaking, 
the Clerk has been directed to mute the Members to avoid 
background noise. Should a Member wish to be recognized to make 
a motion, they must unmute themselves and seek recognition at 
the right time.
    Mrs. Lesko. Thank you, Mr. Chairman.
    I do have, before we proceed, I have a question for the 
staff.
    Mr. Chairman, I don't know if you knew it, but your video 
went away and you--your speaking went away for a while, at 
least on my side.
    So, to the staff, do we need to repeat all the stuff for 
the record that he said when it we lost connection with him? Is 
there any staff members, parliamentarians, anybody on this 
call?
    Mr. McClelland. Mr. Chairman, if you can just read the last 
paragraph one more time.
    Mr. Correa. In the event a Member does not mute themselves 
after speaking, the clerk has been directed to mute Members to 
avoid background noise. Should a Member wish to be recognized 
to make a motion, they must unmute themselves and seek 
recognition at the right time.
    Ms. Lesko. OK. Well, to the staff, you might want to email 
all of these rules out, if you haven't already, because it 
wasn't the last paragraph that went out.
    Mr. Correa. Do you want me to read the whole--I can go back 
and read the whole.
    Mrs. Lesko. I don't need it for me. I just don't know if it 
needs to be done officially or not. I can move on.
    Thank you, Mr. Chairman. What could a Member expect, should 
they encounter technical issues during a remote event, which is 
kind-of funny because that just happened?
    Mr. Correa. Mrs. Lesko, you are prophetic.
    In the event a Member encounters technical issues that 
prevent them from being recognized for their questioning, I 
will move to the next available Member of the same party and 
will recognize that Member at the next appropriate time slot, 
provided they have returned to the proceeding. Should a 
Member's time be interrupted by technical issues, I will 
recognize that Member at the next appropriate spot for the 
remainder of their time once their issues have been resolved. 
In the event that I should encounter technical issues, the Vice 
Chair of the committee, if available, or the next senior Member 
of the Majority shall assume the duties of the Chair until I am 
able to return to the proceedings.
    Thank you.
    Mrs. Lesko. All right. Thank you.
    Mr. Chairman, what should Members expect regarding decorum 
during a remote event?
    Mr. Correa. Thank you.
    Members are reminded that they are only allowed to attend 
one virtual event at a time. Should they need to attend another 
committee's proceedings, please fully exit the hearing before 
entering another proceeding.
    Finally, all Members are reminded that they are expected to 
observe standing rules of the committee decorum for appropriate 
attire and should have a professional and apolitical background 
when they are participating in any remote event.
    Mrs. Lesko. Thank you.
    What should Members expect if a witness loses connectivity?
    Mr. Correa. In the event a witness loses connectivity 
during testimony and questioning, I will preserve their time as 
staff addresses the technical issue. I may need to recess the 
proceedings to provide time for the witness to reconnect.
    Debbie, you are muted. Go ahead. We can't hear you.
    Mrs. Lesko. I think what is happening is I am doing it and 
the staff is doing it or something is going on. Hopefully you 
can hear me now.
    Mr. Chairman, finally, what should Members expect if a vote 
is called during a remote event?
    Mr. Correa. Thank you.
    House Resolution 965 requires Members to be visibly present 
to have their vote recorded during a remote event. Members who 
join the proceedings after a vote is called and who are not 
called upon for their vote should seek recognition from the 
Chair to ensure that their vote is recorded. Should a Member 
lose connectivity during a roll call vote, I will hold the vote 
open for a period of time to address the technical issue and 
provide Members with the opportunity to have their vote 
recorded.
    Mrs. Lesko. Thank you, Mr. Chairman.
    I yield back.
    Mr. Correa. Thank you.
    With that, I ask unanimous consent to waive committee rule 
8(a)(2) for the subcommittee during remote proceedings under 
the covered period designated by the Speaker under House 
Resolution 965.
    Without objection, so ordered.
    The Chair now recognizes its Chairperson of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Mr. Thompson? I can't hear you, sir.
    Mr. Thompson. OK. I think we got it this time.
    Thank you, Chairman Correa and Ranking Member Lesko, for 
holding today's hearing.
    I welcome the stakeholders' perspectives on safely resuming 
air travel in the era of COVID-19. The aviation sector consists 
of so much more than TSA and FAA. It includes airports, 
municipal authorities, airlines, and, importantly, all their 
dedicated employees. Additionally, it includes civil rights and 
civil liberties organizations who focus on protecting 
travelers' privacy and civil rights, a heightened concern in 
the wake of the coronavirus.
    COVID-19 has not only inflicted unprecedented loss of life 
on our country, but it has devastated industries including the 
aviation sector. Our Nation's aviation system has been the 
front line of efforts to stop the spread of the pandemic from 
the beginning. TSA's transportation security officers 
constantly interact with passengers, flight crew members, and 
other airport workers, putting themselves at risk each and 
every day. According to TSA, to date, 651 TSA employees have 
tested positive for the virus, of which 468 employees have 
recovered, and, sadly, 5 have died.
    As Chairman of this committee, I have advocated tirelessly 
on behalf of TSA's front-line work force and demanded that they 
be issued appropriate protective equipment like gloves and 
masks to do their important work. They, after all, are on the 
front lines of aviation security, keeping the traveling public 
secure from threats to transportation during the global 
pandemic.
    We must continue to make every effort to ensure that all 
aviation workers are kept safe from this virus. This includes 
airport workers, flight crew members, and mechanics. Failure to 
keep these employees safe has severe negative implications, not 
only to workers in the aviation sector but also risks further 
spread of the virus.
    Like I mentioned earlier, the impact of COVID-19 has been 
devastating to the sector. According to TSA, air travel is down 
84 percent from this exact moment last year. Given this 
reality, the Federal Government must establish the right 
health, safety, and security standards to protect airport 
workers and restore public confidence in travel. This will 
require significant coordination and collaboration on the part 
of agencies like TSA, FAA, and the White House, coordination 
and collaboration that currently does not exist. Instead, we 
see a patchwork of standards and requirements throughout the 
aviation sector, and the American people and the traveling 
public deserve better.
    That is why I called for DHS and DOT to establish an 
interagency task force to ensure that all efforts and policies 
are coordinated at the highest levels in a holistic manner to 
support the successful recovery of the aviation industry.
    Recent news reports have suggested that DHS may be 
preparing to commence a temperature check program where TSA 
would be tasked with checking the temperatures of departing 
passengers to identify individuals who may be COVID-19--may 
have COVID-19. I find this news alarming, given that there is 
an absence of evidence that such health screenings are 
effective, especially since people can spread COVID-19 
asymptomatically, not to mention there are civil rights and 
civil liberties concerns around TSA conducting temperature 
checks.
    I am particularly concerned about DHS collecting, using, 
and safeguarding the sensitive health information of the 
traveling public, airport workers, and airline crew members. 
Additionally, given that COVID-19 disproportionately impacts 
certain communities, including African Americans and the 
elderly, any proposed temperature check protocols must be 
designed to guard against the potential discrimination of 
travelers.
    All the issues I just raised highlight that any temperature 
check program must undergo the notice-and-comment regulatory 
process to ensure the proper rollout of temperature checks at 
our Nation's airports. The future of the aviation industry in 
the COVID-19 era will include a number of challenges, as I have 
just outlined. As the Chairman of this committee, I am 
committed to working with TSA and aviation stakeholders to 
ensure that the sector ultimately succeeds, despite these 
challenges. I am interested in hearing from today's witnesses 
on how we collectively can do so.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             June 18, 2020
    I welcome stakeholder perspectives on safely resuming air travel in 
the era of COVID-19. The aviation sector consists of so much more than 
TSA and FAA. It includes airports, municipal authorities, airlines, 
and--importantly--all their dedicated employees.
    Additionally, it includes civil rights and civil liberties 
organizations who focus on protecting travelers' privacy and civil 
rights--a heightened concern in the wake of the coronavirus. COVID-19 
has not only inflicted unprecedented loss of life on our country but it 
has devastated industries including the aviation sector.
    Our Nation's aviation system has been on the front line of efforts 
to stop the spread of this pandemic from the beginning. TSA's 
transportation security officers constantly interact with passengers, 
flight crew members, and other airport workers--putting themselves at 
risk each and every day. According to TSA, to date 651 TSA employees 
have tested positive for the virus, of which 468 employees have 
recovered and, sadly, 5 have died.
    And as Chairman of this committee, I have advocated tirelessly on 
behalf of TSA's front-line work force and demanded that they be issued 
appropriate protective equipment--like gloves and masks--to do their 
important work. They, after all, are on the front lines of aviation 
security, keeping the traveling public secure from threats to 
transportation during a global pandemic.
    We must continue to make every effort to ensure that all aviation 
workers are kept safe from this virus--this includes airport workers, 
flight crew members, and mechanics. Failure to keep these employees 
safe has severe negative implications for not only the workers and the 
aviation sector but also risks further spread of the virus.
    Like I mentioned earlier, the impact of COVID-19 has been 
devastating to the sector. According to TSA, air travel is down 84 
percent from this exact moment last year. Given this reality, the 
Federal Government must establish the right health, safety, and 
security standards to protect airport workers and restore public 
confidence in travel.
    This will require significant coordination and collaboration on the 
part of agencies like TSA, FAA, and the White House--coordination and 
collaboration that currently does not exist. Instead, we see a 
patchwork of standards and requirements throughout the aviation sector. 
The American people and the traveling public deserve better.
    That is why I called for DHS and DOT to establish an interagency 
task force to ensure that all efforts and policies are coordinated, at 
the highest levels, in a holistic manner to support the successful 
recovery of the aviation industry.
    Recent news reports have suggested that DHS may be preparing to 
commence a temperature check program where TSA would be tasked with 
checking the temperatures of departing passengers to identify 
individuals who may have COVID-19. I find this news alarming given that 
there is an absence of evidence that that such health screenings are 
effective especially since people can spread COVID-19 asymptomatically.
    Not to mention, there are civil rights and civil liberties concerns 
around TSA conducting temperature checks. I am particularly concerned 
about DHS collecting, using, and safeguarding the sensitive health 
information of the traveling public, airport workers, and airline crew 
members.
    Additionally, given that COVID-19 disproportionately impacts 
certain communities--including African Americans and the elderly--any 
proposed temperature check protocols must be designed to guard against 
the potential discrimination of travelers.
    All the issues I just raised highlight that any Federal temperature 
check program must undergo the ``notice and comment'' regulatory 
process to ensure the proper roll-out of temperature checks at our 
Nation's airports. The future of the aviation industry in the COVID-19 
era will include a number of challenges, as I have just outlined.
    As the Chairman of this committee, I am committed to working with 
TSA and aviation stakeholders to ensure that the sector ultimately 
succeeds--despite these challenges. I am interested in hearing from 
today's witnesses on how we collectively can do so.

    Mr. Correa. Thank you, Mr. Chairman.
    Now I would like to recognize the Ranking Member of the 
full committee, the gentle Member from the State of Alabama, 
Mr. Rogers, for an opening statement.
    Welcome, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Can you hear me?
    Mr. Correa. Yes, yes.
    Mr. Rogers. I am pleased this subcommittee is meeting to 
hear stakeholder perspectives on safely resuming air travel, 
though I am perplexed as to why the ACLU is here, not the 
airports.
    Mr. Chairman, I am also disappointed that Members are 
unable to meet physically for this important hearing. Yesterday 
and today, 2 large committees met for mark-ups. Members were 
physically present and adhered to social distancing guidelines 
during debate. Minority Members also were allowed to use the 
committee rooms for these hearings.
    The House will be back next week voting in person. Yet this 
committee chooses not to vote in person or to meet in person. 
The Minority looks forward to working with the Majority in a 
bipartisan manner to allow Members to be physically present for 
committee activities in the future.
    Today's hearing comes at a time when thousands of aircraft 
remain grounded across the United States. Passenger volume has 
dipped 85 percent below average. Ensuring that travelers have 
confidence in the ability to fly safely is vital to the 
industry. Aviation stakeholders must work collaboratively with 
relevant Government entities, including TSA, to restore trust 
in air travel.
    As an agency, TSA has been on the front lines throughout 
this pandemic. We are grateful to the thousands of TSA officers 
who have continued to protect the traveling public. More than 
650 of these line officers have contracted the virus, and each 
Member of this committee is saddened by the tragic loss of 5 
TSA personnel to COVID-19. In addition, air transportation 
stakeholders have also seen their personnel hit hard by COVID-
19.
    As we seek to ensure the health and safety of aviation 
personnel and travelers, I hope to hear more about what 
policies and procedures have been implemented in recent months. 
I also hope to hear from the witnesses what additional actions 
should be taken to protect the flying public.
    I thank the witnesses for appearing before the committee. I 
yield back the balance of my time, Mr. Chairman.
    [The prepared statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
                             June 18, 2020
    Thank you, Mr. Chairman. I am pleased that the subcommittee is 
meeting to hear stakeholder perspectives on safely resuming air travel.
    Though I am perplexed as to why the ACLU is here and not the 
airlines.
    Mr. Chairman, I also am disappointed that Members are unable to 
meet physically for this important hearing.
    Yesterday and today, two large committees met for mark-ups.
    Members were physically present and adhered to socially distancing 
guidelines during debate.
    Minority Members were even allowed to use the committee rooms.
    The House will be back next week voting in person yet this 
committee chooses not to meet in person.
    The Minority looks forward to working with the Majority in a 
bipartisan manner to allow Members to be physically present for 
committee activities in the future.
    Today's hearing comes at a time when thousands of aircraft remain 
grounded across the United States.
    Passenger volume continues to hover around 85 percent below 
average.
    Ensuring that travelers have confidence in the ability to fly 
safely is vital to the industry.
    Aviation stakeholders must work collaboratively with relevant 
Government entities, including TSA, to restore trust in air travel.
    As an agency, TSA has been on the front lines throughout this 
pandemic.
    We are grateful to the thousands of TSA officers who have continued 
to protect the traveling public. More than 650 of these front-line 
officers have contracted the virus.
    Each Member of this committee is saddened by the tragic loss of 5 
TSA personnel to COVID-19.
    In addition, air transportation stakeholders have also seen their 
personnel hit hard by COVID-19.
    As we seek to ensure the health and safety of aviation personnel 
and travelers, I hope to hear more about what policies and procedures 
have been implemented in recent months.
    I also hope to hear from these witnesses what additional actions 
should be taken to protect the flying public.
    I thank the witnesses for appearing before this committee today, 
and I yield back the balance of my time.

    Mr. Thompson. I don't think we can hear you, Lou.
    Mr. Correa. I couldn't hear all of you either. You dropped 
out.
    Mr. Rogers, did you finish your statement?
    Mr. Rogers. Yes, Mr. Chairman, I yielded back.
    Mr. Correa. Thank you very much.
    Other Members of the committee are reminded that, under the 
committee rules, opening statements may be submitted for the 
record. Now I would like to welcome our panel of witnesses and 
thank them for joining us today.
    Our first witness is Mr. Kevin Burke, president and CEO of 
the Airport Council International--North America, where he has 
been since 2014. ACI is a trade association representing the 
governing bodies that operate over 300 commercial airports in 
the United States and Canada.
    Our second witness will be Ms. Sara Nelson, who serves as 
the international president of the Association of Flight 
Attendants--CWA, representing 50,000 flight attendants and 20 
airlines, and she has served in this capacity since 2014 and 
has been a union member since becoming a flight attendant in 
1996.
    Our third witness, Ms. Neema Singh Guliani, serves as 
senior legislative counsel with the American Civil Liberties 
Union. Ms. Guliani is part of the National Political Advocacy 
Department that is focused on surveillance, privacy, and 
National security issues. Before joining the ACLU, she worked 
in the Department of Homeland Security, concentrating on 
National security and civil rights issues.
    Our fourth and final witness is Ms. Victoria Emerson 
Barnes, the executive vice president for public affairs and 
policy at the U.S. Travel Association. The association 
represents over 1,100 members, organizations in the U.S. travel 
industry, and supports almost 16 million jobs.
    Without objection, the witnesses' full statements will be 
inserted in the record. Now I am going to ask each witness to 
summarize their statements for 5 minutes, beginning with Mr. 
Burke.
    Welcome, Mr. Burke.

  STATEMENT OF KEVIN M. BURKE, PRESIDENT AND CHIEF EXECUTIVE 
     OFFICER, AIRPORTS COUNCIL INTERNATIONAL--NORTH AMERICA

    Mr. Burke. Thank you, Mr. Chairman and Ranking Member 
Lesko, for inviting me today. Please excuse my voice. It is 
allergy time. I am doing my best to get through a 5-minute 
statement and answer questions later.
    Again, I am Kevin Burke, president and CEO of Airports 
Council International--North America, a trade association 
representing airports in the United States and Canada. I 
welcome this opportunity to discuss with you today the current 
state of America's airports and new policy recommendations ACI-
NA has developed to provide for the health of travelers, to 
instill public confidence in air travel, and set a solid 
foundation for the future of aviation.
    Since the outbreak of COVID-19, airports have been 
intensely focused on providing for the health and safety of 
passengers, employees, and their tenants. To raise public 
awareness about reducing the spread of COVID-19, airports are 
updating their public websites, installing signage, and making 
routine public announcements about safety in the airports. 
Airports have also implemented numerous mitigation measures at 
their facilities. That includes deploying additional hand 
sanitizer stations and plexiglass barriers at ticket counters, 
checkpoints, gates, and in restrooms. Airports are also working 
to ensure physical distancing space through the facility which, 
as we will discuss later, is a very large challenge. Airports 
have increased the frequency of cleaning with an intense focus 
on, ``touch points.''
    As we continue to navigate these unprecedented times, U.S. 
airports are very grateful for the $10 billion in emergency 
support Congress provided through the CARES Act. Frankly, 
ladies and gentlemen, it was a life line for every commercial 
import in this country. Now the CARES Act grants are helping 
airports offset some of the financial damage from the abrupt 
drop in air travel, but airports Nation-wide still face major 
financial and operational hurdles.
    Now, as all of you who have traveled to and from your 
districts back to Washington, you all know that America's 
airports are indeed hurting. With passenger traffic down nearly 
90 percent from this time last year--that is 90 percent from 
this time last year--ACI-NA estimates U.S. airports face at 
least $23 billion in operating losses as a result of the COVID-
19 pandemic.
    Now on top of that, these airports face significant new 
COVID-related operating expenses for cleaning, employing hand 
sanitizers, installing plexiglass barriers, supplying personal 
protective equipment, and encouraging physical distance in our 
airports.
    Our airports are working hard to cut their budgets, defer 
many capital projects, and plan for the new airport experience 
once this COVID-19 pandemic gets out of the way for us. We also 
are helping employees in this time of extreme stress. We want 
to keep people working at our airports.
    We continue to coordinate closely, very closely, with FAA, 
the TSA, Customs and Boarder Protection, and others on recovery 
efforts, regulatory guidance, and regulatory flexibility to 
help airports remain open while ensuring the safety and 
security of the traveling public.
    I want to commend the agency leaders--that is, David 
Pekoske from TSA and Steve Dickson from FAA--for partnering 
with us and other airport members on these initiatives and for 
their extraordinary accessibility and assistance during this 
very challenging time.
    My written statement details Federal policy solutions we 
and our members have developed to assist airports and aviation 
as we head toward recovery. I would like to highlight 3 key 
points this afternoon.
    First, with air traffic and airport revenues down 
significantly, U.S. airports need another infusion of Federal 
funds to assist during this National emergency. Thirteen 
billion dollars in additional emergency assistance is needed to 
help airports meet growing operating costs and their debt 
service obligations in the coming year.
    Second, U.S. airports are working with stakeholders to 
develop and implement new measures to protect public health. We 
need what I would call a touchless aviation security screening 
process to help provide adequate physical distancing for 
passengers and their baggage as they move through TSA 
checkpoints and Customs and Border Protection ports of 
industry.
    Now to achieve this, we recommend the following: New 
checkpoint technology that reduces touch points, maintains 
physical distancing, and increases security effectiveness. We 
also need a sufficient number of TSA officers so checkpoints 
remain operational, efficient, and safe by maintaining an 
efficient flow of passengers and, again, providing for that 
critical social distancing.
    More support for resisting programming like janitorial 
reimbursement, law enforcement reimbursement, and explosive 
detection system.
    We also need a new airport security grant program at TSA to 
fund activities like perimeter security, checkpoint redesigns, 
pandemic planning, airport emergency operation centers, and 
enhanced closed-circuit TV.
    Third, we recommend the establishment of a joint advisory 
panel involving DHS, DOT, HHS, the State Department, and 
industry stakeholders to develop recommendations for the 
operational infrastructure and technology issues related to 
pandemic planning.
    Now, ladies and gentlemen, airports are leading economic 
engines in your districts, your communities. Investments in 
airports can multiply impacts throughout the region. I look 
forward to working together to help airports weather this 
crisis and get Americans back to work and back traveling again 
in an aviation system that is safer, stronger, more secure, and 
more resilient than ever.
    Thank you, Mr. Chairman, for this opportunity. I welcome 
your questions.
    [The prepared statement of Mr. Burke follows:]
                  Prepared Statement of Kevin M. Burke
                             June 18, 2020
    Thank you, Chairman Correa and Ranking Member Lesko, for inviting 
me to participate in today's hearing. I am Kevin M. Burke, president 
and CEO of Airports Council International--North America (ACI-NA), the 
trade association representing the local, regional, and State-governing 
bodies that own and operate airports in the United States and Canada. I 
would like to take this opportunity to share with you information about 
the current state of America's airports and then outline some policy 
recommendations ACI-NA has developed to provide for the health of 
travelers, instill public confidence in air travel, enhance security, 
and set a solid foundation for the future of aviation.
     airports appreciate emergency assistance through the cares act
    As we continue to navigate these unprecedented times, U.S. airports 
are very grateful for the $10 billion in emergency support Congress 
provided through the CARES Act, which was truly a lifeline for airports 
all across the country. I want to thank all of you in Congress for 
including airport funding in the CARES Act. The CARES Act grants are 
helping airports offset some of the financial damage from the abrupt, 
unexpected drop in air travel that resulted from necessary precautions 
to limit the spread of COVID-19. Even with the CARES Act grants, 
though, airports Nation-wide still face major financial and operational 
hurdles.
                  america's airports are still hurting
    During the COVID-19 National emergency, ACI-NA and its member 
airports remain committed to ensuring that our Nation's aviation system 
remains safe, secure, and efficient for all users. But as you have all 
likely seen in your travels to and from Washington, America's airports 
are hurting.
    Powerful economic engines before the COVID-19 pandemic, generating 
more than $1.1 trillion in annual activity and supporting over 10 
million jobs, U.S. airports have been reduced to mere shells of their 
former selves, with passenger traffic down nearly 90 percent from the 
levels we saw this time last year. As a result, airports, airlines, and 
tenants are all now struggling to survive. ACI-NA estimates U.S. 
airports face at least $23 billion in operating losses as a result of 
the COVID-19 pandemic, based on preliminary data about air service 
reductions to date. On top of that, tenants at U.S. airports--such as 
airlines, concessionaires, and rental car companies--are all seeking 
financial relief from airports via rent/fee waivers and deferrals.
    Meanwhile, airports must still keep the lights on, provide for the 
health, safety, and security of employees and tenants, while ensuring 
the bills are paid. One big cost for airports is debt payments. 
Approximately $7 billion in airport bond principal and interest 
payments are due each year, with total outstanding debt for U.S. 
commercial airports standing at roughly $100 billion.
    At the same time, U.S. airports face growing operating expenses as 
they increase cleaning of public areas, checkpoints, and restrooms; add 
more hand sanitizing stations for passengers and employees; install 
plexiglass barriers in passenger-facing areas; procure cleaning 
supplies and personal protective equipment; and implement physical 
distancing measures.
    As a result, airports are working hard now to cut their budgets, 
reduce other expenses, defer many capital projects, and plan for the 
new airport experience now and into the future.
airports working on industry initiatives to enhance safety and recover 
                             from covid-19
    Since the outbreak of COVID-19, airports have been intensely 
focused on providing for the health and safety of their passengers, 
employees, and tenants. Airports have enhanced communications to raise 
awareness about reducing the spread of COVID-19 by updating their 
public websites, installing signage, and making routine public 
announcements.
    Airports have also implemented numerous mitigation measures to 
include the deployment of additional hand sanitizer and plexiglass 
barriers at various locations, like ticket counters, checkpoints, 
gates, and restrooms. In collaboration with the Transportation Security 
Administration (TSA), airports have worked to ensure ``social 
distancing'' space between screening checkpoint lanes. And airports 
have significantly increased the frequency of cleaning, with an intense 
focus on ``touch points.''
    ACI-NA, in coordination with other transportation sector 
representatives, advocated for the Cybersecurity and Infrastructure 
Security Agency (CISA) to encourage the Federal Emergency Management 
Agency (FEMA) to provide face coverings to critical infrastructure 
workers. As a result, 3.757 million face coverings were allocated to 
the aviation sector and shipped by FEMA to the top 30 airports plus 6, 
to ensure geographic coverage, availability at carrier hubs and cargo 
airports, for distribution to critical infrastructure workers in the 
aviation sector.
    The U.S. Department of Transportation (DOT) subsequently advised 
ACI-NA that it was tasking the Federal Aviation Administration (FAA) to 
contact all Part 139 airports with commercial service to request 
delivery addresses so FEMA could ship 87 million cloth face coverings 
to airports for distribution to passengers and critical infrastructure 
workers. ACI-NA worked closely with DOT and FAA to provide information 
and answer questions from airports about the shipment of cloth face 
coverings. Airports that have received the shipments are in the process 
of making the face coverings available to passengers.
    The airport industry, through ACI-NA and its network of committees, 
is also working on industry initiatives to aid in the recovery from 
COVID-19. Our team is hard at work developing and disseminating the 
best ways to help minimize the spread of the virus, promote confidence 
in air travel, ensure consistency across the industry, and streamline 
the overall recovery of air travel. I have included as part of my 
testimony ACI-NA's official policy positions on facial coverings and 
passenger health screenings related to COVID-19.
    We continue to coordinate closely with the FAA, TSA, Customs and 
Border Protection (CBP), and others on recovery efforts, regulatory 
guidance, and flexibility on regulatory requirements that is critical 
in helping airports remain operational while ensuring safety and 
security of the traveling public. Of particular importance is our 
coordination to ensure the consistency of messaging, which is critical 
to instill passenger confidence. I want to commend the agency leaders 
for partnering with ACI-NA and our member airports on these important 
initiatives as we collectively strive to recover from COVID-19.
               airports offer additional policy solutions
    There is increasing concern, however, that the drastic budgetary 
actions airports are taking, coupled with the initial infusion of 
emergency funds from the CARES Act, will not be enough to keep pace 
with the sharp revenue declines, putting many airports at risk. Most 
importantly, airports want to do what they can to help all of their 
employees in this time of extreme economic stress. In addition to the 
important work the airport industry is doing, I would like to offer the 
following Federal policy solutions that will greatly assist airports 
and aviation as we head toward recovery.
    First, with passenger traffic and airport revenues down 
significantly, U.S. airports need another infusion of Federal funds to 
assist them in this time of National emergency. We recommend $13 
billion in additional emergency assistance to be distributed as quickly 
and efficiently as possible to commercial service airports through 
existing entitlement formulas with no reduced apportionments. These 
funds would help airports meet the operating costs and debt-service 
obligations detailed above in the coming year.
    Second, U.S. airports are working with stakeholders in their 
facilities--including Federal agencies, airlines, and tenants--to 
develop and implement new measures to protect public health and promote 
public confidence in air travel. A major facet of those plans is 
developing ``touchless'' aviation security screening processes that 
provide enhanced security, lower false alarms, and adequate physical 
distancing for passengers and baggage moving through TSA checkpoints 
and CBP ports of entry. In order to further enhance security and 
provide for the health of the traveling public, we recommend immediate 
funding for new technology, infrastructure, and programming updates 
throughout the aviation system, including the following security 
upgrades at U.S. airports:
  <bullet> Congress should provide funding for TSA to procure and 
        deploy technology at security checkpoints that reduces touch 
        points, maintains physical distancing, and increases security 
        effectiveness. Technology such as enhanced Advanced Imaging 
        Technology, Credential Authentication Technology with opt-in 
        Biometric Authentication Technology, and Computed Tomography 
        integrated with Automated Screening Lanes will increase 
        efficiency and security effectiveness while minimizing document 
        exchanges and false alarms that necessitate pat down and bag 
        inspections.
  <bullet> Congress should ensure there is a sufficient number of 
        Transportation Security Officers (TSOs) so that screening 
        checkpoints remain open, operational, and safe. In addition to 
        maintaining an efficient flow of passengers though the 
        checkpoint while properly physical distancing, airports remain 
        concerned about the vulnerability associated with large groups 
        of passengers waiting in checkpoint lines, as well as the 
        potential for misconnecting checked baggage and passengers who 
        miss their intended flights. A shortage of TSOs at a time when 
        airports, and the industry, are attempting to recover from 
        COVID-19 would be disastrous, negatively impacting security and 
        airport operations.
  <bullet> The TSA Law Enforcement Officer (LEO) Reimbursement Program 
        is essential in helping to ensure law enforcement coverage at 
        security checkpoints and public areas. Through the TSA 
        Modernization Act, Congress clearly recognized the significant 
        security value the TSA LEO Reimbursement Program and required 
        TSA to expand it. Section 1935 of the Act directs the TSA 
        administrator to increase the number of awards under the LEO 
        Reimbursement Program ``to increase the presence of law 
        enforcement officers in the public areas of airports, including 
        baggage claim, ticket counters, and nearby roads,'' not just at 
        security checkpoints. Since TSA has taken a more restrictive 
        approach to approving applications and limited reimbursement to 
        only those law enforcement officers stationed in the immediate 
        vicinity of security checkpoints, the expansion of the program 
        envisioned by Congress to increase the presence of law 
        enforcement officers in other critical airport areas has not 
        occurred.
    TSA created the LEO Reimbursement Program to partially reimburse 
airports for providing law enforcement officer staffing at screening 
checkpoints, as required in Federal law, because the agency did not 
have the funding to do so. Over time many airports have entered into 
reimbursable agreements with TSA to provide law enforcement officers to 
support TSA screening operations. As security threats in the public 
areas of airports continue to evolve--and TSA imposes additional 
requirements on airport law enforcement officers--it is essential for 
Congress to provide TSA adequate funding for the LEO Reimbursement 
Program.
  <bullet> In accordance with an Aviation Security Advisory Committee 
        recommendation, Congress should establish an airport security-
        focused grant program at TSA to support checkpoint redesigns, 
        pandemic planning, new airport emergency operations centers, 
        the deployment of perimeter security, access control, automated 
        screening lanes, enhanced closed-circuit TV and other security 
        technology at airports. Airport operators have limited funding 
        available that must be prioritized across a multitude of 
        safety, security, and operational projects. While DHS's 
        existing grant programs have dispensed billions of dollars for 
        systems and technology to bolster State, Tribal, and local 
        security, very little has been allocated to airports.
  <bullet> Congress should provide funding for cleaning and 
        sanitization services at checkpoints and other areas that helps 
        airports provide for the health and safety of TSOs, passengers, 
        and aviation workers. This year's final appropriations measure 
        included an administration request to eliminate a TSA program 
        that reimbursed airports for janitorial services at security 
        checkpoints, effectively shifting the full burden to airports. 
        Despite the administration's assertions to the contrary, there 
        is no Federal requirement that airports provide janitorial 
        services at TSA checkpoints. Airport operators should not be 
        forced to assume the costs of janitorial services at tenant 
        locations outside of their control, particularly when they are 
        required by law to provide the space to TSA free of charge. Now 
        that TSA has established a program to reimburse airports for 
        cleaning and sanitization, airports are better positioned to 
        support increased cleaning requirements in response to the 
        COVID-19 National emergency. Congress should fully authorize 
        and appropriately fund this program.
  <bullet> Congress should ensure TSA has the funds necessary to 
        purchase new Explosive Detection Systems (EDS) to replace 
        outdated systems, and to continue to fulfill its obligation to 
        reimburse eligible airports for the installation of past EDS. 
        As many EDS have or are rapidly reaching the end of their 
        useful lives, TSA needs funding to purchase replacement 
        systems. Absent necessary funding, TSA will incur increasing 
        costs to operate and maintain old systems that routinely break 
        down and adversely impact security and airport operations.
    We appreciate Congress providing funding in the past 2 fiscal years 
for TSA to reimburse airports for previously-incurred costs associated 
with the construction and deployment of in-line checked baggage 
screening systems. Since these airports diverted significant amounts of 
money from other important aviation security projects in order to 
purchase and install EDS, we encourage Congress to continue to follow 
through on this commitment with additional funding, and prohibit TSA 
from redirecting any unused EDS funds to other TSA programs until all 
eligible airports receive full reimbursement.
    Third, we recommend putting additional resources toward retaining 
and hiring additional CBP officers at the ports of entry and fully 
implementing the biometric entry-exit program. CBP user fees have 
decreased tremendously during this pandemic, which has put a huge hole 
in the agency's budget for this year and next. ACI-NA remains at the 
forefront of a diverse coalition of industry stakeholders who support 
improving travel and trade facilitation through CBP ports of entry. The 
coalition--which includes leading voices from various shipping, 
tourism, travel, trade, law enforcement, and employee groups--sent 
letters to the Appropriations Committees last month in support of 
supplemental funding for CBP to make up for the multi-billion loss of 
user-fee revenue.
    Fourth, along those lines, we recommend finally ending the 
diversion of user fees designed to enhance security. Each year billions 
of dollars in TSA and CBP user fees are needlessly diverted from their 
intended purpose to subsidize other Federal programs. In this time of 
National emergency, it is critical to stop these budgetary gimmicks, 
end the fee diversion and ensure the revenue is restored to its proper 
use of funding and enhancing crucial transportation security programs.
    Fifth, we recommend establishing a joint advisory panel involving 
the U.S. Department of Homeland Security, the U.S. Department of 
Transportation, the U.S. Department of Health and Human Services, and 
the U.S. Department of State--along with industry stakeholders--to 
develop recommendations about the operational and infrastructure issues 
related to pandemic planning. Most notably, funding for infrastructure 
and technology will be urgently needed to ensure airports can continue 
to make necessary upgrades and adjustments to their facilities.
    Finally, we recommend extending the deadline for full 
implementation of REAL ID to a future date that allows for significant 
Nation-wide penetration of REAL ID compliance in order to minimize 
unnecessary impacts on air travelers and operations during what is 
expected to be a prolonged economic recovery. Earlier this year, before 
State DMVs shut down due to COVID-19, DHS data indicated that States 
had issued little more than 95 million REAL ID-compliant driver's 
licenses and identification cards, and more than two-thirds of driver's 
licenses and identification cards held by Americans were not REAL ID-
compliant. Although DHS streamlined the process by allowing States to 
accept the required documents submitted electronically, applicants must 
still come in person to a DMV location with the required documentation 
for the purpose of obtaining a REAL ID. Given the likelihood that 
DMVs--when they do reopen--will be faced with a backlog of other 
service requests, REAL ID applications may be delayed even further. The 
health of the aviation industry must be considered when establishing a 
deadline for REAL ID implementation, and a rush to implementation must 
not depress air travel during a recovery period that is expected to be 
slow and prolonged.
                               conclusion
    Airports are leading economic engines in their community and 
investments in airports have multiplying impacts throughout their 
regions. I hope we can all work together over the next few months to 
help airports weather this crisis so we can get Americans back to work 
and traveling again though an aviation system that is stronger, safer, 
more secure, and more resilient than ever.
    Thank you for this opportunity today. I welcome your questions.

    Mr. Correa. Thank you very much, Mr. Burke.
    I now recognize Ms. Nelson to summarize her statements in 5 
minutes.
    Ma'am.

STATEMENT OF SARA NELSON, INTERNATIONAL PRESIDENT, ASSOCIATION 
     OF FLIGHT ATTENDANTS--COMMUNICATION WORKERS OF AMERICA

    Ms. Nelson. Thank you, Chairman Correa, Ranking Member 
Lesko, and, of course, Chairman Thompson and Ranking Member 
Rogers, for the opportunity to testify today.
    My name is Sara Nelson. I am a 24-year union flight 
attendant and president of the Association of Flight 
Attendants--CWA, representing flight attendants across the 
industry.
    The coronavirus is by far the largest crisis ever 
experienced in aviation. We must make some substantial changes 
to air travel to meet this moment. Just as we did under the 
leadership of DOT Secretary Norm Mineta and President George W. 
Bush in the aftermath of 9/11, starting with new emergency 
procedures enacted as early as September 12, 2001. Throughout 
this crisis, airlines have been responsive to our concerns on 
certain safety policies.
    All major airlines now have put in place the requirement of 
masks in the airport and on the plane. But after nearly 120,000 
Americans have died, no contact tracing or containment in 
place, we are just now on Day 3 of this requirement by 
airlines. Without clear instruction from Government and 
airlines passenger and crew, proper training or Federal 
enforcement, flight attendants are left to manage a hodgepodge 
of airline policies on the front lines. Most travelers comply 
with the mask requirements, but conflict still flares up as 
some have been led to believe that masks are a political 
statement rather than a public health necessity.
    Safety is built with a layered approach. This is exactly 
why we have a Department of Transportation to coordinate every 
aspect of travel, consider every touch point, and coordinate 
private, public, and Federal sector workers and services to 
facilitate safe, efficient, accessible travel. Without a 
Federal requirement, including procurement of proper PPE, we 
leave many vulnerabilities and opportunities for spread, 
creating unnecessary health risks for travelers and essential 
workers.
    Our union has written to DOT and HHS to urge the 
Departments to issue emergency safety and health rules as 
detailed in our written testimony, and we would expect them to 
work with DHS as well. Statements by DOT indicate the 
Department does not believe it has a role in public health 
regulations, but, by contrast, the recent DOT ban on e-
cigarette use aboard aircraft was to, ``reduce the risk of 
adverse health effects on passengers and crew members.''
    We strongly support daily health and wellness self-
assessments for flight attendants and other aviation workers 
before we report for duty and for passengers before they fly. 
This can and should be done without requiring aviation workers 
or passengers to reveal private health information. Creating a 
community health corps deployed at our airports can also create 
good jobs that help to reverse sky-high unemployment.
    Staying off a flight for duty at the airport to protect 
health and safety should never result in discipline for 
workers, but many carriers have long-standing punitive policies 
that can lead to discipline or even termination for use of 
legitimate sick leave. Without Federal guidelines that prohibit 
discipline, airlines will choose to do for themselves what 
policies they will put in place. Already Delta Airlines 
subsidiary, Endeavor Air, has announced it will apply 
disciplinary points for any callouts based on new COVID-19 
symptom checks. Many other carriers have instituted symptom 
checks and instructed flight crews to follow Federal guidelines 
to stay home if ill but have not committed to protect workers 
who follow the rules.
    Congress can help the entire industry stay safe by working 
with Federal regulators to pass emergency rules that protect 
jobs, pay, and benefits of any aviation worker who is unable to 
fly because of COVID-19 symptoms.
    Standards for health and safety will be impossible to 
implement without the dedicated, highly-trained, and 
credentialed work force of the aviation industry. Flight 
attendants and aviation workers have been on the front lines of 
the virus since its earliest days, and we are essential to our 
Nation's ability to function. That is why Members of both 
parties joined together this past March to pass a historic 
``workers first'' relief passenger for aviation workers in the 
CARES Act. The Payroll Support Program has kept close to a 
million workers in our jobs and connected to our health care 
and other benefits through September 30.
    I urge the Members of this committee to support a clean 
extension of the PSP through at least January 31, 2021, without 
which we will see hundreds of thousands of furloughs and 
layoffs as of October 1.
    Finally, I would like to recognize the critical need to 
address the disproportionate impact of coronavirus on Black 
lives. We must do everything we can in every sector to ensure 
we implement antiracist policies. Coronavirus lays bare that an 
injury to one is an injury to all.
    On this point, we also celebrate two major Supreme Court 
cases this week that are a step forward--that are a step 
forward on antidiscrimination. The last thing we need in the 
middle of a pandemic is removing Dreamers or LGBTQ workers from 
their jobs in health care. These rulings acknowledge the 
dignity of American workers, and Congress has the opportunity 
to recognize the dignity of work during this pandemic by 
ensuring that workers on the front lines are protected.
    Thank you so much for your time, attention, and action. 
Flight attendants appreciate the work of this committee so 
much. We depend on you, and we look forward to your questions.
    [The prepared statement of Ms. Nelson follows:]
                   Prepared Statement of Sara Nelson
                        Thursday, June 18, 2020
    Dear Chairman Correa, Ranking Member Lesko, and Members of the 
committee: My name is Sara Nelson. I am a 25-year union flight 
attendant and president of the Association of Flight Attendants--CWA, 
AFL-CIO (AFA), representing 50,000 flight attendants across the 
industry. Thank you for the opportunity to testify today on what we are 
experiencing in our work environment during this pandemic and how 
uniform safety policies can mitigate risks and instill confidence for 
the traveling public. Millions of workers' jobs and our entire economy 
depend upon us getting this right.
    COVID-19 remains an unprecedented threat to aviation. Hundreds of 
flight attendants have tested positive for the virus and 10 have lost 
their lives. Three months in, commercial volume is still down by more 
than 85 percent from last year. As a result of the pandemic, nearly 
1,000 U.S. flight attendants have lost jobs permanently and thousands 
more have accepted voluntary furloughs or leaves. Trans States Airlines 
and Compass Airlines have both shuttered since the onset of COVID-19, 
while Norwegian closed U.S. flight attendant bases at the end of March 
(flight attendants have contractual recall rights for 2 years if 
operations resume) and Cathay Pacific will end U.S.-based operations as 
of June 20, 2020. Long-time charter carrier Miami Air filed for 
bankruptcy on March 24, 2020, solely as a result of the pandemic, and 
refusal by Treasury to process the airline's application for a CARES 
Act payroll grant added 350 workers in the Miami area to the 
unemployment line.
    The health and economic impacts of COVID-19 still loom large for 
our industry. Keeping passengers and crew safe is our top priority and 
we must make some substantial changes to air travel to meet this 
moment. Just as air travel changed in the aftermath of 9/11, it will 
need to change now to adapt to the new realities of the post-pandemic 
world. I know this is an analogy that the Members of this subcommittee 
understand well, which is why I'm so grateful for the opportunity to 
testify today, to share my experience with how COVID-19 is affecting 
the work, health, and financial security of flight attendants, and how 
we can move forward together.
Uniform, Federal COVID-19 Health and Safety Rules Are Needed to Protect 
        Passengers and Workers
    As trained public safety professionals, safety is always our top 
concern. We have a duty to make sure that passengers are safe. We need 
clear, enforceable Federal rules for health and safety that set uniform 
standards people can depend on. Federal rules are necessary to protect 
our passengers, protect aviation workers and their families, and build 
confidence for millions of businesses counting on the resumption of 
safe air travel.
    To date, the response to COVID-19, the biggest crisis aviation has 
ever faced, has been a hodge-podge of individual voluntarily-adopted 
measures by airlines. The best available public health information 
confirms that crew and passenger use of masks and cloth face coverings, 
along with proper hand hygiene and social distancing, can help to limit 
the health risks of air travel. The airlines took an important step 
when they put policies in place requiring masks, but in the absence of 
Federal requirements, flight attendants know these policies and related 
communication will remain inconsistent and unclear. Without clear 
instruction, proper training, or clear backing, enforcement will be 
nearly impossible.
    We are also seeing inconsistent safety policies at airports, which 
leave many vulnerabilities and opportunities for spread, particularly 
in enclosed places where large groups of people are frequently 
gathered, sometimes sitting in place (such as when a flight is 
delayed). If passengers do not wear masks inside airports, it creates 
unnecessary health risks for airline and airport workers and all other 
travelers.
    Thus far, Federal agencies have failed to provide the clear rules 
we need to keep people safe. On May 11, 2020, the FAA updated a 
previous guidance document (non-required) for air carrier operators, 
SAFO 20009,\1\ to include an expanded CDC list of COVID-19 symptoms,\2\ 
but still did not require the use of masks or other personal protective 
equipment (PPE) by crew and passengers. At least one carrier, Omni, has 
refused to follow SAFO guidelines, assigning discipline to flight 
attendants when sick, and outright refuses to notify passengers and 
crew who may have been exposed.
---------------------------------------------------------------------------
    \1\ FAA; COVID-19: Updated Interim Occupational Health and Safety 
Guidance for Air Carriers and Crews; May 11, 2020. https://www.faa.gov/
other_visit/aviation_industry/airline_operators/airline_safety/safo/
all_safos/media/2020/SAFO20009.pdf. Accessed May 18, 2020.
    \2\ CDC; Symptoms of Coronavirus; Page last reviewed: May 13, 2020. 
https://www.cdc.gov/coronavirus/2019-ncov/symptoms-testing/
symptoms.html. Accessed May 18, 2020.
---------------------------------------------------------------------------
    No flight attendant wants to tell a scared passenger that there's 
nothing we can do to make them feel safe. Flight attendants and gate 
agents need full management support and the authority to enforce 
airline policies that keep everyone safe and defuse tensions. Without 
the reinforcement that comes with Federal rules--the same regulations 
we use to stop smokers and get people to sit down and buckle up--we're 
being set up to fail. And that will put passengers and crew at risk.
    On June 1, our union wrote again to the U.S. Departments of 
Transportation (DOT) and Health and Human Services (HHS) to urge the 
Departments to issue emergency safety and health rules for aviation 
during the COVID-19 pandemic. We cited the emergency measures taken to 
address airline security following the events of September 11, 2001, 
and more recent health and safety measures, including the recent DOT 
ban on e-cigarette use aboard aircraft, the purpose of which was to 
``reduce the risk of adverse health effects on passengers and 
crewmembers.'' Specifically, we asked that DOT promulgate an emergency 
rule for the duration of the pandemic that includes the following 
specific measures for all commercial flights:
  <bullet> All airplane cabin occupants must wear a mask or cloth face 
        covering per CDC guidelines.\3\ Masks should be worn at all 
        times, except as necessary for eating, drinking, or during 
        other similar, temporary activities. Incidents involving 
        passenger violations of this rule should be considered 
        interfering in a crewmember's duties in violation of 14 CFR  
        91.11 or 121.580, or 49 USC  46504.
---------------------------------------------------------------------------
    \3\ CDC; Use of Cloth Face Coverings to Help Slow the Spread of 
COVID-19; https://www.cdc.gov/coronavirus/2019-ncov/prevent-getting-
sick/diy-cloth-face-coverings.html. Accessed May 18, 2020.
---------------------------------------------------------------------------
  <bullet> Flight attendants, as aviation's first responders and 
        potential carriers of the virus without proper protection, must 
        be provided N95 masks, gloves, and other PPE. While we 
        recognize the challenges originally created due to supply 
        chains, we reiterate the need to implement this standard as 
        soon as practicable following proper provisioning of hospital 
        workers and other health care professionals.
  <bullet> Government must establish and conduct health monitoring for 
        passengers and crew members, which could include temperature 
        checks, signs/symptoms, travel history, and viral or antibody 
        testing. While these measures will not prevent every 
        asymptomatic person (who may still be capable of transmitting 
        the virus) from boarding a flight, they will minimize this risk 
        and deter abuse.
  <bullet> Social distancing standards in the cabin must be set; this 
        may require defining hard load limits that vary depending on 
        specific airplane cabin configurations. Although this could 
        result in more aircraft placed into service for the duration of 
        the pandemic, minimizing the spread of COVID-19 on aircraft 
        should decrease the duration of the emergency.
  <bullet> Require airlines to meet cleaning standards to disinfect, or 
        sanitize, per appropriate CDC guidance, aircraft cabin surfaces 
        after each flight.
  <bullet> Airlines must be required to operate the ventilation air 
        supply systems on ``high flow,'' particularly during boarding 
        and deplaning. And any cabin air that gets recirculated must 
        first pass through High Efficiency Particulate Air (HEPA) 
        filters, per manufacturer's instructions.
    It is clear to anyone working a flight that inconsistent and 
voluntary airline policies leave gaping holes in safety. These policies 
and practices are poorly communicated to crew and passengers alike, 
leaving flight attendants to risk our health and safety while 
attempting to manage the otherwise avoidable conflicts that result. Our 
passengers deserve better.
    As we look forward to the recovery of commercial air travel, our 
goal must be to raise the standards of safety and the confidence of all 
who fly. Enforceable, mandatory, National standards, including those 
outlined here, will protect my colleagues, protect our passengers, and 
help our industry take off again.
         employee health and safety policies cannot be punitive
    Our union believes that no one should fly or work a flight if they 
are presenting with symptoms of COVID-19 or any communicable disease. 
This is a matter of public safety. We strongly support daily health and 
wellness self assessments for flight attendants and other aviation 
workers before they report for duty, consistent with updated Federal 
guidelines,\4\ and for passengers before they fly. We believe that 
wellness checks, as one part of a set of safety and health policies and 
procedures, will boost public confidence in air travel and help limit 
the spread of the virus.
---------------------------------------------------------------------------
    \4\ https://www.faa.gov/other_visit/aviation_industry/
airline_operators/airline_safety/safo/all_safos/media/2020/
SAFO20009.pdf.
---------------------------------------------------------------------------
    We ask that Congress work with our Federal regulators to establish 
clear standards for the entire industry that protect the health and 
wellness of the traveling public while safeguarding the private health 
information of aviation workers and passengers. In short, daily 
wellness checks, including symptom checks, should be conducted without 
requiring aviation workers or passengers to reveal private health 
information.
Staying off a flight to protect health and safety should never result 
        in discipline
    Unfortunately, many carriers have long-standing disciplinary 
policies that could undermine any policy to keep aviation workers at 
home if they are feeling sick. It might surprise Members of the 
committee that if pilots, flight attendants, and gate agents are 
scheduled to work and call out sick, we can be disciplined or even lose 
our jobs. Union contracts help limit corporate abuse on this issue and 
provide due process, but airlines still seek to discipline employees 
for the legitimate use of sick leave.
    Over the past 5 years, as cities and States across the county have 
passed mandatory sick leave laws to protect workers who fall ill before 
they are scheduled to work, the aviation industry has refused to 
comply. The country's largest airlines have gone so far as to sue 
Washington State and Massachusetts to challenge the State sick leave 
laws.
    We believe that aviation workers deserve the same rights as all 
other employees, to stay home from work if they are sick, without fear 
of discipline or termination. But during the on-going COVID-19 
emergency, I think we all recognize that it is a serious public health 
risk to force sick aviation workers to choose between going to work or 
losing their jobs.
    In the absence of clear Federal guidelines that prohibit 
disciplinary measures from being taken against flight crews, airlines 
will choose what to do for themselves. Already, Delta Air Lines 
subsidiary Endeavor Air has announced that it will apply disciplinary 
``points'' for any call-outs based on new COVID-19 symptom checks. Many 
other carriers have instituted symptom checks and instructed flight 
crews to follow Federal guidelines to stay home if ill, but have not 
committed to protect workers who follow the rules. Congress can help 
the entire industry stay safe by working with Federal regulators to 
pass emergency rules that protect the jobs, pay, and benefits of any 
aviation worker who is unable to fly because of COVID-19 symptoms.
    There are already good model rules in place to put safety first. 
The Aviation Safety Reporting System (ASRS)\5\ collects voluntarily 
submitted aviation safety incident/situation reports from pilots, 
controllers, and others. A critical feature of the ASRS system is that 
flight crew members can report safety issues without fear of discipline 
or reprisal. As a result, more than 1 million reports have been made, 
resulting in countless safety improvements in flight. A comparable 
should be instituted here to prioritize health and wellness on flights.
---------------------------------------------------------------------------
    \5\ https://asrs.arc.nasa.gov/overview/summary.html.
---------------------------------------------------------------------------
                         community health corps
    As a result of this pandemic, Americans find themselves in the 
midst of twin crises--a health crisis and a jobs crisis. Our policy 
makers must respond to both which is why AFA-CWA is supportive of 
proposals to create a Community Health Corps, modeled after the jobs 
programs created by the New Deal's Works Progress Administration. The 
WPA employed millions of Americans to carry out public works projects, 
including building public buildings and roads. Instead of building 
roads and bridges, the CHC would carry out critical health work, 
including testing and contract tracing, and build the public health 
infrastructure that will carry us through the pandemic and ensure that 
we aren't again caught flat-footed when the next pandemic emerges.
    We've lost tens of millions of jobs since the pandemic first hit. 
Only a large-scale Federal jobs program will be able to create enough 
jobs to fill the gaping hole in our labor market. But a CHC would do 
more than create jobs--with no vaccine in sight it would also help us 
to save lives and reopen the economy by scaling up testing and tracing 
to contain the virus. Without testing and tracing, we're certain to 
face a second wave of the virus, leading to a second wave of shutdowns, 
more joblessness, and importantly for my union, less air travel.
    Consumer demand in the aviation sector simply will not rebound 
without confidence in safe air travel. Right now, there is no Federal 
plan for ensuring that sick passengers do not board flights. There are 
no health checks required for passengers prior to boarding and no 
mandatory temperature checks. The major carriers require passengers to 
wear masks in flight, but that is not adequate to ensure the safety of 
other passengers, crew, or airport personnel.
    In the wake of 9/11, Congress created the Department of Homeland 
Security and the Transportation Security Administration to respond to 
new security threats in aviation. These new screening protocols kept 
passengers and crew safe in flight and built renewed confidence in the 
safety of air travel, which had dropped precipitously in the wake of 
the terrorist attacks. There are now 50,000 TSA agents in airports 
across the country who screen passengers, crew, and luggage prior to 
boarding.
    As part of the CHC, Congress should authorize the Department of 
Transportation to hire and deploy a Pandemic Health Crew (PHC) at every 
airport in the country to screen all passengers. As air travel picks 
up, we would need at least as many PHC workers as TSA agents. PHC 
workers would run temperature checks for all passengers and ask a 
battery of health questions to screen for exposure to COVID-19 prior to 
boarding. This would also help us identify potential hot spots by 
geographic region and aid health authorities in targeting contact 
tracing. As more passengers consider air travel once again, a PHC is 
essential for their safety.
    A PHC won't create 40 million jobs, but it can be a model for a 
Federally-funded Community Health Corps. Some States have already begun 
exploring similar programs. Massachusetts has already trained contract 
tracers, provided them with good wages and health insurance, and 
prioritized hiring the unemployed. I hope that the committee will 
consider our proposal for the PHC and work with their colleagues on the 
Committee on Transportation and Infrastructure and the Committee on 
Appropriations to authorize funding for this program in short order.
                        payroll grant extension
    The new standards for health and safety I have described in my 
testimony today will be impossible to implement without the dedicated, 
highly-trained, and credentialed work force of the aviation industry. 
The brave men and women in our union have been on the front lines of 
this virus since its earliest days, and they are essential to our 
Nation's ability to reopen. That is why Members of both parties joined 
together this past March to pass a historic workers' first relief 
package for aviation workers in the CARES Act.
    The Payroll Support Program (PSP) in the CARES Act keeps workers in 
the aviation industry--from gate attendants to flight attendants to 
mechanics to catering workers to pilots--paid, connected to our health 
care in a pandemic, out of the unemployment line, and importantly, 
ready to lift our entire economy. Funding for the PSP goes exclusively 
toward maintaining the salaries, wages, and benefits for aviation 
workers. It conditions the carriers' receipt of Federal funds on making 
no involuntary furloughs or layoffs. Participating carriers must also 
maintain levels of scheduled service needed to ensure well-functioning 
health care and pharmaceutical supply chains to serve small and remote 
communities.
    The program has been an overwhelming success. But without an 
extension, the funding will expire on September 30, and the carriers 
will begin massive furloughs to match the COVID-19 shrunken industry. I 
raise this with the committee today because extending this program is 
essential to carrying out the health and safety provisions I've 
recommended above. To ensure that travel will not be impacted by crew 
calling out sick, and to ensure that management doesn't pressure crew 
to come to work sick, we will need a robust crew on Reserve. This 
Reserve crew will need to be paid for minimum guarantees and stay on 
our health insurance. A program extension will keep hundreds of 
thousands of airline workers current with certifications and security 
clearances, off unemployment, and able to contribute to our 
communities.
    I urge the Members of this committee to support a clean extension 
of the PSP through at least January 3, 2021, to ensure that a lapse in 
this critical protection does not result in massive job loss or hamper 
our ability to keep passengers and crew safe during the pandemic. This 
program is a success and has largely kept airlines intact and workers 
in our jobs. The airlines have been able to use this time to downsize 
and reduce operational costs, but jobs are still at risk unless the 
payroll support is extended to bridge us through the worst of this 
pandemic.
    It is an honor to represent flight attendants and other aviation 
workers here today. Safety is fundamental to the success of air travel 
because consumer demand simply will not rebound without confidence in 
safe air travel. The people on the front lines of aviation need your 
continued support on this and our jobs in order to ensure aviation, and 
all of the people within it, can continue to support the U.S. economy. 
We are so grateful for the work of this committee and we are counting 
on your continued action. Thank you for your time, attention, and 
action. I look forward to your questions.

    Mr. Correa. Thank you, Ms. Nelson, for your testimony.
    Now I would like to recognize Ms. Guliani to summarize her 
statement for 5 minutes.
    Welcome, ma'am.

STATEMENT OF NEEMA SINGH GULLIANI, SENIOR LEGISLATIVE COUNSEL, 
                 AMERICAN CIVIL LIBERTIES UNION

    Ms. Guliani. Thank you for the opportunity to testify today 
on behalf of the ACLU.
    COVID-19 and 9/11 are 2 very different crises, but they 
have some things in common. Both resulted in a tragic loss of 
life. Both upended the aviation industry, and both triggered 
quick and massive investments.
    After 9/11, we wasted billions of dollars in many failed 
programs that did not make us safer and violated basic 
liberties. As we grapple with COVID-19 and how to make air 
travel safe again, we must be vigilant to not repeat the 
mistakes of the past where we rushed to implement many measures 
that were ineffective and inconsistent with our values.
    The stakes for getting it right are high. If our aviation 
response to COVID-19 is ineffective or privacy-invasive, it 
will not only hurt air travel; it will also undermine our 
overall public health efforts by decreasing trust and 
contributing to community transmission.
    Fortunately, public health professionals have provided us 
guidance on how we can avoid the mistakes of the past. These 
experts have emphasized that the most effective measures are 
rooted in public trust and voluntary compliance. They have 
cautioned against the law enforcement approach, which often 
sparks resistance and distrust. Some of the best ways to make 
air travel safer are low-tech and, if implemented correctly, 
will likely have a minimal impact on individual rights. These 
include reducing how crowded airplanes are and facilitating 
basic health precautions like handwashing and wearing a mask.
    It also includes making it easier for individuals to 
changes their travel plans without penalty if they are 
exhibiting COVID systems or may have been exposed to the 
disease and providing flexible and paid sick leave to all 
employees so that workers do not suffer financially when they 
take steps to protect us all.
    An approach rooted in compliance and trust is also 
consistent with our values. As we consider new measures in 
response to COVID-19, we must remember that the right to travel 
is not a luxury. It is a Constitutional right. As former 
Supreme Court Justice William Douglas observed, freedom of 
movement is the very essence of free society. The Supreme Court 
has repeatedly recognized that the right to travel is protected 
under the Fifth Amendment as a liberty interest and cannot be 
denied without due process of law. It also implicates the First 
Amendment. Thus, it is unconstitutional to deny individuals the 
right to fly in ways that are unnecessary, arbitrary, or 
discriminatory. Given this, any new measures should reflect the 
following 5 principles: No. 1, it must be recommended by public 
health agencies and developed in concert with public health 
professionals. For example, if reports are accurate and the CDC 
recommended against temperature checks in airports as a poorly 
designed control and detection strategy, they should not be 
deployed. If they are, they must be meet clearly established 
benchmarks for effectiveness.
    No. 2, any measure must not improperly restrict 
individuals' right to travel. For example, using temperature 
checks as a sole basis for barring people from traveling would 
be inherently overbroad. It would sweep in individuals who 
might have fevers for reasons unrelated to COVID-19, likely 
disproportionately affecting people with chronic illnesses. 
Thus, as most, an elevated temperature should merely trigger 
further examination with avenues for redress.
    No. 3, any measure deployed should not collect additional 
personal data unless it is fully transparent and strictly 
necessary from a public health standpoint. This information 
should only be stored and used by public health agencies for 
public health purposes and not maintained on DHS databases, 
shared with law enforcement or immigration agencies, or used 
for any other purpose. The last thing we want is people being 
fearful of disclosing medical or other critical facts out of 
fear of how that information can be used against them in other 
contexts.
    Proposals like the TSA's CAT-C expansion or other uses of 
face recognition technology which do not adhere to this 
principle should be rejected as a response to COVID-19. TSA's 
most recent privacy impact assessment goes beyond the one-to-
one map system to permit networking with a secure flight 
system. There are countless other less costly and less invasive 
ways to reduce transmission of disease on travel documents, 
like asking someone to hold their document up for review 
instead of handing it to somebody. These options do not involve 
the multitude of privacy and civil liberty concerns of facial 
recognition. Suggesting such an expansion should move forward 
as a response to COVID will rightfully cause travelers to 
question the legitimacy of other TSA measures going forward.
    No. 4, there must be proactive transparency and 
accountability. This will require many things but at a minimum 
should require that an independent oversight body assess any 
proposed measure for effectiveness and privacy. It should also 
include compliance with existing requirements, like privacy 
impact assessments and rule-making requirements.
    Finally, any measure adopted should end with the pandemic. 
A clear end date is essential to ensure that invasive measures 
do not simply become the new normal. To the extent something 
proves to have other non-COVID-related benefits, it should be 
evaluated separately to ensure it meets travel needs and 
preserves privacy.
    COVID-19 offers an opportunity for us to adopt positive 
changes in aviation that enhance trust and public health. I 
look forward with working with the subcommittee to consider how 
we can make travel safer and how to avoid the pitfalls of the 
past.
    Thank you.
    [The prepared statement of Ms. Guliani follows:]
               Prepared Statement of Neema Singh Guliani
                             June 18, 2020
    Chairman Correa, Ranking Member Lesko, and Members of the 
subcommittee: Thank you for the opportunity to testify on behalf of the 
American Civil Liberties Union (ACLU)\1\ and for holding this hearing 
on, ``Climbing Again: Stakeholder Views on Resuming Air Travel in the 
COVID-19 Era.''
---------------------------------------------------------------------------
    \1\ For nearly 100 years, the ACLU has been our Nation's guardian 
of liberty, working in courts, legislatures, and communities to defend 
and preserve the individual rights and liberties that the Constitution 
and laws of the United States guarantee everyone in this country. With 
more than 3 million members, activists, and supporters, the ACLU is a 
Nation-wide organization that fights tirelessly in all 50 States, 
Puerto Rico, and Washington, DC, to preserve American democracy and an 
open Government.
---------------------------------------------------------------------------
    COVID-19 has upended commercial air travel--raising serious 
questions about how and whether it can be safely resumed during the 
pandemic. At this stage, the Centers for Disease Control (CDC) 
continues to caution against air travel. For individuals who do travel, 
the CDC encourages keeping 6 feet apart from other people and adopting 
various health precautions.\2\ Given this, the best way to make air 
travel safer is likely to reduce how crowded airplanes and airports 
are, facilitate basic health precautions like hand washing and mask 
wearing, and make it easy for individuals to voluntarily change their 
travel plans if they are exhibiting COVID-19 symptoms or may have been 
exposed to the disease.
---------------------------------------------------------------------------
    \2\ Centers for Disease Control and Prevention, Considerations for 
Travelers--Coronavirus in the US (May 28, 2020), https://www.cdc.gov/
coronavirus/2019-ncov/travelers/travel-in-the-us.html.
---------------------------------------------------------------------------
    Government agencies, airlines, and airports are also exploring a 
variety of new surveillance, health, and screening measures designed to 
minimize contact during travel, prevent individuals who might be 
infected from traveling, and limit transmission during travel. Some of 
these measures, like a face mask requirement, reflect the guidance of 
public health professionals and, if implemented correctly, will likely 
have a minimal impact on individuals' rights. Other proposals, like 
those to expand facial recognition technology or implement remote fever 
detection,\3\ have dubious public health value, raise significant 
privacy and civil liberties concerns, and should be rejected.
---------------------------------------------------------------------------
    \3\ Attached is a comprehensive ACLU white paper that provides more 
guidance specifically on implementing temperature checks. See ACLU, 
TEMPERATURE SCREENING AND CIVIL LIBERTIES DURING AN EPIDEMIC (May 19, 
2020), https://www.aclu.org/aclu-white-paper-temperature-screening-and-
civil-liberties-during-epidemic.
---------------------------------------------------------------------------
    We must be vigilant to ensure that the pandemic is not exploited 
opportunistically to entrench discriminatory and privacy-invasive 
practices in aviation. In addition, we must ensure that any new 
measures adopted do not undermine overall public health efforts by 
giving individuals a false sense of security or engendering public 
distrust. Thus, any new aviation measure adopted in response to COVID-
19 must:
    (1) Be consistent with the recommendations of public health 
professionals and meet efficacy benchmarks;
    (2) Ensure equitable treatment and prevent against improper 
encroachments on the right to travel;
    (3) Require that any new personal or health data collected be 
available only to public health agencies for public health purposes, 
and prohibiting use for any other reasons, including law enforcement, 
immigration enforcement, security/risk assessments, public benefit 
determinations, or commercial purposes;
    (4) Have a clear end date that does not extend beyond the pandemic; 
and
    (5) Require proactive transparency and accountability measures.
(1) Public Health Effectiveness
    No new surveillance, technology, or screening measure should be 
deployed unless it is recommended by public health agencies, developed 
in concert with public health professionals, and likely effective. For 
example, if reports are accurate and the CDC recommended against 
thermal checks at airports as a ``poorly designed control and detection 
strategy,'' they should not be deployed.\4\ Similarly, we should be 
wary of relying on technologies, like technology assisted contact 
tracing, which public health professionals have emphasized are not yet 
proven to be effective.\5\ It is particularly important that public 
health professionals be a central part of any aviation response because 
our understanding of COVID-19 continues to evolve, and measures that 
seem like a good idea today may need to be modified as we learn more.
---------------------------------------------------------------------------
    \4\ Brett Murphy and Letitia Stein, CDC scientists overruled in 
White House push to restart airport fever screenings for COVID-19, USA 
TODAY, May 9, 2020, https://www.usatoday.com/story/news/investigations/
2020/05/09/white-house-push-airport-fever-screenings-overrules-cdc-
scientists/3097158001/.
    \5\ World Health Organization, DIGITAL TOOLS FOR COVID-19 CONTACT 
TRACING (June 2, 2020), https://www.who.int/publications/i/item/WHO-
2019-nCoV-Contact_Tracing-Tools_Annex-2020.1.
---------------------------------------------------------------------------
    To help ensure effectiveness, any proposed aviation measure should 
be evaluated independently by the CDC and other relevant public health 
experts on an on-going basis. Protocols around the use of such measures 
should be developed in concert with these agencies to reflect public 
health best practices. In addition, there should be clear public 
benchmarks for what standards must be met for a measure to be 
considered effective, which identify limitations, factors that impact 
effectiveness, cost, and an evaluation of whether there are better 
alternatives. Information about whether any measure meets these 
benchmarks should be released publicly, so that the public and 
policymakers can evaluate them.
(2) Equity and Protecting the Right to Travel
    As former Supreme Court Justice William Douglas observed, 
``[f]reedom of movement is the very essence of our free society, 
setting us apart.''\6\ The Supreme Court has repeatedly recognized that 
the right to travel is protected under the Fifth Amendment as a liberty 
interest that cannot be denied without due process of law.\7\ Moreover, 
freedom of movement allows access to information and encourages the 
free exchange of ideas and opinions, thus implicating the First 
Amendment.
---------------------------------------------------------------------------
    \6\ Aptheker v. Secretary of State, 378 U.S. 500, 520 (1964) 
(Douglas, J., concurring).
    \7\ See Regan v. Wald, 468 U.S. 222 (1984); Zemel v. Rusk, 381 U.S. 
1, 14 (1965); Aptheker v. Secretary of State, 378 U.S. 500, 505-06 
(1964); Kent v. Dulles, 357 U.S. 116, 125 (1958).
---------------------------------------------------------------------------
    Given the rights at stake, no measure adopted should be as a basis 
to deny an individual the right to fly in an arbitrary, unreasonable, 
or discriminatory manner. Additionally, the information used to 
determine whether someone can fly must be transparent and fully 
available to the individual, and there must be the opportunity to rebut 
or appeal such a determination in a fair process. For example, using 
temperature checks as the sole basis for barring people from traveling 
would be inherently overbroad, as it would sweep in individuals who 
might have fevers for reasons unrelated to any communicable disease, 
including COVID-19. This would likely disproportionately affect 
individuals with chronic illnesses, including those who may travel in 
order to seek critical medical care. Thus, at most, an elevated 
temperature should merely trigger further examination, providing 
individuals the ability to provide additional information regarding 
whether they are at risk of having the disease or may have a 
temperature for other reasons.
(3) Limited Public Health Purpose
    Public health experts caution that a law enforcement approach to 
combating disease is less effective than relying on voluntary measures 
and compliance. That is because an enforcement approach often sparks 
counterproductive resistance and evasion and tends to sour the 
relationship between citizens and their Government at a time when trust 
is of paramount importance. Good public health measures leverage 
people's own incentives to report disease and help stop its spread.\8\
---------------------------------------------------------------------------
    \8\ ACLU, LIMITS OF LOCATION TRACKING IN AN EPIDEMIC (April 8, 
2020), https://www.aclu.org/sites/default/files/field--document/
limits_of_location_tracking_in_an_- epidemic.pdf; See also ACLU, 
PANDEMIC PREPAREDNESS: THE NEED FOR A PUBLIC HEALTH NOT A LAW 
ENFORCEMENT/NATIONAL SECURITY APPROACH (Jan. 2008), https://
www.aclu.org/sites/default/files/pdfs/privacy/pemic_report.pdf.
---------------------------------------------------------------------------
    Encouraging self-monitoring and adoption of voluntary measures is 
particularly important in the aviation context. Individuals themselves 
are best positioned to know whether they have experienced COVID-19 
symptoms, have had large number of exposures to other individuals, or 
have traveled in a high-risk area. In addition, there are likely ample 
ways to circumvent screening and surveillance measures that may be 
designed to identify people with the disease. For example, individuals 
can take medication to suppress COVID-19 symptoms, such as a fever or a 
cough. Given this, the best measures will be those that encourage 
individuals to self-monitor and simply stay home if they may have the 
disease. This includes providing clear guidance about what factors an 
individual should consider before flying, and making it easy for them 
to change or cancel their travel plans if needed without penalty. In 
addition, for employees, it includes providing paid sick leave, so that 
individuals can take time off without suffering financially.
    To maintain public trust, any other surveillance or screening 
measure must do two things. No. 1, it should not collect additional 
personal data, unless such collection is fully transparent and 
necessary to protect public health. No. 2, any data collected must be 
stored and used solely by public health agencies for public health 
purposes. Such information should not be stored in DHS databases where 
it can be accessed for other purposes, including immigration, law 
enforcement, risk/screening assessments, or public benefit 
determinations. The last thing we want is people being fearful of 
disclosing medical or other critical facts out of fear that such 
information could be used against them in another context.
    Proposals that do not limit information use and collection in such 
ways are a clear signal that a measure is being opportunistically 
deployed and is not strictly necessary for public health. For example, 
earlier this month, TSA announced an expansion of its Credential 
Authentication Technology device equipped with a camera (CAT-C) 
program, permitting it to network with the Secure Flight System, a 
passenger prescreening program. Although the TSA has been working on 
this program since at least 2007, the Privacy Impact Assessment (PIA) 
cited COVID-19 as a partial justification for the expansion, indicating 
it would reduce disease transmission by eliminating handling of 
documents.
    Justifying the expansion of the CAT-C program with COVID-19 is both 
opportunistic and dangerous. As an initial matter, there are many less 
costly and less invasive ways to reduce transmission of the disease on 
travel documents. This includes installation of clear glass or simply 
telling travelers to hold a document up for verification, instead of 
handing it to an agent. In addition, the PIA glossed over a multitude 
of other concerns with the CAT-C program, including demographic 
differences in accuracy cited by the National Institute of Standards 
and Technology.\9\ According to NIST, leading facial recognition 
algorithms were more likely to have false positives or negatives for 
certain demographics, including Asians, African Americans, and 
women.\10\ In addition to this, the expansion raises further concerns 
that TSA has expanded use of facial recognition without clear 
Congressional authorization or regulations, and has opened the door to 
networking with additional DHS databases used for law and immigration 
enforcement. The expansion of CAT-C is unnecessary to combat COVID-19, 
and opportunistically relying on the disease as justification will 
decrease public trust in any other legitimate measures put forward.
---------------------------------------------------------------------------
    \9\ National Institute of Standards and Technology, U.S. Dep't of 
Commerce, FACE RECOGNITION VENDOR TEST (FRVT) PART 3: DEMOGRAPHIC 
EFFECTS, (Dec. 2019), https://nvlpubs.nist.gov/nistpubs/ir/2019/
NIST.IR.8280.pdf.
    \10\ Id.
---------------------------------------------------------------------------
(4) Clear end-date
    Any new technology, surveillance, or screening measure implemented 
specifically to respond to the pandemic should come with a clear end-
date. We do not want COVID-19 to repeat post 9/11 mistakes--where we 
rushed to adopt many new and concerning security measures that cost 
billions, were ineffective, violated individual's rights, and have been 
difficult to undo. For example, it took 5 years for the Transportation 
Security Administration (TSA) to partially abandon its Computer 
Assisted Passenger Prescreening System II (CAPP II), which would have 
allowed the Government to tap into commercial databases to perform 
background checks on all Americans who fly. The program was 
impractical, unwise, and ineffective.\11\ Nevertheless, facets of 
problematic components of CAPPS II continue today in other TSA 
programs.
---------------------------------------------------------------------------
    \11\ Jay Stanley, Airline Passenger Profiling: Back From the 
Grave?, ACLU (Feb. 8, 2011) https://www.aclu.org/blog/national-
security/airline-passenger-profiling-back-grave.
---------------------------------------------------------------------------
    To avoid similar problems, any new DHS program or regulation 
adopted in response to the pandemic should include a clear sunset date, 
including deletion of any data collected, that corresponds to the end 
of the COVID-19 pandemic. The end data of the pandemic should be 
dictated by public health agencies and experts, and based on periodic 
evaluations and clear criteria. If such programs require expenditures 
or activities that have not been previously authorized, they should 
only be deployed with explicit Congressional approval that includes 
such a sunset. To the extent a measure proves to have other non-COVID 
related benefits, such as making travel quicker or more convenient, it 
should be evaluated separately for effectiveness, explicitly approved 
by Congress, and evaluated to ensure it does not improperly impinge on 
travelers' rights.
(5) Transparency and Accountability
    In order for individuals to resume air travel, they must have full 
confidence and trust in any measures adopted to make travel safer. This 
will require the following additional transparency and accountability 
measures, designed to ensure efficacy, cost-effectiveness, and 
protection of travelers' rights.
    No. 1, the Government and private sector should adopt a proactive 
transparency policy, fully disclosing information about what measures 
are being adopted, why, and how. This should include proactive public 
release of any evidence or studies related to efficacy, including 
analysis of independent public health professionals. No. 2, any measure 
adopted should be evaluated by an independent overseer, such as the 
Government Accountability Office (GAO). No measure should be continued 
unless the GAO or other independent overseer finds that it is effective 
and being implemented in a manner that safeguards individuals' rights. 
No. 3, the Government and private sector should adopt protocols to 
ensure that there is the opportunity for meaningful public engagement 
and consultation regarding any measure that is being considered, so 
potential pitfalls or concerns can be remedied. No. 4, any process 
should include a robust redress process, so that individuals can rebut 
or appeal determinations, or raise concerns regarding unfair or 
discriminatory treatment. Finally, any measure adopted must fully 
comply with existing laws, including those requiring appropriate 
privacy assessments and rule making. Agencies should not circumvent 
these processes, which are designed to reduce the risk of programs that 
are wasteful, ineffective, or antithetical to our values.
                               conclusion
    To resume air travel, consumers must have trust and confidence in 
the health measures adopted to ensure their safety. In addition, they 
must be encouraged and incentivized to self-monitor and take voluntary 
precautions to prevent disease transmission. Now is not the time for 
opportunistic efforts to advance unnecessary technology that engenders 
distrust and sparks resistance to overall compliance. Rather, it is the 
time for transparent and effective policies that address the pressing 
public health needs. Thus, to ensure that any aviation measures adopted 
are wise and appropriate, they must come with a clear sunset date; meet 
benchmarks for effectiveness established by public health 
professionals; limit data collection and use to public health; prevent 
against discriminatory and improper encroachments on the rights to 
travel; and require transparency and accountability.
Appendix.--Temperature Screening and Civil Liberties During an Epidemic
                             by jay stanley
May 19, 2020
    As Americans look beyond the current coronavirus lockdowns, there 
has been a lot of discussion about the role of technology in a new, 
more open phase of the pandemic response. Many experts envision a world 
where wide-spread testing is combined with careful disease surveillance 
and contact tracing in an effort to suppress transmission enough to 
allow some cautious semblance of normality until researchers are able 
to develop a vaccine. A range of proposals have been offered, including 
using cell phone data for contact tracing, which we have analyzed at 
length.
    Another technology that is often mentioned is remote or 
``standoff'' fever detection. Some companies have already begun 
screening their workers for fevers, and restaurants their customers. 
Manufacturers report being swamped by sales and inquiries. In China, 
temperature screening checkpoints have been set up everywhere from 
markets to subway and building entrances to highway roadblocks.
    What are we to think about the use of this technology to fight 
coronavirus transmission from a privacy and civil liberties standpoint?
                             effectiveness
    The first question is always effectiveness. If a technology can't 
deliver what it promises, it should not be deployed. If it works 
poorly, that fact should be taken into account when it is weighed 
against privacy or other values. Temperature screening should only be 
done if, where, and in ways that public health experts believe will 
actually meaningfully contribute to combatting the pandemic. Currently, 
experts say that there are sharp limits to its potential usefulness in 
detecting COVID-19.
    First, elevated body temperature can be caused by many factors 
other than COVID-19, including exercise, emotional state, and other 
illnesses. As one medical article put it, ``One has to keep in mind 
that screening for fever and screening for a virus are two different 
issues.'' In these instances, fever detection will be over-inclusive.
    Second, body temperature measurement will do nothing to detect 
infected people who don't have a fever. COVID-19, unlike some other 
diseases such as Ebola, is contagious well before symptoms appear, and 
many infected people--perhaps even most--never do get any symptoms, 
much less fever. In addition, there is a lot of variation in people's 
body temperatures; what is a fever for one person could be a normal 
temperature for another. Finally, even those who do have fevers caused 
by COVID-19 can suppress them by taking antipyretic medicine like 
aspirin or ibuprofen. In these instances, fever detection will be 
under-inclusive.
    Third, stand-off fever detectors are of highly questionable 
accuracy. In addition to internal (usually oral or anal) thermometers, 
which are regarded as the gold standard of accurate temperature 
measurement, there are 3 primary kinds of thermometers:
    1. ``Tympanic'' thermometers, which are inserted into the ear to 
        measure heat in the tympanic membrane;
    2. ``Thermometer guns,'' or ``non-contact infrared thermometer'' 
        (NCITs), which are held 3-15 cm away from the subject's skin, 
        typically at the forehead; and
    3. Standoff thermal cameras that try to detect body temperature 
        from further away.
    All of these devices have to be used correctly, which is not 
necessarily easy for those who aren't medical professionals. Assuming 
proper use, ear thermometers have proven to be reasonably accurate, but 
a number of studies have found that the other 2, which measure surface 
skin rather than core body temperature, are of questionable accuracy. 
Skin temperature can be affected by such things as sunburn, alcohol 
consumption, moisture on the skin such as sweat, or hot or cold air 
temperatures.
    As one industry analyst put it, ``Some people who have elevated 
skin temperature (EST) may have elevated body temperature (EBT). Some 
of those people with EBT may have a fever. Some of those people with a 
fever may have coronavirus.'' But that is a narrow path to accuracy.
    Nevertheless, products marketed as ``fever detectors'' (and 
sometimes even ``coronavirus detectors'') are flooding the market. In 
China, thermometer guns have been found ``unreliable outside carefully 
controlled health care settings.'' Indeed, the FDA has published a long 
list of finicky requirements for their proper use. There are even more 
questions about thermal cameras. The flood of new products has been 
encouraged by the FDA, which announced that during the pandemic it 
would allow thermal cameras to be used as unapproved fever detection 
devices even though the agency considers them to be medical devices. 
The FDA did set some important qualifications, however. It said that 
such devices should:
  <bullet> Only be used to measure one subject at a time;
  <bullet> Only be used in conjunction with a more accurate back-up 
        means of measuring temperature; and
  <bullet> Include a ``prominent notice'' reminding operators how 
        ``different environmental and system setup factors'' can 
        influence a device's accuracy. Those factors include where on 
        the human body a temperature is measured as well as the 
        ``screening background, ambient temperature and humidity, [and] 
        airflow'' at the camera location.
    The FDA's caution is backed up by testing carried out by the 
independent camera testing and review site IPVM, which found 
significant accuracy issues with cameras on the market. The difference 
in temperature between a healthy and febrile person--especially those 
with low-grade fevers who are more likely to be out and about--is quite 
minor. The typical precision claimed by the scores of companies now 
offering such products is 0.3-0.5 degrees C (0.54-0.9 degrees F)--but 
the reviewers were ``skeptical of actual field accuracy as these are 
likely overinflated,'' and found cameras on the market that were far 
less accurate. Camera positioning was also a problem since recording 
subjects from the side, or subjects who are moving, ``significantly 
reduces'' accuracy.
    Like temperature guns, thermal cameras are also apparently very 
finicky with regards to calibration. Even in controlled environments, 
they are highly sensitive to room and climate conditions and often need 
hourly calibration reviews. Many of the most accurate thermal cameras 
utilize ``blackbody devices''--essentially small heaters that maintain 
an exact temperature--which have to be mounted within a camera's view 
and at the same distance as the subject for proper calibration. 
Readings can be disrupted by hats, sunglasses, masks, and hair over the 
face. And, as IPVM notes in a dismissive review of one company's fever 
detecting sunglasses, ``virtually none of the large providers of 
thermal fever cameras are recommending such outdoor, on the move 
applications'' because there is an ``engineering consensus'' that such 
uses are ``not reliable.''
    As IPVM, which has caught several companies making false marketing 
claims, sums up the situation:

``A core issue is there are no independent tests of thermal camera 
performance/accuracy and no independent standards to measure against. 
This has allowed manufacturers to tout products meant for body/fire 
detection as a fever solution, or falsely claim pinpoint accuracy at 
long distances.''

    By this point, given this litany of challenges, it should be 
apparent just how far-fetched is the concept of a ``Coronavirus-
detecting drone'' like the Draganfly aircraft briefly considered by a 
Connecticut town. Given the FDA's stipulation that unapproved fever-
detecting cameras only measure one person at a time, such a device may 
not even be legal. But the Draganfly and fever-detecting sunglasses are 
not the only unlikely products; companies are marketing less flashy 
devices that still purport to be able to scan dozens of people at once, 
in movement, and at long and varying distances.
    The thermal cameras that are most accurate (which can cost 2 to 4 
times as much as a typical $15,000 system) are designed to scan only a 
single person at a time (per the FDA's guidance), and to do so 
frontally, at close range, and on still subjects. Overall, however, 
there is a veritable gold rush of companies scrambling to put ``fever 
detectors'' on the market and cash in on the crisis. The result is 
accuracy levels that appear to be all over the map and a certain degree 
of snake oil.
    The bottom line is that nobody should imagine that blanketing our 
public spaces with thermal sensors is going to serve as any kind of 
effective automated ``COVID detection network,'' or that this 
technology is likely to contribute significantly to stemming the spread 
of the virus.
    Some will argue that despite all these shortcomings, the 
possibility of detecting some cases is better than nothing, and that 
temperature screening could therefore have some role in suppressing the 
disease before a vaccine is developed. There may be some truth in that 
view, though such a possibility needs to be balanced against 3 
significant risks:
    1. If there are too many false positives, that could waste 
        resources, annoy people (leading to circumvention), and create 
        a ``Boy Who Cried Wolf'' effect, causing operators to ignore 
        even true positives. All of that would reduce the effectiveness 
        of temperature screening even further and potentially even be 
        counterproductive.
    2. Temperature screening that misses many actually infected people 
        can create a false sense of security, lulling people into 
        complacent sloppiness about more effective measures such as 
        social distancing.
    3. The overinclusive nature of temperature checks will lead to real 
        consequences for people--for example someone who may not be 
        able to shop for groceries or use the Metro to get to work 
        despite the fact that they pose no public health risk. These 
        consequences could be especially serious where temperature 
        screening is used at essential facilities such as courthouses--
        and may be outsized for poor, minority, or other underserved 
        communities who have fewer alternative options and less ability 
        to seek redress.
    It is for reasons such as these that many public health experts are 
dubious about the benefits of temperature screening. Prominent 
epidemiologist Michael Osterholm says, ``I don't think airport 
temperature checks have any major effect on stopping or even slowing 
down transmission.'' The University of California San Francisco 
hospitals don't do temperature screening because the experts there 
found that the time and expense was unjustified and creates a false 
sense of security. ``It's something we should not be doing,'' they 
declared. An expert analysis of existing studies likewise found that 
temperature screening programs ``are ineffective for detecting infected 
persons.''
                             privacy issues
    Temperature checks also raise privacy issues. In most 
circumstances, a remote temperature check is not an enormous invasion 
of privacy, especially if individual records are not retained--as they 
should not be outside of health care contexts. But neither is it 
something that we would ordinarily want companies or Government 
agencies to routinely collect. And lurking in the wings behind remote 
temperature readings are technologies like remote detection of heart 
rate, breathing rate, and heart rate variability, which studies have 
found can all be measured using digital cameras (on still subjects, at 
least for now). There have even been preliminary results on the 
measurement of blood oxygenation. That kind of data is a significant 
privacy risk that can reveal a person's medical conditions, from 
detection of arrhythmias and cardiovascular disease, to asthma and 
respiratory failures, physiological abnormalities, psychiatric 
conditions, and even the stage of a woman's ovulation cycle.
    Already, Draganfly claims that its COVID-detecting drone can 
remotely detect heart and respiratory rates in addition to temperature. 
The TSA has proposed collecting passengers' physiological data in the 
context of a program (now apparently stalled) called FAST (aka 
``Project Hostile Intent''), which aimed to detect terrorists by 
measuring every passenger's heart rate and body temperature as well as 
things such as eye movement and facial patterns.
    In addition, with so little still known about the disease, it's 
possible scientists could conclude that other metabolic signs are equal 
to or better than temperature in flagging possible COVID-19 cases. For 
example, anecdotal reports suggest that ``silent hypoxia'' often 
accompanies COVID cases; that might lead to the screening of people's 
blood oxygen levels using oximeters. It has even been suggested that 
people be tested for their sense of smell.
    This crisis threatens to normalize such physiological surveillance, 
with the result that even after a vaccine is distributed and COVID-19 
retreats as a public health threat, new infrastructures for the routine 
and suspicionless collection of such data will remain. We don't want to 
wake up to a post-COVID world where companies and Government agencies 
think they can gather temperature or other health data about people 
whenever they want. Before the outbreak, the Department of Homeland 
Security had already been pushing the use of thermal cameras as body 
scanners in transit stations as a way to try to detect threats such as 
suicide bombers--a Constitutionally-problematic and certainly 
ineffective program that would alert over all kinds of private items 
that people carry in their clothes. But it's not hard to imagine a 
network of thermal cameras created to fight the coronavirus repurposed 
for these suspicionless thermal body searches.
    Some companies are betting on the technology outlasting the crisis; 
as one manufacturer wrote, ``We believe the demand for viable solutions 
like these will last far longer than most people think. Just like 9/11 
and how it impacted and changed air-travel forever, this too will 
change the way we live and work for a long time to come.''
    That is precisely what we do not want to see.
      temperature checks as part of a disease surveillance effort
    It is true that we may be facing a years-long battle to suppress 
the coronavirus before the advent of a vaccine, and efforts to quickly 
detect and quarantine COVID-19 cases could be crucial during that time. 
Such disease surveillance will be needed not only to save lives, but 
also to provide Americans with the widest possible freedom while they 
wait for a vaccine. The ideal way to track the disease would be through 
a fast, inexpensive, easy-to-administer, and widely available test for 
COVID-19.
    Despite all of the technology's shortcomings, it's possible that 
some public health officials could judge that temperature screening is 
also worth doing in at least some contexts. Any such judgments should 
factor in the potential for significant or disparate disruptions in 
people's lives, for example by creating hour-long waits for transit 
stops in low-income neighborhoods. In addition, a lot of employers, 
stores, and other establishments will want to institute temperature 
screenings based either on similar judgments, out of a mistaken 
understanding of their effectiveness, or as a kind of ``public health 
theater'' meant to reassure customers who themselves hold such a 
misunderstanding.
    Given the balance of factors involved, we do not think that ``mass 
screening'' thermal cameras should be used in any temperature 
screening. Even accurate temperature checks are of dubious usefulness 
in stopping the spread of the coronavirus. Among all means of trying to 
detect fever, remote detectors also appear to be the least accurate 
while at the same time the most likely to outlive the epidemic and end 
up being used for other purposes, like security screening, when COVID-
19 is no longer a threat.
    If public health experts decide that properly-conducted temperature 
checks in certain appropriate times and locations would make sense as 
part of a disease surveillance effort, then that goal would be better 
served by deploying more accurate, direct detection devices such as 
clinical-grade tympanic thermometers. Any contact devices must of 
course be used in hygienic ways lest they spread the disease they are 
meant to stop. Thermometer guns and the best close-range, single-
subject thermal cameras might also be used if their accuracy rates are 
found to be reasonable enough that their advantages over tympanic 
thermometers (speed and lack of direct contact) justify their use.
    Like standoff detectors, such devices raise privacy issues because 
they gather people's physiological data, and they can be mildly more 
intrusive. Unlike a standoff sensor, more accurate devices have a low 
throughput rate and will require people to line up and actively 
participate in allowing their body to be physically measured. At the 
same time, they do not involve remote checks that can be done without a 
subject's knowledge, permission, or participation. For that reason, and 
precisely because they are slightly more intrusive and inconvenient, 
the use of more accurate devices is far less likely to outlast the 
pandemic.
    Because they are less accurate, standoff fever detectors are also 
more likely to lead to discriminatory treatment for people of color and 
members of marginalized communities. What we have found with other 
imprecise technologies is that they tend to devolve into racial 
profiling in the hands of at least some of their operators. Examples 
include the TSA's SPOT program, and polygraphs, aka ``lie detectors.'' 
This is because when risk-detection systems produce highly ambiguous or 
unreliable indicators, their operators begin filling that vacuum of 
reliability with their own judgments. Unreliable devices can also 
enable harassment or selective enforcement against people because of 
their appearance or political views.
    One point that public health experts have long stressed is that 
voluntary measures to combat disease tend to be more effective than 
mandatory ones. This is because they leverage people's own incentives 
to report disease and receive help rather than creating an antagonistic 
relationship with the authorities that can spark resistance and 
evasion. For that reason, people should always have the right to leave 
rather than submit to a public temperature checkpoint. And employers 
and other establishments that want to perform temperature checks should 
consider offering self-serve temperature-checking facilities that allow 
employees to monitor themselves. People want to know if they may be 
sick; people don't want to spread a disease to their families or anyone 
else. And as we have seen, people who are antagonized by mandatory 
checks have many ways of intentionally defeating temperature 
screenings.
    Finally, many people have fevers not related to infectious 
conditions. Some have low-grade fevers that may last weeks or longer, 
which can be caused by conditions such as cancer, urinary-tract 
infections, or even just stress. Where temperature screening is 
deployed, provisions will need to be made for them, especially if it is 
used at essential facilities. One thing that means is having a 
conversation with those who show up as positive, rather than summarily 
blocking them from entry. And anyone denied access to a critical 
service or function (such as applying for benefits, or appearing in 
court) because of a temperature screening should be given an alternate 
means of access to that service or function.
                       summary of recommendations
  <bullet> Temperature screening should not be deployed unless public 
        health experts say that it is a worthwhile measure 
        notwithstanding the technology's problems. To the extent 
        feasible, experts should gather data about the effectiveness of 
        such checks, to determine if the tradeoffs are worth it.
  <bullet> People should know when their temperature is going to be 
        taken. Standoff thermal cameras should not be used.
  <bullet> People should always have the right to leave rather than 
        submit to a public temperature checkpoint.
  <bullet> Personally identifiable data about individual readings 
        should not be stored.
  <bullet> No action concerning an individual should be taken based on 
        a high reading from a remote temperature screening device 
        unless it is confirmed by a reading from a properly-operated 
        clinical-grade device, and provisions should be made for those 
        with fevers not related to infectious illness.
  <bullet> Anyone denied access to an essential service because of a 
        temperature screening should be given an alternate means of 
        access to that service.
  <bullet> Hygienic self-serve or voluntary temperature-checking 
        facilities are preferable to mandatory checks.
                               conclusion
    There's a lot of reason to doubt that temperature checks will help 
stop the spread of COVID-19, and they should not be deployed unless 
public health experts say conclusively that they will help. What we 
don't want is a world where inaccurate tests disrupt people's lives--
especially those most vulnerable to such disruptions--waste time and 
other resources that could be better used in fighting the pandemic, and 
invade our privacy.
    Cameron Chell, the CEO of drone company Draganfly, told a reporter, 
``Drones buzzing a few hundred feet away may seem intrusive, but it's 
certainly not as intrusive as having a line-up and someone sticking a 
sensor on your forehead.'' But how intrusive it seems is not as 
important as what data is collected about you, what is done with it, 
whether that data is accurate, and whether that data collection becomes 
permanent or even expands.
    Many new products and approaches for combatting the coronavirus 
pandemic are being proposed. We need to skeptically scrutinize all such 
products and proposals, especially where they have implications for our 
privacy or other civil liberties. Temperature checks do have such 
implications, so they should be adopted only where their accuracy, and 
thus their benefits against COVID-19, are reasonably high, and where 
they are not likely to outlast the disease.

    Mr. Correa. Thank you, Ms. Guliani, for your testimony.
    Now I recognize Ms. Barnes to summarize her statements in 5 
minutes.
    Ms. Barnes, welcome.

STATEMENT OF VICTORIA EMERSON BARNES, EXECUTIVE VICE PRESIDENT 
     FOR PUBLIC AFFAIRS AND POLICY, U.S. TRAVEL ASSOCIATION

    Ms. Barnes. Thanks, Chairman Correa, Ranking Member Lesko, 
Members of the subcommittee, good afternoon.
    I am Tori Emerson Barnes, executive vice president of 
public affairs and policy for the U.S. Travel Association. 
Thank you for inviting the broader travel industry to 
participate in this important hearing.
    Before the devastating COVID-19 pandemic, travel supported 
15.8 million American jobs but now the Nation's seventh-largest 
work force has been cut in half, with more than 8 million jobs 
lost, totaling a third of all jobs lost since March. This 
represents a total economic impact 9 times greater than the 9/
11 attacks. Simply put, the only way to restore the economy 
will be to restore travel. To restore travel, we must make sure 
that Americans are willing and able to fly again.
    According to a survey by destination analysts, more than 
half of Americans said that they will feel safe taking a road 
trip compared to just 21 percent who said they would feel safe 
traveling by air, and 53 percent of Americans said they won't 
fly by air until at least March 2021, if not later.
    That is why I am here today, to discuss the hurdles that we 
must overcome to restore air travel and what Congress, TSA, 
CBP, and the entire industry can do to help. While there are 
several opportunities and solutions, today I would like to 
focus on 3 areas: No. 1, implementing health and safety 
guidance to protect aviation workers and customers; No. 2, 
clearly communicating the travel with travelers about what is 
being done to help keep them safe; and, No. 3, steps that 
Congress can take to accelerate recovery and invest in the 
long-term competitiveness of our Nation's aviation industry.
    After 9/11, industry leaders said, without security, there 
will be no travel. The global pandemic requires a similar 
approach. Without guidance to promote the health and safety of 
travelers and workers, there can be no travel, no reopening of 
businesses, and no revival of our economy.
    To that end, U.S. travel convened a task force of health 
experts and travel industry leaders to create a core set of 
health and safety guidance that the industry can adapt to 
reopen responsibly, which includes, among other guidance, 
increased sanitation, transmission barriers, and touchless 
solutions.
    TSA and CBP must also take steps to protect the health and 
safety of travelers and workers. TSA can focus resources on 
requiring masks at security checkpoints, modifying security 
lines to allow for physical distancing, and enhancing 
sanitation.
    As with every other segment of air travel, TSA and CBP must 
take a flexible, layered, and risk-based approach to health and 
safety. When physical distancing is not fully possible, other 
measures such as transmission barriers must be put into place. 
Similar to security challenges, we will never be able to 
eliminate 100 percent of risk, but a layered, risk-based 
response from TSA and CBP can be enormously beneficial.
    As we saw in the early days of TSA, once a security 
screening standard is introduced, it is hard to roll it back. 
Any measures put in place related to COVID-19 must be temporary 
and then ease as the threat of the virus is eliminated or 
reduced. It is critical that CBP and TSA work with the broader 
travel industry to facilitate consumer confidence by very 
clearly communicating health and safety procedures that 
passengers can expect at airports.
    There are several steps that Congress can take to mitigate 
all of this damage, shorten the industry's recovery time, and 
increase long-term competitiveness for the United States, which 
includes enhancing a temporary travel tax credit, restoring the 
business and entertainment tax deduction, and funding a local 
travel promotion campaign for the United States domestically.
    Another important long-term solution is the wide-spread 
implementation of opt-in biometric identifications and CLEAR, a 
contactless identification system.
    The travel industry and the larger American economy will 
not recover on its own. We need resources, stimulus, planning, 
and clear communication to travelers and employees to ensure 
air travel can safely resume and help power our Nation's 
economic revival. Travel is not going to look the same as did 
it before the pandemic. Every segment of the travel aviation 
community has made significant changes to protect the health 
and safety of all travelers and workers.
    Thank you, again, to the subcommittee for having me here 
today. I look forward to your questions.
    [The prepared statement of Ms. Barnes follows:]
             Prepared Statement of Victoria Emerson Barnes
                             June 18, 2020
    Chairman Correa, Ranking Member Lesko, Members of the subcommittee, 
good afternoon.
    I'm Tori Emerson Barnes, executive vice president of public affairs 
and policy for the U.S. Travel Association. Thank you for inviting the 
broader travel industry to participate in this important hearing.
    U.S. Travel is the only association that represents all sectors of 
the travel industry--airports, hotels, State and local tourism offices, 
car rental companies, theme parks and attractions and many others. I am 
here today to discuss the hurdles we must overcome to restore air 
travel and what Congress, TSA, CBP, and the entire travel industry can 
do to help.
    Before the devastating COVID-19 pandemic, $1.1 trillion in traveler 
spending in the United States generated a $2.6 trillion total economic 
impact and supported 15.8 million jobs. But now the Nation's seventh-
largest workforce has been cut in half, with more than 8 million jobs 
lost--totaling a third of all jobs lost since March.\1\ Further, we are 
on track to lose half a trillion dollars in spending by the end of the 
year, representing a total economic impact 9 times greater than the 9/
11 attacks.\2\ Following the attacks, it took the travel industry 18 
months to recover, indicating the travel industry's recovery time from 
this crisis could take several years.
---------------------------------------------------------------------------
    \1\ https://www.ustravel.org/sites/default/files/media_root/
document/TravelDepression_- FactSheet.pdf.
    \2\ https://www.ustravel.org/sites/default/files/media_root/
document/TravelDepression_- FactSheet.pdf.
---------------------------------------------------------------------------
    Simply put, the only way to restore the economy will be to restore 
travel. To restore travel, we must make sure Americans are willing and 
able to fly again. Unfortunately, recent data shows that air travel may 
be the slowest sector of the industry to rebound.
    According to a June 1 survey by Destination Analysts, more than 
half of Americans (55 percent) said they would feel safe taking a road 
trip, compared to just 21 percent who said they would feel safe 
traveling by air.\3\ The same survey found that more than half of 
Americans said they hope to take a road trip before October of this 
year. Conversely, 53 percent of Americans said they won't fly again 
until at least March 2021, if not later.
---------------------------------------------------------------------------
    \3\ https://www.destinationanalysts.com/blog-update-on-american-
travel-in-the-period-of-coronavirus-week-of-june-1st/.
---------------------------------------------------------------------------
    We clearly have a long way to go in restoring travelers' confidence 
in air travel. While there are several opportunities and solutions, 
today I would like to focus on 3 areas:
    1. Implementing health and safety protocols to protect aviation 
        workers and customers;
    2. Clearly communicating with travelers about what's being done to 
        keep them safe; and
    3. Steps that Congress can take to accelerate recovery and invest 
        in the long-term competitiveness of our Nation's aviation 
        industry.
    First, changes must be made throughout the entire air travel system 
to promote the health of travelers and workers alike. After 9/11, 
industry leaders said, ``Without security, there will be no travel.'' 
The global pandemic requires a similar approach and demands a 
comprehensive response. Without guidance to promote the health and 
safety of travelers, there can be no travel, no reopening of businesses 
and no revival of our economy.
    To that end, U.S. Travel convened a task force of health experts 
and travel industry leaders--including airports, airlines, and 30 other 
industry organizations--to create a core set of health and safety 
guidance that the industry can adapt to reopen responsibly.\4\ This 
guidance has been included with our testimony.
---------------------------------------------------------------------------
    \4\ https://www.ustravel.org/sites/default/files/media_root/
document/HealthandSafetyGui- dance.pdf.
---------------------------------------------------------------------------
    This comprehensive guidance aligns with CDC guidelines for 
reopening America and includes:
  <bullet> Limiting crowding in public spaces;
  <bullet> Providing touchless solutions for identification and 
        payments;
  <bullet> Enhancing sanitation;
  <bullet> Encouraging health screening of employees and customers;
  <bullet> Modifying food and beverage preparation; and
  <bullet> Developing procedures for if an employee tests positive for 
        COVID-19.
    This guidance is being implemented across the industry. Most major 
domestic airlines have adapted to this ``new normal'' by requiring 
passengers to wear masks.\5\ Airports have modified spaces to allow for 
physical distancing and have stringent disinfecting procedures in 
place. CLEAR, a contactless identification system, has proven 
invaluable in providing a hygienic, secure alternative to traditional 
identity verification measures.
---------------------------------------------------------------------------
    \5\ https://www.airlines.org/news/major-u-s-airlines-announce-
increased-enforcement-of-face-coverings/.
---------------------------------------------------------------------------
    TSA and CBP must also take steps to protect the health and safety 
of travelers and officers. Similar to actions taken in other segments 
of the travel industry, TSA can focus resources on requiring masks at 
security checkpoints, modifying security lines to allow for physical 
distancing and enhancing sanitation at checkpoints.
    As with every other segment of air travel, TSA and CBP must take a 
flexible, layered, and risk-based approach to its health and safety 
protocols across airports. For example, physical distancing is an 
asset, but it will be a dynamic challenge at some airports with 
limitations on physical space. Where physical distancing is not fully 
possible, other measures such as transmission barriers must be put in 
place. Similar to security challenges, we will never be able to 
eliminate 100 percent of the risk, but a coherent, layered, risk-based 
response from TSA and CBP can be enormously beneficial. Passengers need 
to see a thoughtful and rational approach from Government officials. As 
we saw in the early days of TSA, once a security screening standard is 
introduced, it is hard to roll back. Any measures put in place related 
to COVID-19 must be temporary and then eased as the threat of the virus 
is eliminated or reduced.
    For these reasons, the broader travel industry has not taken a 
position on whether TSA should conduct temperature checks at airport 
checkpoints. During the development of U.S. Travel's health and safety 
guidance, public health experts did not broadly recommend temperature 
checks, due in large part to differing views as to whether temperature 
checks are a reliable tactic to prevent the spread of COVID-19. 
Concerns included the likelihood of false negatives and false 
positives.
    There are also significant questions as to how TSA would 
operationalize temperature checks, handle passengers who record a high 
temperature and the family members or companions traveling with them, 
and more. Without answers to these questions and without a clear 
recommendation from public health officials that temperature checks are 
absolutely necessary, we have not yet endorsed a requirement for TSA to 
conduct temperature checks.
    All of our recommended measures will require TSA and CBP to have 
adequate funding and staffing. While the CARES Act provided $100 
million to airports for janitorial services, TSA has told airports that 
these funds may only be used to sanitize checked bag drop, TSA 
checkpoints, or TSA offices. Limiting the scope of janitorial services 
to these locations minimizes the effectiveness of cleaning and provides 
little relief to airports; we believe these restrictions are 
inconsistent with the intended purpose of this funding. TSA should 
expand the use of CARES Act sanitation services to include all highly-
trafficked or high-touch areas at airports, including restrooms, food 
service, seating, and touched surfaces.
    Additionally, now is the time for Congress to end the diversion of 
TSA fees and finally allow those funds to be reinvested back into 
adequate staffing and equipment needed to create a more safe, healthy 
and secure air travel process.
    Second, the travel industry is working together to communicate 
directly with travelers about what's being done to protect their health 
and safety. It is critical that TSA and CBP work with the broader 
travel industry to facilitate consumer confidence by clearly 
communicating health and safety procedures that passengers can expect 
at airports; the agencies must have adequate funding to carry out this 
objective.
    Third, there are several steps Congress can take to mitigate 
damage, shorten the industry's recovery time and increase long-term 
competitiveness. An important solution is the wide-spread 
implementation of opt-in biometric identification. This technology has 
already proven successful at facilitating secure, efficient travel, and 
further promotes the health of travelers by providing a contactless 
screening process. Registered traveler program participants are already 
familiar with biometric identification, but TSA and CBP must invest in 
CAT-C and CT screening technology to bring touchless security screening 
to the checkpoint. Importantly, investments in CAT-C technology should 
happen in tandem with allowing for interaction between the Secure 
Flight Database and the registered traveler program. Ensuring that all 
identity verification methods at the TSA checkpoint can utilize the 
Secure Flight database makes sense for security and the facilitation of 
passengers.
    Congress must also take steps to push back the REAL ID enforcement 
deadline until the travel industry is fully ready for enforcement and 
implementation will not interrupt recovery. As stated previously, it 
took the travel industry 18 months to recover after the 9/11 attacks; 
the economic fallout of the COVID-19 pandemic is 9 times worse and is 
likely to stretch across multiple years. Ranking Member Lesko's Trusted 
Traveler REAL ID Relief Act would be critical in requiring the TSA to 
develop a contingency plan to allow those with non-compliant IDs to 
still clear the security checkpoint after the enforcement date.\6\
---------------------------------------------------------------------------
    \6\ https://www.congress.gov/bill/116th-congress/house-bill/
5827?s=1&r=8.
---------------------------------------------------------------------------
    Finally, it is crucial that we put the right recovery strategies in 
place now to mitigate the pandemic's economic damage and get our 
country back on track. According to a report conducted by Tourism 
Economics, travel loss mitigation efforts could see the industry gain 
1.3 million jobs and $147 billion in overall GDP by the end of the 
year.\7\ These strategies include:
---------------------------------------------------------------------------
    \7\ https://www.ustravel.org/sites/default/files/media_root/
document/Coronavirus2020_- Impacts_April15.pdf.
---------------------------------------------------------------------------
  <bullet> Enacting a temporary travel tax credit that provides a 
        refundable tax credit for transportation (including airfares) 
        lodging, food, and entertainment, as a way to help American 
        families reconnect with each other, stimulate travel demand, 
        and accelerate rehiring.
  <bullet> Restoring the business food and entertainment tax deductions 
        to encourage companies to reinvest in their communities by 
        doing business at local restaurants and centers for 
        entertainment and the arts; and
  <bullet> Funding a local travel promotion campaign to help promote 
        businesses that have safely reopened and provide information to 
        travelers about how they can travel safely to a destination and 
        what's being done to protect their health during their stay.
    Every month that the downturn is mitigated would bring back almost 
$17 billion to the travel industry and $21 billion to overall U.S. GDP.
    The travel industry--and the larger American economy--will not 
recover on its own. We need resources, stimulus, planning, and clear 
communication to travelers and employees to ensure air travel can 
safely resume and help power our Nation's economic revival. Travel is 
not going to look the same as before this pandemic. Every segment of 
the travel and aviation community has made significant changes to 
protect the health and safety of all travelers and workers.
    Thank you again to the subcommittee for having us here today.

    Mr. Correa. Thank you, Ms. Barnes, for the testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel, and I will recognize myself for 
5 minutes of questions, and I would like to start up with where 
Ms. Barnes ended, so to speak, her theme.
    You know, it is often said that the U.S. airline industry 
is the hub of international air logistics. We provide the world 
with not only passengers but with all kinds of products. We are 
the center, so to speak, of the world in terms of 
transportation, delivery of goods and services.
    Just to let you know how personal the industry is, the 
biggest employer in my district is Disneyland. They remain 
closed. They will open up probably sometime in July, but I 
would imagine that getting tourists to start coming back to 
southern California is going to be a long track. The issue, 
like Ms. Guliani said, was trust and confidence. How do we get 
voluntary compliance? How do we get folks to start traveling 
again? I have got probably 98 percent of my hotel employees out 
of a job right now. They are not going to last too long.
    So my question to each and every one of you is, you know, 
we have got Mr. Burke with the Airport Council.
    Ms. Nelson, flight attendants, essentially, Ms. Nelson, you 
are representing the employees.
    Ms. Guliani, you are talking about the civil rights of how 
far we can go in terms of addressing some of these issues.
    Ms. Barnes, you are with the travel association.
    So if any of you can take about a minute to tell me, in 
coordination, what are the top 2 or 3 things we need to do to 
get folks to start traveling between in a safe manner?
    Mr. Burke.
    Mr. Burke. Mr. Chairman, we have to make the American 
public feel safe in traveling again. This disease, this COVID-
19, has terrified Americans, and rightfully so.
    Mr. Correa. Let me interrupt you and say, how do you do it 
with everybody having that confidence and that trust? That is 
what the Chairman and I talked about an interagency task force. 
What are the top 2 or 3 things we have got to do to make people 
think, to believe, to be factually correct that they can travel 
again safely?
    Mr. Burke. Well, we have to convince them, Mr. Chairman, 
that going into a big, public place like an airport, that they 
will be safe if they wear masks, if the employees there are 
wearing masks, if the TSA folks are wearing masks, if they are 
required to wear masks on airplanes, if they socially distance 
or if they wear masks, maybe cut the social distance. But we 
have to, as public institutions, make people feel as though the 
travel experience is not as terrifying as they think it is 
going.
    As they begin to travel again, the proof is in the pudding, 
and the reality is the more we protect the traveling public and 
the better the results, more and more people will want to 
travel, but that requires cooperation between the private 
sector, the airports, the airlines, and the regulatory 
agencies. We have done a tremendous job working with TSA in 
particular----
    Mr. Correa. Excuse me.
    Ms. Nelson, your comments on that? Ms. Nelson.
    Ms. Nelson. Thank you so much.
    So definitely we need to make sure the mask policies are 
applied across the airport and airplanes and that it is backed 
up by Federal regulations. We need to make sure that we are 
doing self-assessments, wellness checks. That can be done with 
a corps of individuals who are sent to our airports who are 
trained to do that.
    We have a model just like this in security. This is used as 
a deterrent. It is used as a means to get travelers to think 
about their security and to make sure that we are rooting out 
as many risks as possible through this self-assessment. So we 
ask travelers all the time: Did you pack the bag yourself? Show 
us your documents. This gets people to not be violating the 
security procedures. We can do the same thing with health. We 
have to have social distancing policies in the airport. This is 
impossible on the plane, although----
    Mr. Correa. Thank you.
    Ms. Guliani, the same question. Ms. Guliani.
    Ms. Guliani. Yes, I couldn't agree more. We need trust and 
confidence. I think 2 things that would help with that effort: 
No. 1, clear public benchmarks for how you are actually going 
to measure the effectiveness. If the public knows that it is 
based on science and that we have met those benchmarks, they 
are going have more trust and confidence in the measures 
adopted.
    The second thing is making sure that we are limiting any 
information selected to what is necessary and that it is only 
going to be used for health purposes. We want people to feel 
comfortable, whether it is a system check or something else, 
disclosing medical facts, disclosing information about their 
life. If they are worried that that is going to end up in a law 
enforcement database or someplace else, I worry that they won't 
undertake the voluntary compliance measures that are necessary 
to keep them safe.
    Mr. Correa. Thank you.
    Ms. Barnes, last comments.
    Ms. Barnes. Sure. Completely agree that a clear 
communication of health and safety guidance and what the 
traveler can expect is absolutely necessary. We have a lot of 
data that demonstrates that, with the right assurances and the 
right communications as many as 60 percent of folks will get 
out there and travel again.
    We also think that the opt-in, touchless solutions that you 
can achieve through biometric technology is something that 
should really be on the table here and something that could 
help improve the experience. Then we also think that, you know, 
again, TSA and CBP collaborating and collectively sending the 
same message. We agree masks are important. In the absence of 
the ability to have physical distance, then you need to be able 
to wear a mask.
    But just as TSA and CBP have [inaudible] the ability for 
folks to travel with hand sanitizer and the cleanly and social 
distances required as airports, we think that should apply 
across the board. Clear, articulation of the policies is 
absolutely critical.
    Mr. Correa. Thank you, Ms. Barnes. I would now like to 
recognize the Ranking Member of the subcommittee, the 
gentleperson from Arizona, Mrs. Lesko, for 5 minutes of 
questions. Welcome.
    Mrs. Lesko. Thank you, Mr. Chairman.
    First of all, I have to say that I give Congressman Dan 
Bishop extra bonus points because it looks like he was on a 
plane, then walked through the airport, and is now on another 
plane. Are you on another--no, he is in a car now. Very 
appropriate. It is very appropriate [inaudible] airport.
    Anyway, I have--I wish that the airlines were on this 
committee because I have a couple suggestions for them, which I 
think--I do think that having people wear masks on the 
airlines, actually, at least for me personally, makes me feel 
better that the person sitting right behind me isn't going to 
cough on me and, you know, spread their germs on me, but also 
when I was on a call with the airlines, oh, boy, I think it was 
a couple weeks ago, they had said that they thought that they 
were going to have people board from the back of the plane and 
instead of the way that they are now.
    So I was wondering--I don't know who to ask this of. Maybe 
the flight attendant association. Do you think that would be 
helpful? Do you think that would help people feel better? 
Because, you know--I usually try to wait till the end to get on 
the plane, but other people sit in the front and then all those 
people pass by.
    So I want somebody's opinion.
    Ms. Nelson. Sure. So this is Sara. Some of the airlines are 
implementing policies like that because it decreases the touch 
points that passengers are touching with each other. So some of 
the airlines do have policies to board from back to front, and 
that is very good thinking.
    Mrs. Lesko. Well, I think so too. The other question I have 
for Mr. Burke is actually about the airports itself and the 
tenants. When I go into the airports--I mean, it is getting a 
little bit better now, but most of the stores are closed. A lot 
of the restaurants are closed, and so how are the airports 
dealing with the tenants? Are you giving them some rent breaks, 
or what is happening there?
    Mr. Burke. Very good question, Madam Congressman. Some 
airports are. The majority of them are. Some of them are not, 
depends on what their contracts are. Some have closed because 
there is no business for them. You walk through some airports, 
there is literally no business at all. So it has been a very, 
very difficult time, and we hope to have those tenants when 
things come back, but they can't pay rent when they have no 
money coming to them and when we have no money coming into 
airports, we can't give abatement.
    But an awful lot of airports in this country have given 
abatement on rent, on minimal annual guarantees and things like 
that, but it has been across the board a little bit uneven. But 
for the most part, airports have done their level best to try 
to help out their tenants because when it does come back, the 
passengers are going to need these tenants to be able to buy 
things, to buy food. Right now, they do grab and go, for 
example, rather than sitting down.
    The other thing that airports are doing is working with the 
tenants to make sure that they are safe and the fact that they 
are adhering to health standards as well. One of the challenges 
we have is physical separation in airports that were not built 
for this type of crisis, nor were they built for the crisis at 
9/11 and, that is, separating people with gates and separating 
people in lines whether it be at TSA or whether it be at lines 
boarding planes.
    Six-foot separation really means 6 by 6 by 6 by 6. So, in 
airport jargon, that is a big piece of real estate to be able 
to separate people. So wearing masks is going to be key, and we 
welcome Federal guidelines to do that. Absent those Federal 
guidelines, we would accept any regulations from State and 
local authorities, but we think, to even things off, that the 
Federal Government, on a temporary basis even, would put out 
some guidance to require people to wear masks in airports to 
protect passengers and vendors.
    Mrs. Lesko. Thank you, Mr. Burke.
    Ms. Singh, I have a question for you. On the one hand, I 
think in previous testimony, previous hearings in Homeland 
Security, the ACLU and others is concerned about pat-downs. 
Like, let's say, someone has a hair-do, hair bun, that type of 
thing and they have an extra pat-down, but then also I know 
that the ACLU and others are concerned about new technologies 
that it would actually then eliminate more of the use for pat-
downs.
    So I am trying to reconcile where you are at and how we can 
solve this problem? Because on the one hand, you don't want 
pat-downs, but then it seems like you are also against new 
technologies.
    Ms. Guliani. Sure. So thermal detection has been one of the 
things for pros to try to reduce pat-downs. In the past, TSA 
has tried to use thermal detection outside the airport context, 
and that does raise a number of Fourth Amendment and 
Constitutional concerns.
    Within the airport context, I think there is just 
questions. There are some threshold questions about whether 
that type of thermal detection will be helpful. There are a lot 
of false positives, right, and so will it actually serve the 
purpose for which it is intended? But if it is done in a way 
where it is pursuant to rulemaking, privacy impact assessments, 
it is proven to be effective, you know, a temporary measure to 
reduce pat downs in a way that is consistent with civil 
liberties is certainly possible.
    I think we just have to have the data and the information 
to understand what exactly is being done and to what extent is 
it consistent with individuals' rights.
    Mrs. Lesko. Thank you. You know, I know that my time is up, 
but I do know that if they are good systems, I think that the 
National Institute of Science has said that some of these are 
really good, the technology is really good, and doesn't have 
that many false readings.
    Mr. Correa, I would yield back. Thank you, Mr. Chairman.
    Mr. Correa. Thank you, Ranking Member Lesko.
    The Chair will now recognize other Members for questions 
they may wish to ask the witnesses as previously stated. I will 
recognize Members in order of seniority, moving between 
Majority and Minority. Members are reminded to unmute 
themselves when they are recognized for questions. With that 
said, I would like to recognize the Chair of the full 
committee, Mr. Thompson, for 5 minutes of questions.
    Sir.
    Mr. Thompson. I thank the witnesses for their testimony 
today. You know, when we had the unfortunate incident on 
September 11, we put a lot of things into place. We created 
TSA. We did a lot of things.
    Mr. Burke, are there some things being put in [inaudible] 
maybe should become part of the new protocol in this COVID-19 
environment?
    Mr. Burke. Mr. Chairman, thank you for the question. I 
think what is happening now is airports are responding to make 
certain that they can gain out what it will look like when air 
travel is up to 50, 60, 70 percent. For all intents and 
purposes, we might have for a long period of time social 
separation of 6 feet.
    The challenge airports have there, sir, is, how do you do 
that in limited space without interfering with other lines and 
other gates? The use of Plexiglass, for example, is being used 
not only in airports, but in other industries across the 
country.
    Use of masks. I can't emphasize that enough where we would 
welcome regulations on a temporary basis that you should wear a 
mask in an airport when you are transferring through it. If, in 
fact, you have to wear it on an airplane, you should be wearing 
it during [inaudible] mask going through an airport as you 
would if you got on an airplane.
    So long term, I think what we need is we need more funding 
to be able to look at, how do we do this in the future if, in 
fact, we have to inspect people outside the [inaudible] 
infrastructure change.
    Because look at airports. In the middle of January, you are 
going to have people standing in lines outside Minneapolis when 
it is 25 degrees below zero or 115 degrees in Phoenix in the 
sun [inaudible] very complicated. What is required in the end, 
Mr. Chairman, if we have to make these changes is we are going 
to need money to be able to adapt to a system that was kind-of 
thrown upon us since January.
    We are willing to work and be able to do this, but we are 
going to need the money [inaudible].
    Mr. Thompson. Comments on that?
    Ms. Nelson. I would just like to reiterate what Mr. Burke 
said and also say that we do need the flexibility to be able to 
put these things in place. There are a lot of issues to deal 
with here, and what we need to do, especially, is that we need 
to have these procedures in place before we actually have 
people return to travel.
    Because if we are trying to put this in place when you have 
the back-up of those lines, we are going to have a much harder 
time actually planning out properly, putting plexiglass in 
place, having procedures for wellness checks [inaudible] having 
guidelines around the masks.
    All of that needs to be put in place now before we have the 
influx of additional travel.
    Mr. Thompson. Well, thank you much for both of your 
comments. One of the things TSA did, they talked about a 
biometric roadmap. As we look toward the future and look at 
what opportunities are out there, and there is obviously 
enhanced interest, Ms. Guliani, what are your thoughts about 
the prospect that TSA expands its biometrics operation beyond 
the Known Traveler Program?
    Ms. Guliani. I mean, I am very concerned by the proposed 
TSA roadmap. I mean, as an initial matter, we don't have clear 
legislation or rulemaking around how facial recognition is 
going to be used by TSA. I think that is a serious problem.
    Second, there still remains serious accuracy concerns. The 
most recent in this test noticed demographic differences and 
false positives and negatives, and even beyond that, if we look 
at the full TSA roadmap, it contemplates integration with other 
DHS databases.
    So I think that raises serious questions, like, what data 
is being collected? Are you going to undergo additional extra 
checks that have never been implemented in the domestic air 
travel space? How are we going to preserve privacy? I think we 
are generally having a bigger National conversation about 
whether we want facial recognition used by the Government at 
all. So I am troubled by the roadmap, and I am troubled by, you 
know, recent stories we have heard of, for example, in Hawaii 
where CARES funding is being used to purportedly expand facial 
recognition, and there is very little information about what 
the report is doing, how the information is being protected, 
whether it actually has any efficacy or is tied to a COVID 
response at all.
    Mr. Thompson. OK. With your indulgence, Mr. Chair, Ms. 
Barnes, do you have a comment on that?
    Ms. Barnes. Yes, Mr. Chairman. We really do think that 
travelers see touchless identification, you know, that could 
help really promote the confidence and the health 
opportunities, you know. It is proven to be safe, secure, and 
accurate. We support strictly opt-in. So make it available for 
travelers but not make it mandatory. We think that is something 
that could really be helpful and so for those folks who choose 
to take that route that will alleviate the lines in other parts 
of the airport.
    So we think that that is something that should really be 
considered, and we do share some privacy concerns, so we need, 
clearly, clear guidance, but generally speaking, opt-in 
biometrics can really move us a long way to more secure, more 
confident traveler.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chairman.
    Mr. Correa. Thank you, Chairman Thompson.
    I would now like to recognize the Ranking Member of the 
full committee, Mr. Rogers, from Alabama.
    Sir.
    Mr. Rogers. Thank you, Mr. Chairman.
    Ms. Barnes, you talked about in your opening statement the 
need for more or better communication between TSA and CBP. What 
are some examples of improved communication techniques or 
approaches that we could take?
    Ms. Barnes. Sure. So we think that some of the work that 
TSA and CBP have been doing to clearly communicate the changes, 
for example, on the side of hand sanitizer that you can take. 
They did a united communication on that. You know, they talked 
very clearly about the need for cleaning and social distancing.
    So we think, to the extent that they can articulate the 
need for masks, you know, that there are new procedures in 
place and that, you know, we in the travel industry are happy 
to amplify all of the communications that are being done, but 
really what the traveler needs to understand is that there is a 
consistency and that their health and safety is being put first 
and foremost.
    So, to the extent that they can collaborate together and we 
can help to amplify and articulate that, that would be really 
appreciated.
    Mr. Rogers. [Inaudible] the main things that we could do to 
give comfort or confidence to the traveling public to start 
flying, again, what would you--you didn't get a chance to reply 
to his question. What would you suggest are the most essential 
things that we can do to invigorate confidence in the traveling 
public?
    Ms. Barnes. So we really think that, again, clearly 
communicating health and safety guidance, really articulating 
the things that folks can see consistently across the 
ecosystem. We actually worked with 30 different organizations 
throughout the whole travel ecosystem to do a base set of what 
we would recommend to include, you know, providing touchless 
solutions for [inaudible] and payments, enhanced sanitation, 
encouraging, you know, that their procedures for testing as 
necessary, but really ensuring that we have health and safety 
guidance that is clearly communicated.
    We also think that the biometric opportunity is really 
significant, that opt-in technology and communicating that 
there is that kind of option for travelers, we think can really 
help, you know, clear up some of the congestion issues that 
would otherwise be, but also present a more confident traveling 
experience and, quite frankly, a better facilitation of travel. 
Then, again, the clear messages that we would like to see 
across the Government on what the expectations can be for the 
traveler so that, when they come from one State to another, 
there is an overarching Federal communication of what to expect 
across that travel ecosystem.
    Mr. Rogers. Ms. Nelson, in your written testimony, you note 
that the AFA believes the Government should conduct health 
monitoring of passengers, industry, including the possibility 
of temperature checks on passengers. You also note that the 
lack of Government plan means that the temperature checks are 
not occurring and suggest that a new Federal work force the 
size of TSA could perform the role of taking passenger 
temperatures.
    Now, the Chairman Thompson did a very good job in his 
opening statement listing a variety of concerns that I share 
that go along with this temperature-taking, and you heard Ms. 
Guliani [inaudible] civil rights concerns.
    How would you respond to Chairman Thompson's expressed 
concerns that go along with this temperature taking and Ms. 
Guliani's statements?
    Ms. Nelson. So we would agree with that. I want to be clear 
that we were using temperature checks as an example of wellness 
checks but not to be the be-all end-all at all. That what we 
would like to have the committee and anyone working on putting 
these procedures in place focus on is self-wellness checks.
    So walking people through questions that help them self-
identify: Have you been in contact with anyone who has 
coronavirus in the past 14 days? Is that possible that you have 
been or have you been? Have you had a rise in temperature? Have 
you had a cough?
    There are a series of questions that could be asked that 
are much like, have you packed your own bags? What this will do 
is, it will create a deterrent. It will also get travelers 
thinking about these issues and take some self-responsibility 
for that. What that will do is it will limit the number of 
people who are entering the airport who actually may be at 
risk.
    This is not going to completely eliminate the risk of 
coronavirus. That is why you have to have a layered approach 
with the masks, the hand sanitizer, and the like, but it is a 
step to help have a layered approach to safety and health so 
that we are eliminating the risk by taking on all of these 
measures.
    Mr. Rogers. Thank you.
    Mr. Chairman, I yield back.
    Mr. Correa. Thank you very much, Ranking Member Rogers. I 
would like to recognize for 5 minutes the gentleman, Mr. 
Cleaver.
    Mr. Cleaver, welcome.
    Mr. Cleaver. Thank you, Chairman Correa.
    I appreciate you calling this meeting, and actually it is 
increasingly important to me as I listen to our great 
witnesses. Let me just say, I have a 97-year-old father who we 
are probably going to put into a facility. He does have 
Alzheimer's, but it is difficult for him to kind of manage 
everything right now.
    So I was really upset when I got to the facility to find 
out that the admittance to the facility was based, first and 
foremost, on whether or not you had a temperature. On the 
surface it sounds reasonable and, you know, preventive. 
However, Black and Brown people in the United States have a 
disproportionately higher blood pressure than others as it 
relates to hypertension and some other diseases, and the reason 
for these disparities remains unclear. There is no definitive 
study, but the fact remains that they--when you take 
temperatures, you allow people to admit [inaudible] a person 
could be a thousand miles from having COVID-19, but because of 
the hypertension and diabetes and so forth [inaudible] higher.
    So, as these issues are being discussed, my No. 1 concern 
would be that I don't think there would be any intentionality 
to keep people out, but that is when we talk about systemic. It 
would keep more Black and Brown people [inaudible] 
unreasonable.
    Ms. Guliani. I think that you have identified a real 
problem with temperature checks, right? There is the threshold 
question of, are these even helpful? There is some suggestion 
that actually they are not even that effective for identifying 
people with COVID.
    You know, in the travel context, if you take Tylenol or you 
take other medication that might suppress your fever. You know, 
many people who have COVID are, actually, asymptomatic and 
don't exhibit a fever at all. So there are questions about 
whether it is an effective screening technique, but even if it 
is, we are going to need allowances for people who have a fever 
for other reasons, right?
    If you are pregnant, if you have hypertension, you have 
chronic illnesses. Let's say if you are traveling to receive 
medical care and you have a fever for other reasons, the last 
thing we want is denying those people their Constitutional 
right to travel. So what I would say, if there is a temperature 
check, at most it should just trigger further conversation and 
further examination of the individual to have, you know, a 
conversation about what their other symptoms might be, whether 
there are alternative reasons, and whether they are actually 
are at risk or do, indeed, have COVID.
    Mr. Cleaver. I yield back my time.
    Mr. Correa. I am sorry, Mr. Cleaver? I didn't hear.
    Mr. Cleaver. That was my principal question. I yield back 
the balance of my time.
    Mr. Correa. Thank you very much.
    I would like to recognize Mr. Bishop, Congressman Bishop, 
for 5 minutes of questions.
    Mr. Bishop. Thank you, Mr. Chairman. I am going to yield. 
Appreciate it.
    Mr. Correa. Be safe, sir. Be safe. Drive and be safe.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Correa. I would like to recognize Ms. Watson Coleman 
for 5 minutes of questions.
    Mrs. Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. Thank you to 
the witnesses that we have had today. I find your testimonies 
very interesting. Two things stick out with me. One is that 
there is some need for a task force of some sort to bring 
together some sort of universal guidelines that make sense 
during this period of time.
    I believe it was suggested that a number of departments or 
department components could be in this, but I also think Ms. 
Barnes suggested some outside experts, so I kind-of want to 
hear what additional people you think should be considered,
    The other one was oversight of the implementation of the 
guidelines. So [inaudible] mentioned that and how do you see 
that happening? I guess the third thing I want to know, and 
this is from Ms. [inaudible] what are the things that are being 
implemented during this particular time to try to make people 
as safe as possible and give as much confidence to the traveler 
as possible that you believe can be permitted now but should 
end when the pandemic ends?
    Those are my questions, Mr. Chair.
    Ms. Barnes. So, Congresswoman, I will start with that. 
Thank you so much for the question. I think one of the things 
that we have really focused on is the need for a phased and 
layered approach, but something that is not so overly 
prescriptive that it can't be phased out over time as things 
evolve with [inaudible] convened a group of 30 different 
organizations and many of us different associations had members 
so it was even broader than that working with medical 
professionals and infectious disease doctors, as well as 
preventive disease doctors and others throughout the community 
to really talk through, what are medically necessary options 
for helping to stop the spread of COVID and also help to give 
the traveler more confidence?
    Mrs. Watson Coleman. Ms. Barnes, have you submitted those 
findings? Have you submitted those recommendations to any of 
the Federal departments? If so, have you gotten any response to 
them? Has anything happened as a result of your coming together 
and proposing some phased-in safety and health guidelines?
    Ms. Barnes. Yes. We submitted it to, actually, to the White 
House, to CDC, to all Governors. It was also submitted with my 
testimony to the committee. Happy to talk to you all about that 
in more detail, but we do think that having that consistency 
across the ecosystem is critical, but happy to engage further 
as well.
    Mrs. Watson Coleman. Thank you.
    Ms. Guliani, with regard to those measures that are going 
to be or trying to be or should be implemented during this 
period of time, including technology to reduce the touching, 
interaction of employees and passengers, what are the things 
that you think are OK for to be done in screening? What are the 
things that you think are OK but need to be eliminated the 
moment the pandemic is supposedly ended?
    Ms. Guliani. Sure. I mean, there are a variety of things 
that can be done, if implemented correctly, to both protect 
public health and respect civil liberties, things like mask 
requirements. You know, if there is clear information to the 
public, there is allowances made for people who may not be able 
to wear masks for medical reasons, if it is nonpunitive in 
nature, I think that is something that can be done and is 
consistent with what public health professionals have 
recommended.
    Something Ms. Nelson talked about is, you know, efforts to 
provide clear communication and ability for people to self-
monitor, right? Giving them lists of symptoms to check for 
themselves. The best-case scenario is that somebody who doesn't 
feel well or is high-risk doesn't come to the airport at all. 
So I think mechanisms to prompt that self-monitoring are things 
we can do. Efforts to reduce pat-downs, which Ranking Member 
Lesko talked about. We need more information. We need to 
understand efficacy, and we need to understand exactly what 
information is being collected. But a temporary measure with no 
further data collection that, you know, is equitable and that 
works could also be something.
    But I also want to talk about--you know, briefly you asked 
about oversight. I think one of the really important pieces of 
all of this is to make sure that there is independent oversight 
by an entity like the GAO, right? To make sure that what we are 
doing actually works; it is not window dressing. No. 2, that 
privacy rights are being respected.
    In the past we have seen with programs like CAT 2 or even 
SBInet, inspector general and GAO reports have really helped 
expose problems that, frankly, prompted discontinuation of 
programs that had deep problems.
    Mrs. Watson Coleman. Thank you very much.
    I yield back.
    Mr. Correa. Thank you very much, Mrs. Watson Coleman.
    I would like to recognize Mr. Van Drew for 5 minutes of 
questions.
    Welcome, sir.
    Mr. Van Drew. Thank you. It is good to be here, and it is--
I appreciate all of you being here to testify. Certainly, we 
have really got to get to the root of these problems. I guess I 
have 2 questions. The one question is--and I guess would be to 
Mr. Burke and maybe Ms. Barnes.
    Smaller airports--so we are thinking, generally, we are 
talking Kennedy. We are talking about obviously Philadelphia, 
at least in my area, and some of the very large airports, but 
we have smaller airports like Atlantic City International 
Airport.
    What role do you see for them? Are they all going to 
survive? How are the changes going to be different for them 
because they are significantly different and especially when I 
think of the tourism piece, because that is my area, small 
airports [inaudible] for people to get to their destination?
    Mr. Burke. Congressman, this is Mr. Burke. Thank you for 
the question. Small airports have taken a huge hit in this 
crisis, and you are absolutely correct. When air service 
returns, they will do much better. Right now, with our 
enplanements down 90 percent that is a challenge. However, the 
health challenge remains the same for a small airport as it 
does for the large airport.
    Passengers are going through Atlantic City have to be 
treated with the same level of safety as people going through 
Philadelphia or JFK or any other large hub or medium hub. The 
challenge is getting people back into the airport, making them 
feel safe. The only way they are going to get back is if 
flights return to those airports and when the airlines make the 
decision that they will be able to fly to Atlantic City, 
provide aircraft for people who go from, say, Indianapolis to 
Atlantic City for tourism and fill the hotels that Tori Barnes 
and her members represent.
    It is all about when people feel safe to come back out. The 
airports will do their job to keep the passengers safe inside 
the airport. When it comes to making certain that people 
travel, there is a whole bunch of factors there, one of which 
is when the airlines decide they are going to increase their 
enplanements, the airports will do much better, from the small 
to the medium to the large, but right now, you are absolutely 
correct. The small airports are having a very, very difficult 
time.
    Some were helped in the CARES Act, but that money will not 
last forever. That is why we have asked for more money in the 
next CARES Act provision for another additional $13 billion. A 
lot of that will go to the small airports to keep them 
functioning.
    Mr. Van Drew. Thank you.
    Ms. Barnes.
    Ms. Barnes. Thank you, Congressman. I would echo what Kevin 
said. We support and agree with everything that he noted, and I 
would just add on to that that the continued need for relief, 
as Kevin mentioned, additional dollars for airports, I think 
additionally dollars for destinations like the ones that you 
mentioned that are so important that will help to draw visitors 
back to destinations.
    You know, the 501(c)(6) organization is another 
Governmental destination marketing organizations that are left 
out of PPP. That is really another critical piece of relief 
that is necessary.
    Additionally, we are also hoping that the fourth phase of 
the CARES Act can include some tax incentives to actually help 
encourage individual travelers to get back out there and to fly 
again.
    So happy to work with your team on that, but we really 
think it is additional relief in added stimulus that is going 
to help to get folks out there. In addition to what we have 
been saying here is the need to have that clear, consistent 
message communicate [inaudible] when they go to an airport of 
any size and get on an airplane or if they go to a hotel or to 
an attraction or other destination.
    Mr. Van Drew. I thank you for that. [Inaudible] and I have 
dealt with them over the years too. It might also be easier to 
make them be able to actually abide by whatever the regulations 
all finally end up being because they are smaller, they are 
quieter, and it is easier to have the distancing and so forth, 
actually, in those areas other than the really crowded large 
airports.
    That is the other question I wanted to ask real quickly as 
well. I know [inaudible] and that we all try to maintain that. 
However, if you really think it is 6 foot between you and me 
and 6 foot this way and 6 foot this way and 6 foot behind, you 
know, I have done some air travel in my time, and, again, we 
are nowhere near there now. Nobody is in the airport, but even 
when an airport is moderately busy, everybody is kind-of moving 
together in some way, even the lines, it is tough. I think 
that, you know, the masks are much easier and the hand 
sanitizer is much easier.
    I would think that is going to be really difficult to do at 
certain times once we are really back and we are in full motion 
here.
    Mr. Burke. Yes, sir. If you wear masks, the 6 foot 
separation could be changed. That is if everybody is wearing 
masks. You are absolutely correct. The geography of airports 
were all different. It is very, very difficult to be able to 
figure out if 50 percent load factors, 70 percent load factor, 
if the load factors go up, those lines are going to get very 
close to one another. It is going to be physically impossible 
to keep people 6 feet away.
    So it is really inherent that people protect themselves by 
wearing these masks inside these terminals. So, unless we 
expand the size of the terminals where we can separate these 
lines, both the TSA as well as at the gates--because, remember, 
gates bump into gates and then sometimes load at the same time. 
Then they have concessionaires on the other side of restaurants 
where these lines will bump in to.
    So that 6-foot separation as people come back to the 
airports is going to be very, very difficult to keep and also 
to enforce. People will be bumping into each other. So, for 
them to remain safe, wearing masks is important.
    Mr. Van Drew. We pray that wearing masks is as good as they 
think it might be. Because we have all heard various doctors 
say various things about the value of the mask. You are only 
protecting the other person, or it depends which mask you are 
wearing, how you are wearing it.
    You know as well as I do, so many people wear the mask only 
on half of their face, their nose [inaudible]. So it is 
interesting [inaudible] yield back, Chairman, and thank you.
    Mr. Correa. Thank you, Mr. Van Drew.
    I would like to recognize the gentleperson, Ms. Barragan, 
from Pennsylvania.
    Ms. Barragan. Thank you, Mr. Chairman, for having this 
really important hearing. We are going to be [inaudible] all 
this week. We are still in the first wave, and this is still 
very real. We are seeing increased numbers across different 
places in the States, and there is nothing more than we hear 
from the own House Physician how the highest risk for Members 
of Congress and for travel, really, is the airplane and the 
airport.
    So that is why I think it is so critically important that 
we get this right and do what we can to make sure we are 
protecting passengers and employees.
    Ms. Nelson, thank you for starting your comments today by 
recognizing the two very important Supreme Court decisions and 
your comments there. I want to echo those. I also want to say, 
Ms. Nelson, I can relate to a lot of your concerns and those of 
flight attendants. I have a sister, I have 2 sisters who are 
flight attendants, and I hear a lot [inaudible] among flight 
attendants and the concerns that flight attendants are having. 
It is, No. 1, about public feeling safe and coming back, but we 
need to make sure flight attendants are feeling safe.
    From what I have heard, [inaudible] flight attendants that 
they are not getting the support that they believe they should 
be getting. So let me turn to my first question for you, Ms. 
Nelson.
    Social distancing has been one of the most important 
recommendations as we have heard from public health officials. 
Airlines have aggressively pushed against leaving a middle seat 
open for economic reasons behind that, and I can understand 
that.
    From your perspective, how does the absence to a limit on 
load factors and limited change and cancellation flexibility 
during this pandemic affect flight attendants and passengers?
    Ms. Nelson. Well, we have--thank you for that question, and 
we have pushed for change fees to be waived during this time. 
Much like we have said, it needs to be very clear that if 
anyone is calling in sick, they are not disciplined, and they 
are able to get sick leave and paid for that when they are an 
essential worker and coming in and putting themselves at risk, 
but then also if they are not taking proper precautions, they 
are also adding to the problem at work.
    On the social distancing, there is no way to properly 
social distance on the plane. That is why we need to have clear 
Federal requirements for the masks. Mr. Van Drew brought up the 
issue of people not knowing how to wear the masks. This is part 
of what we are talking about.
    When you don't have those clear guidelines and you don't 
have clear instructions and you don't even have proper training 
for the crews to be able to instruct passengers or give those 
instructions, then you are not practicing all of the layers of 
safety that are necessary to make up for the fact that you are 
working in a space that you cannot properly social distance in.
    So it needs that layered safety and security approach. I 
should just note also for this committee that it is very, very 
important to continue those job protections as well. The 
continuation of the CARES Act through the end of January so 
that the airlines have the ability to implement these policies 
like paying people for the sick leave and being able to do 
that. Also this committee would be concerned about the security 
credentials that are in place.
    So all those airport workers and the people who work at the 
airlines also have to have security clearance. As they are let 
go from their jobs, then it makes it that much harder to start 
up the economy again.
    So we need proper PPE. We also have had a problem with the 
supply chains and getting the proper PPE for the workers on the 
front lines, the gate agents, the flight attendants, who are 
coming most in contact with the passengers, but all of these 
issues are necessary to be addressed by the Federal Government 
because the airlines are not well-enough equipped to take all 
this on and to put the proper procedures in place. There are 
the financial strains, too, that are getting in the way of 
making good safety and health decisions.
    Ms. Barragan. Thank you.
    The other concern I keep hearing is, what is going to 
happen after September 30? What is going to happen to flight 
attendants? A lot of concern there. As Congress passed the 
CARES Act and provided funding to airlines, of course, I think 
the ability for them to lay folks off is only through September 
30.
    When October 1 comes around, how do you think airline 
employees will fare? What is your estimation?
    Ms. Nelson. If Congress does not act to extend to do a 
clean extension of the payroll support system, this is only 
about jobs now at this point. The airlines have essentially 
stabilized themselves. All that will happen is that pink slips 
will be signed, and they will be in the hundreds of thousands 
on October 1 if there is not an extension of the payroll 
support system.
    We believe that that needs to go through the end of January 
to get us through the worst of this and to get policies and 
procedures in place that give people confidence in flying, get 
us through the holidays, that will get us through the worst of 
it we believe, but if we do not have that in place there will 
be massive furloughs in October.
    Ms. Barragan. Well, thank you for your service. Many times 
people don't realize that our flight attendants are public 
safety professionals. They think something else. So thanks for 
pointing that out in your testimony today.
    With that, Mr. Chairman, I yield back.
    Mr. Correa. Thank you, Ms. Barragan.
    I would like to recognize Mr. Katko for 5 minutes of 
questions.
    Welcome, sir.
    Mr. Katko. Thank you, Mr. Chairman. I miss seeing you and 
everybody on Homeland. I wanted to touch base to wish you all 
well and hope to see you all soon in person.
    As this hearing went on today, I started thinking--and I 
apologize if I missed this part of the testimony if this was 
discussed, but I want to talk about the use of technologies at 
the checkpoints and the impact that can have on a travel 
experience.
    For years I have been particularly interested in the next 
generation of scanners and what they would do for the travel 
experience, No. 1, and now because of COVID, what that would do 
for safety and the health of the TSOs.
    We appropriated a small amount of money, relatively small 
amount of money, to start the next generation of 3D scanners. 
Now the 3D scanners, as you all know, allow the TSOs to have 
much less physical contact with bags and individuals because 
the scanners will identify the anomalies for the person, and 
then only those bags that have anomalies that the machine finds 
will be taken aside.
    I just think, from a safety standpoint, from an 
antiterrorism standpoint, but now from a health standpoint, it 
is really important. I think the more you can do to [inaudible] 
checkpoints and to the planes and all of the other discussions 
we have been having, talking about keeping the planes safe and 
healthy is important, but I think that is really about keeping 
the masses moving and keeping them apart as much as possible, 
is really going to be important.
    As air travel goes back up, I don't know how you can keep 
people 6 feet people apart. So keeping the throughputs is going 
to be very important. So, with that, I just want to know, what 
do you all think about it? I think in the next package 
[inaudible] I say to tell my colleagues in Homeland Security 
and try to get full funding for all the next generation of 
scanners once and for all.
    Because at the rate we are going, we are not going to get 
them for 10 years, and by that point, they will probably be 
obsolete and we will have to replace those. So I would argue 
that we need to work on getting the scanners now and getting 
them moving now from a health and safety standpoint.
    I would like to just open it up and see what you think.
    Mr. Burke. Mr. Katko, the airports totally agree with you. 
We have been supportive of getting more money to TSA to 
increase throughput even prior to the pandemic. I can remember 
2 to 3 years ago when there were less TSOs, transportation 
security officers, long, long lines [inaudible] and the 
technology not working.
    The technology exists to make people get through quicker 
and safer. As I mentioned in my testimony, we are looking at a 
touchless technology----
    Mr. Katko. Correct.
    Mr. Burke [continuing]. Where people go through and they 
don't have to touch anything. They would have to look into a 
camera. From what I understand is, when you look into the 
camera and the information that the TSO looks at, once you go 
through, my understanding is that information is deleted 
because if TSA kept that information, that would be enormous 
amount of information to hold on any given day.
    So there are 2 things here. No. 1, at this juncture, it is 
the safety of the passenger going through, the confidence that 
they are going to go through and not have to have any 
interaction other than looking at a TSO, scanning their own 
ticket, scanning their own license, and having the ability to 
be able to walk through and look at a camera or walking through 
a scanner.
    The scanning technology is far better than it was 2, 3 
years ago, and we would welcome more funding for that through 
TSA. It would make the travel experience faster and, frankly, 
safer as we move forward.
    Mr. Katko. Yes. Several years ago, I got off the plane in 
London on my way to Ireland for something for the Government. I 
get off the plane before I went through Customs and did a 
facial [inaudible] human contact. Before I got on the plane, 
you had to stand in front of a camera. They did the facial 
recognition software. You got on the plane. They didn't look at 
many other documents.
    So the technology is there, and the biometrics is a way of 
decreasing human contact considerably and moving people through 
quicker. So I would argue to all of my colleagues it is 
something we should continue going forward just from a safety 
standpoint, from a health standpoint, and just from 
[inaudible].
    Ms. Barnes. Yes, Congressman, we absolutely agree with you. 
This is from the U.S. travel perspective. We think that we 
would love to see a greater investment in CAT-C, CT screening 
technology. We absolutely support the idea of touchless 
security screening and opt-in biometrics and could not agree 
with you more that it is a vital tool to facilitate a safe and 
secure return to travel.
    It is so important for travelers to have that confidence as 
they come back into the travel environment, and we fully 
support that [inaudible].
    Mr. Katko. You should use your considerable clout, Tori, to 
get American Airlines flights back going from Syracuse to D.C. 
because I have none right now. I used to have 4. So come on 
now. All right?
    Ms. Barnes. We are on it.
    Mr. Correa. While you are, get some from Orange County 
directly to Reagan Airport, OK.
    With that being said, I would like to recognize the 
gentleperson from Florida, Mrs. Demings.
    Welcome.
    Mrs. Demings. Thank you so much, Chairman Correa, and thank 
you to all of our witnesses who are with us today. It is good 
to see everybody, and I, too, miss you, but we need to continue 
do some of the things that we are talking about here today to 
make sure that we are safe and others are safe as well.
    I certainly enjoyed the discussion about the touchless 
technology. I would believe that every worker and every 
passenger would appreciate us pursuing that. So I look forward 
to further discussions along those lines.
    Ms. Nelson, there was a discussion earlier about the 
absence of clear guidelines as it pertains to wearing a mask 
and, you know, practicing social distancing and all of that. 
You talked about some of the challenges around flying and being 
able to do that, but we still should do what we can do. I 
certainly appreciate the efforts of the airlines to make sure 
that we are traveling as safely as possible.
    I know the last few flights that I had been on, masks, for 
example, were required. I thank God for that. Yet we had some 
passengers for some reason who still resisted that. So I would 
just like to hear a little bit more--I know we have had a great 
discussion here--but about the self-wellness checks and are we 
seeing zero-tolerance policies because, while we want as many 
people to be able to fly, flying is still a privilege, and we 
all have an obligation to do what we can.
    So could you talk a little bit more about that? How it is 
enforceable? Is it done electronically like when we say, like 
you mentioned earlier, did you pack your own bags? So just talk 
a little bit more about that for me, please.
    Thank you.
    Ms. Nelson. Sure. Thank you [inaudible] of a corps of 
trained individuals who are able to recognize symptoms 
themselves and also be able to identify that, but also prompt 
travelers to be able to ask questions so that they can self-
evaluate their own well-being. We--actually, this conversation 
here today has been a great example of why you need to put 
together a task force with all the different stakeholders so 
that you can make sure that when you are implementing these 
policies, you don't have any unintended consequences so that it 
is implemented fairly and without bias.
    So this is really about having a work force that could be 
in the airport that could help to do this first assessment that 
would be a health assessment, but would be run through a really 
self-assessment with the individual and that can relate also to 
what is happening with the employees.
    We are seeing some concerns right now about the airlines 
putting in place some of this health monitoring, and they are 
asking employees to input that data, and there are concerns 
around privacy concerns for the employees that we are 
addressing right now.
    There is also potentially discipline lobbied against those 
employees for reporting that they actually have these symptoms 
as opposed to encouraging them then to stay home and be well. 
So we have some issues to work through here, and the reason 
that it is not perfect is because we don't have the kind of 
leadership and Government oversight that we need to be able to 
put this in place in a way that puts the health and safety 
first and isn't really putting it on the backs of the airlines, 
who are worried about the viability of the airline and taking 
into consideration their financial concerns.
    Mrs. Demings. But, of course, the airlines does have, you 
know, in the absence of guidelines kind-of like we are seeing 
right now with civil unrest in our country, the airlines does 
have the primary responsibility to do what it can to protect 
the traveling public and its employees until those guidelines 
come down. Would you agree with that?
    Ms. Nelson. 100 percent. I don't want to leave you with the 
wrong impression because, actually, I want to really applaud 
our airlines for doing more than I have ever seen them do 
before in any situation like this. The self-initiative that 
they have taken to try to address these issues and, more 
recently, talk about making it a requirement that people are 
wearing masks and not just a suggestion and actually taking--if 
someone doesn't do that, putting them on a no-fly list for the 
airline.
    Those are all really important steps, but we really believe 
that there needs to be backing from the Federal Government, a 
Federal regulation that everyone understands that we are all 
communicating together and actually standards to train the 
employees on the front lines who are implementing that and 
guidelines that would include things like it is on the back of 
the ticket or it is a requirement when you are checking in and 
getting your ticket that you are acknowledging that you will 
wear a mask.
    These types of things could be put in place through clear, 
coordinated guidelines that are communicated across the board 
that everyone understands, and we know in aviation that it is 
certainly possible: You have to wear a seat belt. You have to 
put your tray table up. You have to stow your bag. These are 
all things that we do to have the ability to have the magic of 
flight.
    Mrs. Demings. Just as we made the adjustment after 9/11, I 
was assigned as a police captain at the Orlando International 
Airport during 9/11, and just like we all had to make that 
adjustment, I think we will never really fully--of course, 
until we develop a vaccine, return back to flying as we once 
knew it. Hopefully, in the mean time, we will get technology to 
assist us in making it a smoother transition.
    Thank you so much, Ms. Nelson, and thank you to all of our 
guests once more.
    Mr. Chairman, I yield back.
    Mr. Correa. Mrs. Demings, thank you very much, and I am 
glad Orlando finally got it right and made you a chief as 
opposed to just keeping you----
    Mrs. Demings. Yes. Yes. Take care, everybody.
    Mr. Correa. Any other Members wish to ask additional 
questions?
    Seeing no hands raised, I want to thank the witnesses for 
their valuable testimony today and the Members for their 
tremendous questions. I am going to ask unanimous consent to 
insert the following documents into the record.
    First, a statement from the gentleman from Hawaii, 
Representative Ed Case; second, a letter from the Airline 
Pilots Association; third, a letter from the Blue Sparks 
Technologies Group; and, fourth, an Op-Ed from the Consumer 
Reports and [inaudible].
    No objection. Thank you.
    [The information follows:]
                   Letters From the Honorable Ed Case
                                     June 18, 2020.
The Honorable Lou Correa,
Chairman, Subcommittee on Transportation and Maritime Security, House 
        Committee on Homeland Security, H2-176 Ford House Office 
        Building, Washington, DC 20515.
The Honorable Debbie Lesko,
Ranking Member, Subcommittee on Transportation and Maritime Security, 
        House Committee on Homeland Security, H2-117 Ford House Office 
        Building, Washington, DC 20515.
    Dear Chairman Correa and Ranking Member Lesko: Thank you very much 
for the opportunity to submit a statement for the record of this 
subcommittee hearing titled ``Climbing Again: Stakeholder Views on 
Resuming Air Travel in the COVID-19 Era.'' I appreciate your efforts to 
accelerate consideration of the best way forward for air travel as our 
country confronts this pandemic and its aftermath.
    As U.S. Representative for Hawaii's First Congressional District, I 
write to this subcommittee because, far more than most States, Hawai'i 
has vital interests in pursuing a safe restart of passenger air travel 
for the duration of this COVID-19 pandemic and after. I am proud that 
Hawai'i has achieved relative success in containing the spread of 
COVID-19, reporting one of the nation's lowest rates of infection since 
the start of this public health emergency. At the same time, achieving 
such a low rate during this pandemic has caused a precipitous decline 
in our No. 1 industry, tourism, which is virtually wholly dependent on 
air travel. That has severely damaged Hawaii's local economy, among the 
worst-hit in our country, with one of the highest unemployment rates 
and most severely impacted government and business revenue results.
    Air travel is essential to Hawai`i as the primary means by which 
residents and travelers can enter and leave our State or travel between 
our islands. Prior to the COVID-19 pandemic, daily incoming passenger 
counts to Hawai`i easily exceeded 20,000 passengers a day and could 
reach nearly 40,000 passengers a day during peak travel periods. In 
2019, over 10 million visitors arrived in Hawai`i. On any given day, 
visitors and tourists averaged about 250,000 people, or close to 20 
percent of our de facto population when aggregated with our resident 
population of about 1.4 million people.
    Unfortunately, air travel has been a significant way to spread 
highly communicable diseases such as COVID-19. Passengers who have been 
infected and are contagious present a serious public health risk not 
just to their fellow passengers but to all who come into contact with 
them at their destinations.
    One of the biggest challenges to recovery for the travel and 
tourism industry and to air travel overall is restoring public faith in 
the safety of travel. According to the U.S. Travel Association, most 
travel in the United States in the immediate future and aftermath of 
this pandemic is expected to take the form of road trips, as most 
Americans feel safe driving in their vehicles. Because travelers cannot 
simply take a road trip to Hawai`i, it is essential to the recovery of 
Hawaii`s travel and tourism industry that steps be taken to make air 
travel as risk-free as possible and restore public confidence that 
people can safely fly and safely visit without fear of contracting 
infectious diseases like COVID-19.
    One of the best and most common-sense approaches to restoring 
public faith in the safety of air travel is to ensure that all intended 
passengers aboard an aircraft have tested negative for COVID-19 prior 
to boarding and departure. This would allow passengers to fly with the 
knowledge that their fellow passengers are not likely carrying COVID-19 
and also allow arriving travelers to disembark at their destinations 
without having to comply with a mandatory 14-day quarantine, as 
currently required in Hawai`i, which can be difficult to enforce and is 
undesirable for travelers in the first place. Implementing this 
approach would require coordination that extends beyond State 
boundaries, raising jurisdictional issues at the Federal level.
    To address these issues, I wrote to Administrator Steve Dickson of 
the Federal Aviation Administration (FAA) on May 13, 2020 requesting 
clarification of the authority of States like Hawai`i to impose and 
enforce conditions on air travel to protect public health, including by 
requiring COVID-19 testing of all intended passengers prior to 
departure. In his response dated May 27, 2020, Administrator Dickson 
wrote that the FAA ``has no authority to either grant permission or 
prohibit a local of State unit of government to pursue such a policy.''
    Unfortunately, this narrow interpretation of FAA authority does not 
clearly allow for actions focused on the broader public health 
consequences of passenger air travel, especially in a pandemic. That is 
why I have introduced H.R. 7128, the Air Travel Public Health Emergency 
Act, to explicitly confirm FAA's authority and responsibility to 
consider public health necessities and require reasonable guidelines 
and restrictions by States to protect public health. The bill would 
also require airlines to pay for any restrictions, such as a pre-
boarding testing requirement, and ensure that Federal airport funding 
would not be affected by any State's reasonable guidelines or 
restrictions.
    I have also written to the Health and Human Services Secretary Alex 
Azar, as recommended by FAA, as FAA suggested that HHS has wide-ranging 
authority during public health emergencies that may be utilized to 
authorize pre-board testing as a condition of boarding. I am awaiting 
his response, but also believe that if HHS answers that it does not 
have such authority or declines to exercise its authority, a similar 
approach as my H.R. 7128 should be taken to provide legislative 
authority.
    As the subcommittee is aware, the Transportation Security 
Administration (TSA) has been leading interagency discussions about 
potentially launching a pilot program to require pre-board COVID-19 
screenings for passengers. Such an effort would be an important step 
toward allowing for a Nation-wide infrastructure and standards for a 
testing regime. However, it appears these discussions have been going 
on for months and there has been little public information on the 
status of these efforts. When I have asked about such plans, no real 
information has been shared. As the subcommittee engages with TSA or 
the Department of Homeland Security, I would urge you to ensure they 
are actively pursuing this course of action.
    In conclusion, the Federal Government must take a more active role 
in adapting air travel to the demands of COVID-19 and the post-pandemic 
era. Clearly many Federal agencies could play a role but appear to be 
reticent to take the actions necessary to allow for regular air travel 
to resume. This can only be successfully done in close coordination 
with stakeholders across the board, including States, the airline 
industry as well as public health officials, airport operators and 
more. The current approach in which States are left to determine their 
own policies on air travel once a passenger has landed is inadequate, 
and they have thus far been denied the authority to implement policies 
that will in fact adequately allow for the reopening of safe air 
travel. In that case, then States must be clearly given the authority 
to impose whatever restrictions and standards as may be reasonable and 
necessary to protect public health, and I ask for the subcommittee's 
support of H.R. 7128 and related proposals.
    Thank you for your consideration of these views. Please call upon 
me for any questions or assistance in your important work.
            Sincerely,
                                                   Ed Case,
                                                Member of Congress.
Enclosure: May 13, 2020 letter to Administrator Steve Dickson, Federal 
Aviation Administration
May 27, 2020 response from Administrator Steve Dickson, Federal 
Aviation Administration
Text of H.R. 7128, the Air Travel Public Health Emergency Act
June 2, 2020 letter to Secretary Alex Azar, Department of Health and 
Human Services
                              ATTACHMENTS
                                      May 13, 2020.
The Honorable Steve Dickson,
Administrator, Federal Aviation Administration, 800 Independence 
        Avenue, SW Washington, DC 20591.

Re: Protecting Hawai`i Public Health; Required COVID-19 Testing of All 
Passengers Prior To Boarding Direct Flights to Hawai`i

    Dear Administrator Dickson: As we all continue to address the 
COVID-19 global pandemic, I write to request your cooperation in 
confirming Hawaii's ability to impose and enforce conditions on air 
travel to Hawai`i which are critical to ensuring (a) the health of 
Hawai`i residents and visitors and (b) the safe recovery of Hawaii's 
economy and in particular our travel and tourism industry.
    These conditions would be as reasonably determined by the State of 
Hawai`i as necessary to protect public health. This could include 
requiring testing of all intended passengers (including in this letter 
crew) on any direct air travel to Hawai`i before boarding. Such testing 
could include at least fever testing and, as available, on-site rapid 
COVID-19 testing, as now required by international airlines such as 
Emirates on some flights. The requirement for enforcing these 
conditions would be borne by the airlines as a condition of accepting 
any intended passenger on any direct flight to Hawai`i, and any airline 
would be required to deny boarding to any intended passenger with a 
fever which, under Centers for Disease Control and Prevention (CDC) 
guidelines, indicates potential COVID-19 infection or who tests 
positive.
    By way of background, almost all passenger transportation into 
Hawai`i, both domestically and internationally, is by air. In 2019 
there were some: (i) 13,620,000 total air seats operated to Hawai`i, 
(ii) 10,280,000 visitor arrivals; (iii) 7,250,000 domestic visitor 
arrivals; (iv) 3,030,000 international visitor arrivals; and (v) an 
average daily visitor count of 250,000 (against a resident population 
of 1,400,000). In short, prior to the COVID-19 crisis, the great 
majority of passenger air arrivals in Hawai`i were non-resident, 
discretionary visitors (tourists), who arrived at a rate of close to 
30,000 per day, and on any given day they constituted close to 20 
percent of our de facto population.
    This is, of course, a recipe for the rapid spread of COVID-19 among 
Hawaii's population (and, for visitors returning to their homes and 
residents exiting elsewhere, back to their destinations). And, in fact, 
in the stages of the spread of COVID-19 to date in Hawai`i, a major 
contributor (especially in the first few weeks of the pandemic, when it 
was virtually the sole contributor) has been travel-related from both 
returning residents and visitors.
    Hawaii's response has been among the most restrictive in the 
Nation. A State-wide work-at-home, stay-at-home order except for 
essential services has been in effect since March 26. And a mandatory 
14-day quarantine for any air passenger arriving in Hawai`i has been in 
effect since March 26 as well.
    As applied to returning residents and visitors staying in resident 
homes, the quarantine requires them to remain in those home for the 14 
days. As applied to non-resident visitors not staying in residences but 
instead in hotels or other transient accommodations (tourists), the 
mandatory 14-day quarantine requires such visitors to stay in their 
hotel or accommodation rooms for the full period.
    This and the other impacts of COVID-19 have had the effect of 
significantly reducing air travel to Hawai`i. From institution of the 
air passenger quarantine on March 26 through April 30 there were 23,302 
arrivals, of which 8,224 were returning or intended residents and 4,508 
were visitors.
    However, these numbers have been increasing rapidly in May, 
especially the visitor count, reflecting that the quarantine is not 
operating as any real deterrent. Moreover, it is very evident that 
these air passengers, especially the visitors, are generally not 
honoring the 14-day post-arrival quarantine.
    These air passengers arrive from various destinations with widely 
varying efforts to mitigate the public health effects of COVID-19. Some 
jurisdiction are just as stringent as Hawai`i, if not more so, while 
most others are not. Their continued arrival in Hawai`i, at increasing 
numbers, with an ineffective post-arrival quarantine, constitutes an 
unacceptable risk, and it is reasonable for Hawai`i to seek to 
institute pre-boarding conditions to minimize this risk wherever and 
however possible.
    In my discussions with Federal Aviation Administration (FAA) 
personnel to date, I understand that FAA does not question restrictions 
imposed on air passengers once they arrive in Hawai`i as an exercise of 
Hawaii's general police powers. But that is a far more cumbersome, 
unworkable, resource-intensive effort (diverting critically stretched 
and needed first responders to tracking and enforcement efforts), with 
far more public health risk, than straightforward pre-screening of 
intended passengers for compliance with reasonable restrictions before 
they board airplanes and denial of boarding for non-compliance.
    I further understand that FAA has expressed some concerns as to who 
would enforce airline compliance with reasonable pre-board 
restrictions. I believe most if not all airlines would take the 
restrictions and their responsibility for enforcement very seriously, 
and do not in any event see a requirement that each intended passenger 
submit to a basic test as imposing any significant requirement on the 
airlines (in the same way as is true currently for many international 
airlines and travelers to Hawai`i or other domestic destinations). The 
first domestic carrier, Frontier Airlines, has announced it will 
implement a similar restriction requiring temperature screenings for 
all passengers and crew prior to boarding flights beginning June 1. 
Airlines for America, the industry trade group for the largest American 
passenger carriers, has endorsed requiring temperature screenings as 
well.
    I further understand that the State of Hawai`i imposed the 14-day 
incoming quarantine requirement in large part because it understood 
from the FAA, in its March and April guidance and otherwise, that the 
imposition of such pre-board conditions was not authorized by existing 
statutes and regulations and would jeopardize Federal funding. I also 
understand from my discussion with the FAA to date that in fact the FAA 
is focused on the safe and efficient use of the Nation's airspace (with 
safe not generally including protection of general ground populations 
from COVID-19 and efficient generally referring to maximum use), that 
the protection of the general public health in addition to air-related 
risks is not within FAA's mandate, and that absent superseding 
authority in other Federal agencies such as the CDC, the FAA is 
unwilling or unable to authorize the State of Hawai`i to impose 
reasonable public health-related restrictions on travelers as a 
condition of travel to Hawai`i.
    I ask and urge you to revisit these issues and assist me, the State 
of Hawai`i, the people I represent, the visitors to Hawai`i and the 
destinations to which they will return in finding a solution allowing 
the State of Hawai`i to impose reasonable public health pre-board 
conditions on intended passengers to Hawai`i. This could include 
flexibility within existing statutes and regulations, identification of 
superseding authority in other Federal agencies, and proposed changes 
to existing regulations and statutory authority. In the latter case, I 
ask that you initiate any required rule changes under expedited 
authority, and propose to me specific statutory amendments which would 
provide you with the necessary authority.
    I ask that you do so on an emergency basis considering the 
continued public health threat to Hawai`i from our inability to impose 
and enforce effective mitigation requirements. But I also ask that you 
do so because these questions will have to be answered and the 
necessary changes will have to be made for Hawai`i to reopen to any 
great extent to air travel. Simply put, if passengers do not feel safe 
coming to Hawai`i because they fear contracting COVID-19 on the flight 
or in Hawai`i, or if Hawai`i residents do not feel safe with passengers 
getting off planes in Hawai`i, air travel to Hawai`i will not recover 
leading to many consequences to include FAA and airport-supportive 
revenues. The same is true throughout the country and so the necessity 
of safe travel is in all respects a National one which FAA should 
better face now.
    Considering the urgency of protecting Hawaii's current and future 
public health, I ask for your specific response by no later than 
Wednesday, May 20. I stand ready, together with the State of Hawai`i 
and other interested parties both in Hawai`i and Nationally, to work 
with you on fashioning an effective solution to this critical matter.
    I appreciate your prompt and full attention. Please call on me for 
any questions or needs.
            Sincerely,
                                                   Ed Case,
                                           Hawai`i--First District.
                                 ______
                                 
                                       May 27, 2020
The Honorable Ed Case,
House of Representatives, Washington, DC 20515.
    Dear Congressman Case: Thank you for your May 13 letter regarding 
the imposition of health screening requirements on all Hawai`i bound 
passengers and crew members prior to boarding.
    Specifically you stated the desire to find a solution, ``allowing 
the State of Hawai`i to impose reasonable public health pre-board 
conditions on intended passengers to Hawai`i.'' The Federal Aviation 
Administration (FAA) is unaware of an authority that would allow 
individual States to effectively institute the type of pre-boarding 
screening you described within the jurisdiction of another State. As 
you noted, the FAA has stated the agency has no authority to either 
grant permission or prohibit a local or State unit of government to 
pursue such a policy.
    As previously communicated by FAA counsel, the most productive 
conversation may be between your office and the U.S. Department of 
Health and Human Services, which is provided many authorities under the 
Public Health Service Act to combat the spread of communicable disease.
    While the FAA does not prescribe public health rules and 
requirements, the agency shares your desire to see air travel return as 
a common manner of transportation. To that end, the FAA has 
consistently emphasized to air carriers that they should implement 
public health guidelines established by the Centers for Disease 
Control. The U.S. Government is currently working to develop a set of 
public health risk mitigation measures for aviation to support the 
reinvigoration of healthy passenger air travel. We believe a 
comprehensive and consistent set of guidance to airports and airlines 
is the most effective and efficient way to protect travelers, crews, 
and the public from risks associated with COVID-19.
    Thank you again for your letter. If I can be of further assistance, 
please contact me or the Office of Government and Industry Affairs [.]
            Sincerely,
                                             Steve Dickson,
                                                     Administrator.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                ______
                                 
                                      June 2, 2020.
The Honorable Alex M. Azar II,
Secretary, U.S. Department of Health and Human Services, 200 
        Independence Avenue, S.W. Washington, DC 20201.
    Dear Secretary Azar: I write to request your Department's 
assistance in ensuring that Hawai`i can require pre-boarding COVID-19 
testing of all domestic passengers seeking to board direct flights to 
Hawai`i.
    I enclose copies of my recent correspondence with the Federal 
Aviation Administration (FAA) making the same request. My letter to the 
FAA outlines Hawaii's efforts, as an isolated island State virtually 
completely dependent on air travel for incoming passenger 
transportation and further largely dependent economically on high 
volume travel and tourism, to ensure that intended passengers with 
indicated COVID-19 be screened out before they board planes rather than 
addressed after arrival. This is critical not only to ensuring the 
public health of Hawai`i residents and visitors but to creating the 
public confidence in safety without which our travel and tourism 
industry will not recover.
    As you can see, the FAA has responded that the FAA is not able to 
authorize Hawai`i to impose such a requirement under its existing 
statutory authority, essentially because protection of the public 
health other than for the safe operation of air transportation itself 
is not within its statutory mandate. However, FAA recommended engaging 
with the Department of Health and Human Services (HHS), as FAA believes 
HHS does have the appropriate authority to allow Hawai`i to implement 
such conditions.
    Accordingly, I ask that you review my request to determine whether 
and how HHS may authorize Hawai`i to impose such conditions or, in the 
alternative, to impose those conditions itself. This could include 
flexibility within existing statutes and regulations, identification of 
superseding authority in other Federal agencies, and proposed changes 
to existing regulations and statutory authority. In the latter case, I 
ask that you initiate any required rule changes under expedited 
authority and propose to me specific statutory amendments which would 
provide you with the necessary authority.
    I ask that you do so on an emergency basis considering the 
continued public health threat to Hawai`i from our inability to impose 
and enforce effective mitigation requirements. As an island State, we 
were able to keep our infection rate very low, and increased travel 
increases the risk of infection in our State.
    I also believe that as the country reopens, the question of the 
health and safety of commercial aviation will play a major role in 
whether we can fully return to pre-COVID-19 rates of travel globally. 
Our Government must take active steps to ensure the health and safety 
of communities, passengers and crew arising from proposed resumption of 
any major airline travel.
    I appreciate your prompt and full attention. Please call on me for 
any questions or needs.
            Sincerely,
                                                   Ed Case,
                                           Hawai`i--First District.
                                 ______
                                 
   Letter From Captain Joseph G. DePete, President, Air Line Pilots 
                       Association, International
                                     June 18, 2020.
The Honorable Lou Correa,
Chairman, Transportation and Maritime Subcommittee, 1039 Longworth 
        House Office Building, Washington, DC 20515.
The Honorable Debbie Lesko,
Ranking Member, Transportation and Maritime Subcommittee, 1113 
        Longworth House Office Building, Washington, DC 20515.
    Dear Chairman Correa and Ranking Member Lesko: On behalf of the Air 
Line Pilots Association's (ALPA's) 63,000 professional airline pilots 
at 34 U.S and Canadian airlines, we would like to thank the committee 
and subcommittee for holding the hearing ``Climbing Again: Stakeholder 
Views on Resuming Air Travel in the COVID-19 Era,'' and for its 
leadership during the pandemic, which has taken a significant toll on 
the global aviation industry. This hearing comes at a pivotal time for 
commercial airline operations as we work to ensure the health and 
safety of our returning crews and passengers. Steps are being taken to 
stabilize the financial health of our airlines, as we continue to 
welcome back an increasing number of passengers.
    We applaud Congress for taking swift and decisive action early in 
this crisis to pass the CARES Act, which provided a major financial 
lifeline for the airlines and included strong worker protections. We 
believe that additional steps must be taken to ensure the aviation 
industry recovers and front-line workers are not harmed to include the 
following:
  <bullet> Extending the CARES Act worker support program or other 
        financial instruments directed toward worker payroll and 
        benefits beyond October 1 to ensure the stability of the 
        airline industry and a robust rebound to passenger travel,
  <bullet> Ensuring health care coverage for front-line workers, 
        including COBRA subsidies for airline workers displaced as the 
        result of the industry downturn due to the pandemic,
  <bullet> Hazard pay for essential workers,
  <bullet> Reforming the bankruptcy code to provide protections to 
        workers' collective bargaining agreements should companies seek 
        to reorganize as a means to shed labor costs, and
  <bullet> Extended sick leave, unemployment benefits, and furlough 
        mitigations related to COVID-19.
    We believe that the key to restoring public confidence in air 
transportation is taking the necessary steps to protect passenger 
health, safety, and security. While the Centers for Disease Control and 
Prevention (CDC) and Federal Aviation Administration (FAA) have issued 
strong guidance on protecting the health of our passenger and crew 
members, these protocols are simply guidance.
    Compliance with that guidance is currently voluntary and non-
standard. A recent article on this subject sums up our concerns quite 
well: ``Each of the country's major airlines has taken a different 
approach to reconcile ways of increasing revenue with peace of mind for 
flyers . . . Some carriers have gone to the extreme by blocking middle 
seats and flying extra flights to keep passenger loads light. Others 
are continuing on with business almost as usual, not requiring so much 
as a face covering for passengers.''\1\
---------------------------------------------------------------------------
    \1\ Business Insider, June 15, 2020 (https://
www.businessinsider.com/us-airline-new-coronavirus-travel-rules-
comparison-american-united-delta-2020-6).
---------------------------------------------------------------------------
    As recent data demonstrates, airlines have made positive strides in 
promoting a safer environment, but absent a Federal requirement for 
standard safety and health requirements, there will continue to be a 
patchwork system, which will be increasingly under strain as more 
people return to flying.
    And returning to flying is exactly what must happen because it is 
essential for the economy, the airlines, their employees, and the 
millions of others who rely on a safe and interconnected travel 
industry.
    We are also concerned that complacency will be a factor without a 
mandate.
    Shortly following the outbreak of the COVID-19 pandemic, the 
International Civil Aviation Organization (ICAO) established the 
Council Aviation Recovery Taskforce (CART). The goal of this body was 
to provide practical, aligned guidance to governments and industry 
operators in order to restart the international air transport sector 
and recover from the impacts of COVID-19 on a coordinated global basis. 
CART offers guidelines for airports, aircraft, crews, and cargo and 
were guided by the following considerations:
    1. Remain focused on fundamentals: safety, security, and efficiency
    2. Promote public health and confidence among passengers, aviation 
        workers, and the general public
    3. Recognize aviation as a driver of economic recovery.
    ALPA believes that this hearing and the participation of all of our 
industry partners in the ICAO CART measures is an essential step toward 
our Nation's successful recovery effort.
    While our energy and resources are focused on fighting the global 
pandemic, the need for an enhanced, risk-based, and efficient approach 
to aviation security at our Nation's airports has not diminished. This 
aligns with ICAO CART's position of ``remaining focused'' on safety, 
security, and efficiency concurrently. ALPA continues to push for 
necessary changes in aviation security, and we encourage the 
Transportation Security Administration (TSA) to seek improvements of 
their screening processes. These improvements must ensure we maintain 
the level of security required at airports to address the everchanging 
threats our industry faces, while simultaneously ensuring passengers 
and workers are able to quickly and efficiently traverse secured areas 
is unaffected. U.S. ingenuity and innovation has led to significant 
improvements in individual and cargo screening technologies that will 
significantly improve the screening process well into the future. Our 
nation's leadership in aviation demands that we embrace these 
technologies and continue to pursue still undiscovered ones. This has 
been an on-going strategy of TSA Administrator Pekoske and ALPA 
supports his efforts.
    ALPA believes that this pandemic offers the opportunity to move 
forward with science-based safety and security initiatives and 
improvements.
                 no-touch safety and security screening
    With the need for social distancing ranking high on the COVID-19 
mitigation and prevention spectrum, any initiative which will remove 
the need for close interaction between Transportation Security Officers 
(TSOs) and individuals to be screened should be encouraged. The Known 
Crewmember (KCM) program and CBP's Global Entry program are two 
examples of resources which can efficiently screen individuals with 
very little physical contact. TSA PreCheck also reduces the contact 
between TSOs and those being screened. CBP and TSA should be encouraged 
to maximize the use of these programs for the safety and security 
benefits which they offer during this pandemic and beyond. ALPA has 
long supported biometric technologies to expedite the security 
screening processes. TSA should implement biometrics for KCM and 
PreCheck program participants, and for all those who work at airports, 
to reduce the potential of physical contact.
    ALPA supports mandatory temperature checks for passengers and crews 
as a means of mitigating the risk of spreading COVID-19 and in order to 
provide some level of reassurance to the traveling public. The TSA has 
been recognized as a possible agency to perform this function. If this 
proposal were to be implemented, we would urge the agency to use 
additional TSOs who are not engaged during that shift in security 
screening activities to perform that function. A TSO should not be 
distracted by any additional, unrelated duties while conducting 
security screening. Another consideration is to have medically trained 
staff accomplish these functions. Those engaged in temperature 
screening should have appropriate training and be provided with 
personal protective equipment. We would also recommend that temperature 
screening be conducted in advance of the baggage checking process, to 
limit the exposure to others by an individual with a temperature and 
preclude the need for retrieving the bags of such an individual.
    In conclusion, the COVID-19 pandemic has pushed our once thriving 
industry to the brink of destruction. Airlines which just a few months 
ago were purchasing new aircraft and enjoying record-low fuel costs are 
now exploring cost-cutting strategies to remain solvent. For our 
industry to fully recover, all stakeholders must work together to 
develop a plan that restores the public's faith in flying.
    We appreciate the opportunity to offer these comments and we look 
forward to the hearing.
            Sincerely,
                                  Captain Joseph G. DePete,
             President, Air Line Pilots Association, International.
                                 ______
                                 
 Statement of John Gannon, CEO/President, Blue Spark Technologies, Inc.
                             June 18, 2020
    Blue Spark Technologies, the manufacturer of TempTraq a wireless 
remote body temperature monitor, is respectfully submitting this paper 
to the Homeland Subcommittee on Maritime and Transportation Security 
relative to its June 18 hearing on Stakeholder Views on Resuming Air 
Travel in Covid-19 Era.
    It is universally recognized that 80 percent or more of those who 
contract COVID-19 show early signs of the virus through an increase in 
their body temperature. Protecting employees and business operations 
from disruption by simply taking an employee's temperature as they 
arrive at work only insures a reading at that particular moment in 
time. To effectively protect the total system, employees need to be 
constantly monitored during the entire workday so if an employee's 
temperature should rise on the job, they can quickly be removed to 
determine if it is COVID-related or another issue.
    TempTraq, the first FDA-cleared single-use, wireless, continuous 
temperature monitor available was originally developed for hospital 
patient use. TempTraq is a soft, comfortable, and disposable patch the 
size of a Band-Aid that integrates state-of-the-art ultra-thin printed 
batteries based on technology originally licensed from Energizer 
Corporation. TempTraq is a one-time-use disposable device that is 
placed in the armpit and continuously measures and records body 
temperature and sends the information in real time to a remote 
dashboard where the wearers' patch is centrally monitored or to the 
wearer's smart phone through an app. TempTraq Connect is the HIPAA-
compliant cloud service supported by the Google Healthcare Cloud 
Platform that enables those wearing the patch to monitor body 
temperature from anywhere even to their smart phones.
    During the pandemic, TempTraq was approved by HHS and FEMA to be 
utilized to monitor front-line health care providers and other critical 
essential workers. This included use within command centers of nuclear 
power plants where critical personnel entering these command centers 
are monitored throughout their shift to make sure they are not 
experiencing a fever rise. This protects not only the wearer but also 
helps to eliminate disruption of the critical facility.
    We believe that the uninterrupted operations of our airports and 
especially that of our air traffic control system is vital to the 
safety of air travel and to rebuild confidence with the flying public. 
To safeguard the integrity of our air traffic control system, we 
suggest that each air traffic control employee be issued 24-Hour 
TempTraq Patches at the beginning of their shift. The unique ID of the 
TempTraq patch would be aligned with the employees profile in the 
TempTraq dashboard. The dashboard continuously updates the temperature 
of all employees from the time they enter the operation to when they 
leave and flags an alert if there is a fever incident. A COVID-19 
outbreak in this highly critical industry could be catastrophic due to 
the lack of qualified backup personnel.
    As for large- and medium-hub airport facilities, we believe all 
employees should be monitored in the same fashion as the air traffic 
controllers using the TempTraq patch during the entire time they are 
present at the airport facility. This would include all TSA staff, 
airport staff, and those companies that operate concessions. The 
airport management could easily monitor all employees at a common 
command center and should any one of the staff on-site show a spike in 
temperature, that individual would be immediately removed to a secure 
place to determine if they have the virus. Utilizing the patch for all 
those non-fliers at an airport would protect not only the employees and 
the facility but also provide additional confidence to fliers that 
those facilities are taking all the precautions needed to safeguard 
their travel.
    TempTraq has been successfully used to identify infected personnel 
mid-shift in front-line health care applications. Operations that 
simply check the temperature of the workforce as they enter the 
facility, fail to fully safeguard both the employee and the facility 
after that initial test. TempTraq's continuous monitoring is the only 
way to guarantee real-time full coverage of the workforce and facility.
    Last, although the cruise line industry is not the subject of 
today's hearing, we have also reached out to that industry to utilize 
the patch on both their staff and the customers while on-board the 
ship. This would provide an early sign for all so the impacted wearer 
could be isolated until such time the cause of the rise was determined. 
Once again, this would provide all with a sense of protection and 
overcome many of the fears associated with taking a cruise.
    By submittal of our statement we hope it will provide the committee 
with a better understanding of this modern technology that currently 
exists which could greatly help fight the spread of COVID-19. We 
appreciate the time of the committee.
                                 ______
                                 
                         Article From USA Today
  opinion.--secretary chao has authority to require airline refunds, 
                    covid safety. she should use it.
Transportation Secretary Elaine Chao could be doing more to protect air 
        travelers amid COVID. Refund and safety decisions should not be 
        up to airlines.
Anna Laitin and William J. McGee, Opinion contributors.
    The COVID-19 crisis has dramatically impacted the lives of 
Americans--their health, their economic outlook and much more. Air 
travel is one area of life that has been completely turned upside down. 
For months, very few Americans stepped onto an airplane. As more and 
more people start to think about flying again, concerns about the 
layouts of airports and airplanes make them problematic transmission 
risks for travelers.
    This situation demands an attentive and consumer-focused Department 
of Transportation. Unfortunately, Transportation Secretary Elaine Chao 
has stepped back from her duty to protect passengers. She has not taken 
the actions needed to assist the thousands of consumers who can't get 
their money back from airlines after canceling flights. And she has 
failed to set guidelines for airline and airport safety measures that 
protect travelers and employees. Instead, she is deferring to the 
airlines to do this work for her.
Use authority to protect passengers
    In the face of a record number of complaints from consumers seeking 
refunds, Secretary Chao has called on airlines to treat passengers 
fairly during the pandemic. While we heartily agree with her that 
consumers should be entitled to refunds for travel disrupted by the 
COVID-19 crisis, we urge the secretary to recognize and act on her 
authority to resolve this problem for consumers.
    Since the COVID-19 crisis began, Consumer Reports has heard from 
nearly 3,500 consumers who were denied refunds for canceled travel. 
We've heard from people whose scheduled events--graduations, weddings, 
reunions, conventions, conferences--have been canceled with no 
expectation that those trips will ever happen again. Some have told us 
they're afraid to fly now, because of age or medical conditions. Many 
are in desperate need of cash to replace lost wages and have no use for 
a voucher for future travel. These consumers resent giving interest-
free loans or total write-offs to airlines they just bailed out with 
billions of tax dollars.
    Secretary Chao has the authority to fix this. If she truly agrees 
that consumers are not being treated fairly, she can declare the 
airlines' refusal to provide refunds to be ``unfair''--and unlawful. 
And on that basis, she can require the airlines to refund consumers' 
money.
    More broadly, as States begin to open and travelers begin flying 
again, it is incumbent on the secretary to use the authority of her 
position to ensure that consumers are safe and healthy when they fly. 
Rather than merely urge the airlines to act fairly and with travelers' 
health in mind, the proper job of the Transportation secretary is to 
protect consumers when the airlines fail to do so.
    Secretary Chao can do this using the same authorities used by past 
Transportation secretaries who required airlines to include all fees in 
advertised fares and adopt stronger security measures following 9/11. 
Just as flyers are looking to the Department of Transportation to help 
them secure refunds when their travel is canceled, they are counting on 
the DOT and the Federal Aviation Administration to ensure that their 
health is not unreasonably put at risk when they do travel.
Uniform health and safety standards
    The secretary must work with other key administration officials and 
take an active role in establishing requirements for airlines, 
airports, and travelers to protect against the transmission of COVID-19 
during air travel. Among the key areas where expert guidance is needed:
  <bullet> How and whether to screen passengers and employees for 
        COVID-19 before travel.
  <bullet> Appropriate social distancing in airports and airplane 
        cabins.
  <bullet> Use of face masks and other personal protective equipment 
        for passengers and employees.
  <bullet> Appropriate airport and airplane cleaning procedures.
  <bullet> Effectiveness of airplane cabin air circulation systems.
    These decisions should not be made in a patchwork. Individual 
airports and private sector airlines should not be left to fashion 
these critical yet delicate health, safety, and privacy policies on 
their own. And consumers should not be left to evaluate which airlines 
and airports are ensuring adequate precautions for the health and well-
being of travelers and their families.
    Our view: Airlines got coronavirus aid, so why are they stingy on 
flight refunds and safety?
    The most critical responsibility of the DOT and the FAA is to 
secure the safety and well-being of all passengers and of everyone 
working in commercial aviation. Secretary Chao says she recognizes that 
U.S. airlines and airports need to do more. But we urge her to also 
recognize that it is her own department that needs to provide the 
leadership to see all air travelers safely through this COVID-19 
crisis.
    Anna Laitin is director of financial fairness and legislative 
strategy for Consumer Reports, and William J. McGee is an aviation 
adviser for Consumer Reports. Follow them on Twitter: @AnnaLaitin, 
@WilliamJMcGee.

    Mr. Correa. The Members of the subcommittee may have 
additional questions for the witnesses and, we ask that the 
witnesses respond expeditiously in writing to those questions.
    Without objection, the committee records shall be kept open 
for 10 days.
    Hearing no further business before this committee, this 
subcommittee stands adjourned.
    Thank you, everybody.
    [Whereupon, at 5:55 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

         Questions From Honorable Dina Titus for Kevin M. Burke
    Question 1. How is restoring consumer confidence in air travel 
critical to districts like Nevada's 1st Congressional District that 
rely on millions of visitors from around the world to come work, play, 
and stay?
    Answer. Restoring public confidence in air travel is absolutely 
critical to ensure the economic vitality of cities and towns across the 
United States that rely on travel and tourism. In support of this 
initiative, ACI-NA in April 2020 established the Airport Industry 
Recovery Advisory Panel (AIRAP) comprised of airport representatives 
from many of our association's committees to provide guidance and 
direction as the industry navigates restart and recovery. The advisory 
panel issued a report outlining 42 immediate industry recommendations 
and priorities for ACI-NA to move forward on as the industry prepares 
for the future. The initial recommendations focus on legislative policy 
changes, new regulatory efforts, and instituting good practices. ACI-NA 
also launched a ``Ready for Every Journey'' campaign to help educate 
passengers and local communities about the steps airports are taking to 
protect health and safety as travel resumes following the coronavirus 
(COVID-19) pandemic.
    Prior to the COVID-19 pandemic, U.S. airports were powerful 
economic engines in their local communities, generating more than $1.1 
trillion in annual activity and supporting over 11 million jobs. They 
have since been reduced to mere shells of their former selves, with 
passenger traffic down--at the peak--by over 90 percent from the levels 
we saw this time last year. As a result, airports and tenants are 
struggling to survive. ACI-NA estimates U.S. airports face at least $23 
billion in operating losses as a result of the COVID-19 pandemic, based 
on preliminary data about air service reductions to date.
    Question 2. Air travel is picking up, even though the virus 
continues to loom large. Can airports continue to meet cleaning and 
sanitation standards as passenger volume grows?
    Answer. Airports responded quickly to COVID-19 by implementing 
measures to provide for the health and safety of their passengers, 
employees, and tenants, through the establishment of enhanced cleaning 
and sanitation protocols, with an intense focus on ``touch points.'' In 
addition, airports have deployed additional hand sanitizer in airport 
public areas for passengers and employees, and enhanced communications 
to raise awareness about measures--including social/physical 
distancing--to reduce the spread of COVID-19.
    The cleaning and sanitization reimbursement program established by 
TSA through the CARES Act has helped ensure that airports are better 
positioned to support increased cleaning and sanitization in response 
to the COVID-19 National emergency. We encourage Congress to fully 
authorize and appropriate funds for this program so it can be sustained 
in the future.
    Question 3. Currently the security fee the Government collects on 
each airplane ticket goes to the general fund to pay down the National 
deficit. I cosponsored a bill led by our Chairman and the Chairman of 
the House Committee on Transportation and Infrastructure that would 
change that. Especially in light of this pandemic, does continuing to 
allow this diversion make sense, or is it time for those funds to go 
toward aviation security?
    Answer. ACI-NA has long called on Congress to end the diversion of 
user fees designed to enhance security. Each year billions of dollars 
from the 9/11 Passenger Security Fee (and CBP user fees) are diverted 
from their intended purpose to subsidize other Federal programs. In 
this time of National emergency, it is critical to stop these budgetary 
gimmicks, end the fee diversion, and ensure the revenue is restored to 
its proper use of funding and enhancing crucial transportation security 
programs. In particular, the 9/11 Passenger Security Fee should be used 
for its intended purpose, to fund civil aviation security services, 
including the salary, benefits, and overtime for Transportation 
Security Officers, as well as the acquisition, operation, and 
maintenance of screening technology. In ending the fee diversion, 
however, it is critical to ensure the agencies are fully funded to 
support existing and new programs.
          Questions From Honorable Dina Titus for Sara Nelson
    Question 1. Have you heard of your members being furloughed or 
having pay or benefits reduced? When October 1, comes around how do you 
think airline employees will fare?
    Answer. As of July 31, none of our members have been involuntary 
furloughed because of the CARES Act's Payroll Support Program (PSP). 
Only PSP has protected the jobs and health care of our members during 
this unprecedented crisis for aviation, including a near-total collapse 
of flight volume and passenger demand in the months following the 
pandemic. While compensation varies across carriers and positions, many 
carriers have reduced payroll to the level of the contract minimum for 
members who aren't working flights. Many flight attendants have 
experienced a 30 percent reduction in take-home pay, a direct 
consequence of the drop in flight volume across the industry. Only PSP 
has kept us on payroll and health care and protected our members 
against massive furloughs, permanent layoffs, and further dislocation.
    If the Payroll Support Program is not extended immediately, 
hundreds of thousands of airline workers will be laid off on October 1. 
Major airlines and regional carriers Nationally have already begun 
sending WARN Act notices to thousands and thousands of flight 
attendants and other aviation workers. The result will diminish the 
industry for years to come, eliminate regular air service to 
communities across the country, and undermine aviation's role in 
economic recovery for the broader economy.
    Question 2. Keeping in mind that aviation workers have shown up to 
work every day, have airline employees received hazard and sick pay 
since this pandemic began? Should they?
    Answer. Flight attendants have not received any hazard or sick pay 
since the pandemic began. We are deeply grateful for the Payroll 
Support Program (PSP), which has kept us on the job, on health care, 
and off unemployment. Without an extension of the PSP program, hundreds 
of thousands of front-line aviation workers will lose their jobs 
starting on October 1.
     Question From Honorable Dina Titus for Victoria Emerson Barnes
    Question. How is restoring consumer confidence in air travel 
critical to districts like Nevada's 1st Congressional District that 
rely on millions of visitors from around the world to come work, play, 
and stay?
    Answer. Restoring Confidence in air travel as well as confidence in 
the travel experience broadly is absolutely critical: 38 percent of all 
jobs lost due to COVID-19 are travel-related jobs and without restoring 
consumer confidence throughout the travel ecosystem, quite frankly, the 
economy will not recover in the short term.
    Prior to the COVID-19 pandemic, 1 of every 10 American jobs 
represented the travel and tourism industry, 15.8 million American 
jobs. These jobs were supported by $1.1 trillion in traveler spending 
in 2019 that generated $2.6 trillion in total economic output. As a 
result of the COVID-19 pandemic, the industry, and the economic 
impacts, have been decimated. While the rest of the economy is in 
recession, the travel industry is in a depression. Nearly 40 percent of 
all jobs lost through April represent the travel industry, that's more 
than 8 million jobs or 51 percent of the pre-COVID-19 workforce. Travel 
spending is expected to lose $519 billion causing $1.2 trillion in 
economic loss. For perspective, these figures are 10 times worse than 
the economic impacts of September 11, which took the industry 2 years 
to recover.
    U.S. Travel and our partners have been closely monitoring travel 
economic data and traveler sentiment. After shrinking below 100,000 for 
much of April (down 96 percent year over year), TSA has steadily seen 
increased screening throughput, peaking at 764,000 just before the July 
Fourth holiday.\1\ Unfortunately, it seems traveler sentiment has 
recently begun trending negatively. After many weeks of improving 
sentiment, recent spikes of new COVID-19 cases seem to be having an 
impact. An increasing number of travelers now report changing plans (76 
percent up from 69 percent 2 weeks ago), and 40 percent now say they 
will delay air travel for at least the next year. Domestic air and 
hotel bookings for future travel is down 70 percent over the same 
period last year.
---------------------------------------------------------------------------
    \1\ https://www.tsa.gov/coronavirus/passenger-throughput.
---------------------------------------------------------------------------
    Reversing this trend and accelerating recovery will take two 
primary steps. These steps will take a mutual effort between government 
and the private sector. First, implementing health and safety protocols 
to protect aviation workers and customers is essential. While all risk 
cannot be mitigated, applying a consistent, phased, and layered 
approach to health and safety will help give travelers confidence in 
what they can expect throughout the travel experience. U.S. Travel, in 
coordination with 30 industry trade groups including airports and 
airlines, has developed guidance that aims to provide consistency in 
the approach to safety employed by travel brands and destinations 
during the customer experience. The guidance includes using 
transmission barriers, enhanced sanitation and promoting touchless 
solutions.
    Second, clearly communicating the health and safety operations of 
businesses and expectations of travelers will provide clarity and 
confidence to travelers. Destination marketing organizations (DMOs), 
which already have tools for communicating directly with travelers, 
should be activated to communicate health and safe travel throughout 
the country. To maximize effectiveness, Congress should provide DMOs 
the resources they need by passing the STEP Act (S. 4299) which was 
introduced in the Senate this month. The STEP Act would allocate up to 
$10 billion in Economic Development Administration (EDA) grants for 
promoting safe and healthy travel practices and marketing destinations 
that have safely reopened for business. By providing DMOs the resources 
to clearly communicate health and safety protocols, Congress can safely 
boost travel confidence, demand, rehiring.
    Implementing industry-wide National marketing campaign and Federal 
grants to DMOs, will help restore demand for travel that is critical to 
State and local economies. Without assistance from the Federal 
Government, the travel industry is not expected to reach 2019 levels 
until 2024. According to Tourism Economics, these 2 relief efforts, 
coupled with consumer tax incentives, will generate $71 billion in 
additional travel industry spending by the end of 2021.\2\
---------------------------------------------------------------------------
    \2\ https://www.ustravel.org/toolkit/covid-19-travel-industry-
research?utm_source=- 
MagnetMail&utm_medium=email&utm_content=7%2E28%2E20%20%2D%20- 
COVID%20Weekly%20%2323&utm_campaign=ust.
---------------------------------------------------------------------------
    The top priority of travel businesses is helping to keep travelers 
and employees healthy and safe. When we all do our part, which includes 
individual responsibly for wearing masks, following sanitation 
recommendations, and staying home if you're sick, we can all travel 
confidently. Thank you and please don't hesitate to reach out to me or 
my team to follow up and provide more details about our proposals for 
stimulating air-travel by instilling confidence in the traveler.

                                 <all>
</pre></body></html>
